1a
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 19-2228
-----------------------------------------------------------------------

GRAHAM B. SPANIER
v.
DIRECTOR DAUPHIN COUNTY
PROBATION SERVICES;
ATTORNEY GENERAL PENNSYLVANIA,
Appellants
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D. C. No. 3-19-cv-00523)
Magistrate Judge: Honorable Karoline Mehalchick
-----------------------------------------------------------------------

Argued June 16, 2020
Before: CHAGARES, PORTER
and FISHER, Circuit Judges.
(Filed: December 1, 2020)
Kimberly A. Boyer-Cohen
Marshall Dennehey Warner Coleman & Goggin
2000 Market Street, Suite 2300
Philadelphia, PA 19103

2a
Ronald Eisenberg [ARGUED]
Ofﬁce of Attorney General of Pennsylvania
1600 Arch Street, Suite 300
Philadelphia, PA 19103
Counsel for Appellants
Bruce P. Merenstein [ARGUED]
Samuel W. Silver
Schnader Harrison Segal & Lewis
1600 Market Street, Suite 3600
Philadelphia, PA 19103
Counsel for Appellee
-----------------------------------------------------------------------

OPINION OF THE COURT
-----------------------------------------------------------------------

FISHER, Circuit Judge.
This case stems from the disturbing child sex
abuse scandal involving the football program at the
Pennsylvania State University. In 2017, Penn State’s
former president, Graham Spanier, was convicted of
child endangerment for his role in the decision not
to report the suspected abuse to state authorities.
Spanier and other university administrators made
that decision in 2001. However, after their decision and
before Spanier’s trial—in 2007, to be exact—the Pennsylvania legislature amended the statutory deﬁnition
of child endangerment and its statute of limitations.
Although Spanier’s conduct preceded these amendments, the jury was instructed in language that
tracked the post-amendment statute.

3a
Spanier challenged his state-court conviction
through a petition for a writ of habeas corpus, arguing
that his rights under the Due Process and Ex Post
Facto Clauses were violated. He also argued that his
due process rights were violated by the application of
an exception to the statute of limitations. The District
Court granted Spanier’s petition and vacated his conviction. The Commonwealth appeals. We will reverse.
1.
A.

Factual History: Spanier’s Conduct

In 1998, a woman called the Penn State police to
complain that her eleven-year-old son had showered
with Jerry Sandusky, who was the well-known defensive coordinator for Penn State’s football team. The boy
was involved with the Second Mile program, a charitable organization Sandusky founded that helped vulnerable youth. The police chief brought news of the
complaint to Gary Schultz, Penn State’s Senior Vice
President for Finance and Business. The chief kept
Schultz informed, and Schultz in turn told Spanier the
details of the investigation as it unfolded. Schultz also
told Timothy Curley, the university’s Athletic Director,
about the investigation.
Both the Penn State police and the Pennsylvania
Department of Public Welfare investigated the complaint. Ultimately, those entities concluded that sexual
assault could not be proven, and the DA did not ﬁle
charges. Spanier was copied on two emails about the

4a
investigation: one at the beginning and one saying it
had concluded.
In 1999, Sandusky retired. He was granted emeritus status, and he still had access to Penn State football facilities. He also remained actively involved with
Second Mile.
On Friday, February 9, 2001, around 8:00 or
8:30 in the evening, graduate assistant coach Michael
McQueary went to the football building. He saw
Sandusky and a boy he estimated to be “[r]oughly 10
to 12 years old” naked together in the shower, clearly
engaged in sexual activity. App. 806. Shaken, he immediately spoke with his father and a family friend. The
next morning, Saturday, February 10, McQueary told
longtime head football coach Joe Paterno. Paterno
asked to meet with Athletic Director Curley and Senior
Vice President Schultz. The three men spoke a day
later, on Sunday, February 11. Paterno reported what
McQueary had told him, but he used the terms “horseplay” and “wrestling” to describe what McQueary saw.
App. 1056. Later that day, Schultz asked Penn State’s
general counsel for advice. Counsel recommended that
the University report the incident to the Department
of Public Welfare.
On Monday, February 12, Curley and Schultz reported the situation to Spanier. According to Schultz’s
contemporaneous notes, the three men “reviewed 1998
history,” i.e., the 1998 investigation; they “agreed
[Curley] will . . . advise [Paterno] we think [Curley]
should meet [with] [Sandusky] on Friday”; they

5a
decided that “unless [Sandusky] ‘confesses’ to having a
problem, [Curley] will indicate we need to have DPW
[the Department of Public Welfare] review the matter”;
and “[Curley] will keep [Schultz] posted.” App. 1379.
The next week, Curley and Schultz asked
McQueary to meet with them, and McQueary again
described what he had seen. McQueary testified, “I
told them that I saw Jerry molesting a boy, that what
he was doing in a shower with a minor on the Friday
night was sexual, it was over the line.” App. 816.
McQueary vigorously denied ever using the word
“horseplay” to describe the incident to anyone.
Two weeks later, on Sunday, February 25, 2001,
Curley and Schultz again met with Spanier. After the
meeting, Schultz found an online listing of Second
Mile’s board of directors, printed it out, and wrote three
action items on the back: “Tell Chair of Board of Second
Mile,” “Report to Dept of Welfare,” and “Tell [Sandusky]
to avoid bringing children alone into [football] Bldg.”
App. 1151, 1393-94. Schultz emailed Curley the next
day to conﬁrm that Curley “[had] the ball” on these
next steps. App. 1382, 1143-44.
On Tuesday, February 27, however, Curley
emailed Spanier and Schultz and shared that he’d had
a change of heart:
After giving it more thought and talking it
over with Joe [Paterno] yesterday—I am uncomfortable with what we agreed were the
next steps. I am having trouble with going to
everyone, but the person involved. I think I

6a
would be more comfortable meeting with the
person and tell[ing] him about the information we received. I would plan to tell him
we are aware of the ﬁrst situation [the 1998
incident]. I would indicate we feel there is a
problem and we want to assist the individual
to get professional help. Also, we feel a responsibility at some point soon to inform his organization [Second Mile] and . . . maybe the other
one [child protective services] about the situation. If he is cooperative we would work with
him to handle informing the organization
[Second Mile]. If not, we do not have a choice
and will inform the two groups. Additionally, I
will let him know that his guests [Second Mile
children] are not permitted to use our facilities. I need some help on this one. What do you
think about this approach?
App. 1386, 1075-81. Spanier responded:
This approach is acceptable to me. It requires
you to go a step further and means that your
conversation will be all the more difﬁcult, but
I admire your willingness to do that and I am
supportive. The only downside for us is if the
message isn’t heard and acted upon, and we
then become vulnerable for not having reported it. But that can be assessed down the
road. The approach you outline is humane and
a reasonable way to proceed.
App. 1386, 1082-83. As agreed, Curley spoke with
Sandusky and Second Mile’s executive director. Then
Curley circled back to Spanier and “told him I took care
of what I was supposed to do and everything was okay.”

7a
App. 1092. The Department of Public Welfare was
never notiﬁed.
After this point in early 2001, the Sandusky saga
went quiet—at least as far as Penn State’s administration was concerned. But that was not the experience of
the children Sandusky continued to abuse. In 2008,
Clinton County Children and Youth Services received another report and the Commonwealth began
another investigation. As a result of this investigation,
Sandusky was convicted of crimes related to his abuse
of several children, including four he abused after
2001.
B. Legal Backdrop: The Amendment of
Pennsylvania’s Child Endangerment
Statute and the Pennsylvania Supreme
Court’s Decision in Commonwealth v. Lynn
Before turning to the procedural history of this appeal, we ﬁrst introduce its legal backdrop, which is encapsulated in Commonwealth v. Lynn, 114 A.3d 796
(Pa. 2015). This discussion is necessary to explain the
circumstances of Spanier’s conviction.
William Lynn, a Roman Catholic priest, was the
Secretary for Clergy of the Archdiocese of Philadelphia
in the 1990s and early 2000s. Id. at 798. He “was responsible for . . . handling clergy sexual abuse issues,”
acting as the ‘point man’ in the investigation into . . .
allegations of clergy sexual abuse of minors within
the Archdiocese.” Id. at 798-99. While Lynn was Secretary for Clergy, priests in the diocese sexually abused

8a
children. Some children were victimized by priests
who, Lynn knew, had abused other children in the past.
Id. at 799-806.
In 2002, a grand jury was empaneled at the request of the Philadelphia District Attorney to investigate clergy sex abuse in the diocese. Id. at 806-07. The
grand jury’s report concluded that the 1995 version of
the Pennsylvania child endangerment statute, 18 Pa.
C.S. § 4304, which was then in effect, “allowed church
ofﬁcials such as [Lynn] to escape criminal liability.” Id.
at 807. The grand jury explained that the statute was
“too narrow to support a successful prosecution of the
decision-makers who were running the Archdiocese.
The statute conﬁnes its coverage to parents, guardians,
and other persons ‘supervising the welfare of a child.’
High level Archdiocesan ofﬁcials, however, were far removed from any direct contact with children.” Id. (citation omitted).
Based on its understanding of the statute, the
grand jury did not recommend criminal charges
against Lynn. Instead, it recommended amending the
child endangerment statute “to encompass conduct by
individuals in an employer or supervising capacity.” Id.
“[T]he legislature obliged, and amended the . . . statute, effective January 27, 2007.” Id. The 2007 amendment added new language, which is underlined here:
(a)

Offense deﬁned.-(1) A parent, guardian or other person supervising the welfare of a child
under 18 years of age, or a person

9a
that employs or supervises such a
person, commits an offense if he
knowingly endangers the welfare of
the child by violating a duty of care,
protection or support.
(2) A person commits an offense if
the person, in an ofﬁcial capacity,
prevents or interferes with the making of a report of suspected child
abuse under 23 Pa.C.S. Ch. 63 (relating to child protective services).
(3) As used in this subsection, the
term “person supervising the welfare
of a child” means a person other than
a parent or guardian that provides
care, education, training or control of
a child.
(b) Grading.--An offense under this section
constitutes a misdemeanor of the ﬁrst degree.
However, where there is a course of conduct of
endangering the welfare of a child, the offense
constitutes a felony of the third degree.
18 Pa. C.S. § 4304 (2007) (emphasis added). The Pennsylvania legislature also amended the statute of limitations for § 4304, adding the underlined language:
(a) General rule.--Except as otherwise provided in this subchapter, a prosecution for an
offense must be commenced within two years
after it is committed. . . .

10a
(c) Exceptions.--If the period prescribed in
subsection (a) . . . has expired, a prosecution
may nevertheless be commenced for: . . .
(3) Any sexual offense committed
against a minor who is less than 18
years of age any time up to the later
of the period of limitation provided
by law after the minor has reached
18 years of age or the date the minor
reaches 50 years of age. As used in
this paragraph, the term “sexual offense” [includes] a crime under . . .
[18 Pa. C.S.] Section 4304 (relating to
endangering welfare of children).
42 Pa. C.S. § 5552 (2007) (emphasis added).
Despite the grand jury’s hesitations about charging Lynn under the 1995 statute, the Commonwealth
decided to do so in 2011. Lynn, 114 A.3d at 807-08.
Lynn was convicted and he appealed, arguing that the
evidence was insufﬁcient because he did not supervise
children and therefore was not within the scope of the
1995 statute. Id. at 815-16. The Superior Court agreed
and reversed the conviction. Id. at 817.
The Pennsylvania Supreme Court reversed the
Superior Court, ruling that Lynn’s conviction under
the 1995 statute was not erroneous. The Court observed that despite the usual rule of lenity, child endangerment statutes “are written expansively by the
legislature ‘to cover a broad range of conduct in order
to safeguard the welfare and security of our children,’ ”
and should be construed to effectuate that broad

11a
purpose. Id. at 818 (quoting Commonwealth v. Marlin,
305 A.2d 14, 18 (Pa. 1973)); see also id. at 822. The 1995
statute covers “[a] parent, guardian or other person supervising the welfare of a child,” 18 Pa. C.S. § 4304(a),
and the Supreme Court held that “the statute is plain
and unambiguous that it is not the child that [Lynn]
must have been supervising, but the child’s welfare.”
Id. at 823. The Court reasoned that “the requirement
of supervision is not limited to only certain forms of
supervision, such as direct or actual,” but “[b]y its plain
terms . . . encompasses all forms of supervision of a
child’s welfare.” Id. at 824. “[S]upervision,” the Court
explained, “is routinely accomplished through subordinates, and is no less supervisory if it does not involve
personal encounters with the children. Like [Lynn],
school principals and managers of day care centers supervise the welfare of the children under their care
through their management of others.” Id. Lynn came
within the purview of the statute because, “by his own
concession, he supervised the welfare of the children of
the Archdiocese.” Id.
The Court said that the views of the grand jury
and the DA (who declined to prosecute Lynn under the
1995 statute) did not “prove the meaning of the . . .
statute, which is determined by analyzing [its] plain
language.” Id. at 827. The Court also discounted the
subsequent amendment of § 4304, invoking Pennsylvania’s statutory interpretation statute, which provides that legislative history is not taken into account
when a statute’s language is clear. Id. (citing 1 Pa.
C.S. § 1921). The Court added that “while the former

12a
version of a statute is relevant to discern the legislative intent of a later version when the statutory
language is ambiguous, the inverse is not true.” Id. In
other words, while the 1995 version of the statute
might illuminate the meaning of the 2007 statute,
the 2007 statute could not illuminate the meaning of
the 1995 statute. Concluding that Lynn’s conduct ﬁt
within the plain language of the 1995 statute, the
Pennsylvania Supreme Court reversed the Superior
Court and held there was sufﬁcient evidence to convict.
Id.
C.

Procedural History

The Commonwealth ﬁled a criminal complaint
against Spanier in 2012—five years after the statutory amendments described above, but before the
Pennsylvania Supreme Court held in Lynn that the
pre-amendment child endangerment statute did not
require “personal encounters with . . . children.” 114
A.3d at 824. Spanier moved to quash the complaint, arguing that the charges should be dismissed because
the allegedly wrongful acts were committed in 2001
and the normal two-year statute of limitations expired
in 2003. The Commonwealth responded that Spanier
engaged in a course of conduct endangering child welfare until 2012, and therefore he “was charged well
within the applicable statute of limitation.” App. 498.
The trial court rejected Spanier’s limitation argument,

13a
and in 2017, two years after Lynn, the case went to
trial.1
The count that became Count 1 charged that
Spanier, “being a parent, guardian, or a person supervising the welfare of various children under 18 years
of age, knowingly endangered the welfare of said children.” App. 417. This language tracked the 1995 statute because it omitted the phrase added in 2007, “or
a person that employs or supervises such a person.”
The statutory reference, however, was 18 Pa. C.S.
§ 4304(a)(1). App. 417. In the 1995 statute, there was
no paragraph (a)(1); the 2007 amendment had changed
the structure of the statute to create paragraph (a)(1).
Thus, the language of the criminal information reﬂected the 1995 statute, but its statutory reference reﬂected the 2007 statute.2
At the start of trial, the judge instructed the jury
using the language of the 1995 statute. App. 704 (“elements of the ﬁrst count” include that “the defendant
was, at the time he endangered the welfare of a child,
a parent, guardian, or person supervising the welfare
of the child”). At the charge conference near the end of
1

We omit the procedural history of the case between 2012
and 2017, which involved (among other things) an interlocutory
appeal regarding whether the testimony of Penn State’s former
general counsel was admissible. See Commonwealth v. Spanier,
132 A.3d 481, 482 (Pa. Super. Ct. 2016). What transpired during
that time is not relevant to the issues we address in this appeal.
2
Spanier was acquitted of Count 2 (preventing or interfering
with a report of child abuse) and Count 3 (conspiracy to endanger
the welfare of a child), so those counts form no part of his habeas
petition or this appeal.

14a
trial, Spanier’s attorney objected that the ﬁnal instruction the judge planned to give “has the language of the
current [2007] statute, and, as we’ve said throughout
this case, we think the [1995] language should apply.”
App. 1215. The court ultimately rejected this argument, and at the end of trial, it instructed the jury using the language of the amended, 2007 statute:
The defendant has been charged with endangering the welfare of a child. To ﬁnd the defendant guilty of this offense, you must ﬁnd
that each of the following elements has been
proven beyond a reasonable doubt. . . .
[T]hat the defendant was at the time a parent,
guardian, person supervising the welfare of a
child under the age of 18, or a person that employs or supervises such a person. The term
“person supervising the welfare of a child”
means a person other than a parent or guardian that provides care, education, training, or
control of a child.
App. 1306-07 (emphasis added, indicating language
added in 2007 statutory amendment). The jury found
Spanier guilty of this count. But, when asked on the
verdict slip whether there was a “Course of Conduct
(Yes or No),” the jury answered “no.” App. 1397. Because there was no course of conduct, Spanier was convicted of a misdemeanor. See 18 Pa. C.S. § 4304(b) (“An
offense under this section constitutes a misdemeanor
of the ﬁrst degree. However, where there is a course of
conduct . . . , the offense constitutes a felony of the
third degree.”). Spanier was sentenced to two months

15a
of incarceration, two months of house arrest, and two
years of probation.
In its post-trial opinion, the trial court concluded
there was no error in instructing the jury using the
2007 statutory language. It rested this conclusion on
Lynn, reasoning that, even under the 1995 statute,
supervising the welfare of a child was not limited to
direct supervision. App. 1533, 1539. The court also concluded that the prosecution was not barred by the statute of limitations because, under the amended, 2007
version of 42 Pa. C.S. § 5552(c), the statute would not
run until the child McQueary saw in the shower turned
50 years old. McQueary testiﬁed that the child was 10
to 12 years old, so the statute would run in “approximately the year 2039.” App. 1526. Notably, as explained above, the Commonwealth had not relied on
pre- or post-amendment § 5552(c) before or during
trial; it had argued that there was no problem with the
normal § 5552(a) two-year statute of limitations because Spanier’s course of conduct lasted until 2012.
The jury’s ﬁnding that there was no course of conduct
took that argument off the table and brought § 5552(c)
into play.
On appeal, the Superior Court relied on Lynn to
afﬁrm Spanier’s conviction. Commonwealth v. Spanier,
192 A.3d 141, 150-54 (Pa. Super. Ct. 2018). The Court
also rejected Spanier’s statute of limitations argument,
concluding that there was no due process violation
in the Commonwealth’s reliance on the § 5552(c) statute of limitations. Id. at 145-48. Spanier’s petition for

16a
allowance of appeal in the Pennsylvania Supreme
Court was denied.
Spanier had the right to continue pursuing relief
in state court under Pennsylvania’s Post-Conviction
Review Act, but he chose instead to ﬁle a petition for a
writ of habeas corpus in federal court under 28 U.S.C.
§ 2254. The District Court granted the petition, holding that Spanier’s conviction violated the Ex Post Facto
and Due Process Clauses. Spanier v. Libby, No. 3:19CV-523, 2019 WL 1930155, at *15, 18 (M.D. Pa. Apr. 30,
2019). However, it concluded that the application of the
§ 5552(c) statute of limitations did not violate due process. Id. at *19. The Commonwealth appeals.
II.3
A.

The Ex Post Facto Clause

The state courts rejected Spanier’s argument that
his conviction violated the Ex Post Facto Clause. They
relied on Lynn, 114 A.3d at 796, to rule that Spanier’s
conduct was criminalized by the 1995 version of the
statute, which was in effect when he committed the
conduct. The District Court analyzed the Ex Post Facto
Clause together with the Due Process Clause and held
that the state courts’ application of Lynn violated both.
Spanier, 2019 WL 1930155, at *7-15. We begin by addressing the District Court’s ex post facto holding.

3

The District Court had jurisdiction under 28 U.S.C.
§ 2254(a). This Court has jurisdiction under 28 U.S.C. §§ 1291,
2253(a).

17a
The Ex Post Facto Clause provides that “[n]o State
shall . . . pass any . . . ex post facto Law.” U.S. Const.
art. I, § 10, cl. 1 (emphasis added). Passage of a law is
strictly a legislative function, so “[t]he Ex Post Facto
Clause, by its own terms, does not apply to courts.”
Rogers v. Tennessee, 532 U.S. 451, 460 (2001). Rather,
“[a]s the text of the Clause makes clear, it ‘is a limitation upon the powers of the Legislature. . . .’ ” Id. at
456 (quoting Marks v. United States, 430 U.S. 188, 191
(1977)). Here, the Pennsylvania General Assembly did
not provide that the 2007 version of the statute would
apply retroactively. See 18 Pa. C.S. § 4304 (2007); Act
of Nov. 29, 2006, No. 2006-179, 2006 Pa. Laws 1581,
1589 (providing that amendments to § 4304 “shall take
effect in 60 days”). Therefore, there was no ex post facto
violation.
The real problem, according to Spanier and the
District Court, is how the state courts construed the
child endangerment statute through their application
of the Pennsylvania Supreme Court’s Lynn decision.
Where a state court unforeseeably applies a law retroactively, that is a due process problem. Bouie v. City of
Columbia, 378 U.S. 347, 353-54 (1964) (“If a state legislature is barred by the Ex Post Facto Clause from
passing [an unforeseeable retroactive enlargement of
a law] . . . , it must follow that a State Supreme Court
is barred by the Due Process Clause from achieving
precisely the same result by judicial construction.”).
Any constitutional violation that occurred here would
be a due process error, not an ex post facto error. We
proceed, then, to the due process analysis.

18a
B.

Due Process and the Jury Instruction

The Due Process Clause requires that a criminal
statute “give fair warning of the conduct that it makes
a crime.” Id. at 350. A statute cannot give fair warning,
of course, where it is “vague or overbroad.” Id. at 351.
The required fair warning also might be lacking where
a statute, which is “precise on its face,” is “unforeseeably and retroactively expanded by judicial construction.” Id. at 352. But not every after-announced change
in criminal law is a due process violation. Instead, due
process is violated where a state court’s interpretation
of a criminal statute is “unexpected and indefensible
by reference to the law which had been expressed prior
to the conduct in issue.” Id. at 354. This formulation
preserves the necessary balance. It gives state courts
“leeway” as they perform their work of judicial interpretation, but also “adequately respects the due process concern with fundamental fairness and protects
against vindictive or arbitrary judicial lawmaking by
safeguarding defendants against unjustiﬁed and unpredictable breaks with prior law.” Rogers, 532 U.S. at
461-62.
This appeal requires us to decide whether the
Pennsylvania Superior Court’s afﬁrmance of Spanier’s
conviction, based on its construction of the 1995 statute, was “unexpected and indefensible.” Bouie, 378 U.S.
at 354. For the reasons we will explain, we conclude it
was not, and therefore habeas relief is not warranted.
First, though, we must consider whether Spanier’s
claim was properly before the District Court.

19a
1.

Exhaustion

The Commonwealth argues that Spanier should
not have received habeas relief because he did not
follow the statutory directive to “exhaust[] the remedies available in the courts of the State.” 28 U.S.C.
§ 2254(b)(1)(A). A claim is exhausted when the petitioner raises it on direct appeal, “fairly present[ing] . . .
[its] factual and legal substance . . . in a manner that
puts [state courts] on notice that a federal claim is being asserted.” Bennett v. Superintendent, 886 F.3d 268,
280 (3d Cir. 2018) (internal quotation marks omitted)
(quoting McCandless v. Vaughn, 172 F.3d 255, 261 (3d
Cir. 1999)). The petitioner must “cit[e] the relevant provision of the United States Constitution and federal
cases supporting his argument.” Id. at 281. Because
due process takes a variety of forms, we evaluate exhaustion with reference to the particular kind of due
process claim at issue. See Gray v. Netherland, 518 U.S.
152, 164-65 (1996) (separately analyzing exhaustion of
due process claims that rested on distinct bodies of
case law “aris[ing] in widely differing contexts”).
The Commonwealth argues that Spanier failed to
exhaust his claim because, on direct appeal of his conviction, he cited United States v. Marcus, 560 U.S. 258,
263-64 (2010), and Marks, 430 U.S. at 191-92. The
Commonwealth contends that he needed to cite Rogers, 532 U.S. at 461. However, Marcus, Marks, and Rogers deal with the same kind of due process violation—
retroactive application of a change in criminal law
through judicial decision-making—at different stages
of a case. Marcus and Marks deal with trial error.

20a
Marcus, 560 U.S. at 264 (holding that due process is
violated “if the jury . . . was not instructed about [a
criminal statute’s] enactment date” and convicts a defendant for “noncriminal, preenactment conduct”);
Marks, 430 U.S. at 196 (holding that due process is violated if the trial court instructs the jury based on the
current interpretation of a statute, rather than the interpretation that controlled at the time of the allegedly
criminal acts). Rogers deals with the same kind of error
on appeal. 532 U.S. at 454-56 (considering whether
state appeals court violated due process by retroactively abolishing a common-law defense the defendant
had relied on).
The Commonwealth, citing Gray, 518 U.S. at 164,
argues that Spanier did not exhaust the particular
kind of due process claim he now asserts. The different
types of due process claims involved in Gray, however,
were supported by separate lines of cases. 518 U.S.
at 164. Here, by contrast, a single line of cases stemming from Bouie supports the due process arguments
Spanier made both on direct appeal and in the District
Court on habeas. Unlike the defendant in Gray,
Spanier presented the “factual and legal substance” of
his claim to the state courts and “cit[ed] the relevant
provision of the United States Constitution and federal
cases supporting his argument.” Bennett, 886 F.3d at
280-81 (citation omitted). Therefore, his claim is exhausted.

21a
2.

Merits

Spanier argued on direct appeal that the jury instruction regarding child endangerment was erroneous because it was based on the 2007 version of the
statute rather than the 1995 version. The trial court
charged the jury that it should convict Spanier if it
found that, in addition to knowingly violating a duty of
care, protection, or support to a child, Spanier was “at
the time a parent, guardian, person supervising the
welfare of a child under the age of 18, or a person that
employs or supervises such a person.” App. 1307 (emphasis added, indicating language added in 2007 statutory amendment). The Pennsylvania Superior Court
held that, “[o]n the facts of this case” and “[g]iven . . .
the Lynn Court’s treatment of the pre-2007 version of
§ 4304,” there was no reversible error. Spanier, 192
A.3d at 154. On habeas review, the District Court concluded that the Superior Court’s application of Lynn
to afﬁrm Spanier’s conviction violated due process.
Spanier, 2019 WL 1930155, at *15-17.
At the threshold, the Commonwealth argues
that this issue is not cognizable in habeas corpus
litigation because we are “bound to accept” a state
supreme court’s construction of its own state’s statutes. Missouri v. Hunter, 459 U.S. 359, 368 (1983). This
argument fails. While we are indeed bound by the
Pennsylvania Supreme Court’s construction of Pennsylvania statutes, we are not bound by Pennsylvania
courts’ conclusions regarding violations of the United
States Constitution. See id. Whether the 2007 statute
was impermissibly applied to Spanier has clear federal

22a
due process dimensions, and we do not defer to the
Pennsylvania courts’ holdings on this point.
To determine whether the District Court erred in
holding there was a due process violation, we must decide whether the state court decision—here, the Pennsylvania Superior Court’s afﬁrmance of Spanier’s
conviction, based on its interpretation of Lynn—”was
contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by
the Supreme Court of the United States.” 28 U.S.C.
§ 2254(d)(1). The Supreme Court has emphasized
that “[t]his standard . . . is ‘difficult to meet’: . . . [the
petitioner] must show that the challenged state-court
ruling rested on ‘an error well understood and comprehended in existing law beyond any possibility for fairminded disagreement.’ ” Metrish v. Lancaster, 569 U.S.
351, 357-58 (2013) (quoting Harrington v. Richter, 562
U.S. 86, 102-03 (2011)). “ ‘[C]learly established Federal
law’ under § 2254(d)(1) is the governing legal principle
or principles set forth by the Supreme Court at the
time the state court renders its decision.” Lockyer v.
Andrade, 538 U.S. 63, 71-72 (2003). Therefore, we consider Supreme Court decisions up to 2018, when the
Pennsylvania Superior Court afﬁrmed Spanier’s conviction.
In the 1964 Bouie case, individuals conducting a
sit-in at a segregated lunch counter were convicted of
criminal trespass under a state statute that forbade
uninvited entry “after notice . . . prohibiting such entry.” 378 U.S. at 348-49 (quoting S.C. Code Ann. § 16386 (1960 Cum. Supp.). Soon after, the South Carolina

23a
Supreme Court issued an opinion in a different case,
Mitchell, holding that the statute also prohibited remaining on property after being told to leave. Id. at 350
n.2 (citing City of Charleston v. Mitchell, 123 S.E.2d
512 (S.C. 1961)). Then, when the Bouie defendants appealed their convictions, the South Carolina Supreme
Court afﬁrmed on the basis of Mitchell. Id. at 350. The
U.S. Supreme Court reversed, stating that Mitchell’s
broader interpretation was “clearly at variance with
the statutory language” and, furthermore, in the 95
years leading up to Mitchell, state cases “uniformly
emphasized the notice-before-entry requirement, and
gave not the slightest indication that that requirement
could be satisﬁed by proof of the different act of remaining on the land after being told to leave.” Id. at
356-57. Mitchell was an “unexpected and indefensible”
interpretation of the statute in light of prior law, and
therefore its application to afﬁrm the conviction was a
due process violation. Id. at 354 (citation omitted).
This case is like Bouie in that the state appellate
court applied state supreme court precedent post-dating the conduct in question (here, Lynn) to afﬁrm the
conviction. See id. at 350. However, the South Carolina
statute at issue in Bouie was unlike the 1995 Pennsylvania child endangerment statute in at least one important way. The South Carolina trespassing statute
was “precise on its face”: it applied to “entry upon the
lands of another . . . after notice . . . prohibiting such
entry.” Id. at 351-52 (quoting S.C. Code § 16-386). The
1995 Pennsylvania child endangerment statute is not
similarly precise: its language, “parent, guardian or

24a
other person supervising the welfare of a child,” 18 Pa.
C.S. § 4304(a), leaves room for—and even necessitates—judicial interpretation. This language raises,
among other questions, the issues of what is meant by
“supervising” and who is a “person supervising the welfare of a child.” Therefore, the Pennsylvania courts’
work to interpret the child endangerment statute is
hardly unforeseeable, as was the South Carolina Supreme Court’s sudden expansion of that state’s unambiguous trespassing statute.
We next consider the 2001 opinion in Rogers v.
Tennessee. There, the defendant stabbed a man who
died of the injury ﬁfteen months later, and the defendant was then convicted of murder. 532 U.S. at 454. The
defendant appealed on the basis of the common law
rule under which there could be no murder conviction
unless the victim died within a year and a day. Id. at
453-54. On appeal, the Tennessee Supreme Court abolished the rule and afﬁrmed the conviction. Id. at 455.
The U.S. Supreme Court reiterated that due process is
violated only by “judicial interpretations of criminal
statutes . . . that are ‘unexpected and indefensible,’ ”
because state courts need “substantial leeway . . . as
they engage in the daily task of formulating and passing upon” common law doctrines. Id. at 461-62 (quoting
Bouie, 378 U.S. at 354). The state court’s ruling “was
not unexpected and indefensible” because the year and
a day rule was “widely viewed as an outdated relic of
the common law,” id. at 462, had never served as the
basis of a decision, and was mentioned in state case

25a
law only three times in dicta, id. at 464. Therefore,
there was no due process violation. Id. at 467.
The principles enunciated in Rogers are certainly
relevant here: state courts need leeway to engage in
their work, and federal courts should not hold routinely that this work violates due process. Id. at 46162. But the Tennessee court struck down an outmoded
common law rule that was never really established
in Tennessee law. See id. at 462-64. That decision
bears little resemblance to the Pennsylvania Superior
Court’s interpretation of the child endangerment statute based on its reading of Lynn. Therefore, the outcome in Rogers is not especially illuminating here.
The ﬁnal relevant Supreme Court case is Metrish
v. Lancaster, issued in 2013. There, the defendant
was convicted of ﬁrst-degree murder. 569 U.S. at 354.
He invoked Michigan’s “diminished capacity” defense,
which applied to individuals who were not insane, but
whose mental illness “negat[ed] the mens rea element
of ﬁrst-degree murder.” Id. At the time of the killing,
the defense was well established. Although the Michigan Supreme Court had not recognized it, the intermediate appellate court had done so repeatedly, and the
pattern jury instructions included the defense. Id. at
355-57.
After the killing, but before the defendant’s trial,
the Michigan Supreme Court addressed the defense
for the ﬁrst time in People v. Carpenter, 627 N.W.2d 276
(Mich. 2001). The Michigan Supreme Court eliminated
the defense. It explained that the Michigan legislature

26a
had enacted a “ ‘comprehensive statutory scheme’ . . .
to govern defenses based on mental illness.” Metrish,
569 U.S. at 364 (quoting Carpenter, 627 N.W.2d at 282).
The diminished capacity defense, which had existed
before the statute was enacted but was not mentioned
in the statute, was—the Michigan Supreme Court concluded—”incompatible” with the statutory scheme. Id.
at 363, 365. Later, when the defendant appealed, the
state’s intermediate appellate court held that applying
Carpenter retroactively did not violate due process because “Carpenter concerned an unambiguous statute
that was interpreted by the [Michigan] Supreme Court
for the ﬁrst time.” Id. at 365 (internal quotation marks
and citation omitted). The U.S. Supreme Court agreed
there was no due process violation. Id.
The Court noted that it reached the same outcome—no due process violation—in both Metrish and
Rogers, even though the defense eliminated in Rogers
was “outdated” and “widely rejected,” while the defense
eliminated in Metrish was widely recognized. Id. at
365-67 (citation omitted). Acknowledging that different outcomes might have been expected based on the
different statuses of the two defenses, the Court explained that merely because the Michigan defense was
widely recognized was “hardly sufﬁcient to warrant
federal habeas relief under 28 U.S.C. § 2254(d)(1)’s demanding standard.” Id. at 367. The habeas standard is
so rigorous that relief is not available merely because
the state supreme court announces a new rule of law.
Rather, the new rule must be “unexpected and indefensible by reference to [existing] law.” Id. at 368 (quoting

27a
Rogers, 532 U.S. at 462). The Michigan Supreme
Court’s Carpenter decision did not meet this deﬁnition.
The U.S. Supreme Court noted that it had “never found
a due process violation in circumstances remotely resembling [those]—i.e., where [1] a state supreme court,
squarely addressing a particular issue for the ﬁrst
time, [2] rejected a consistent line of lower court decisions [3] based on the supreme court’s reasonable interpretation of the language of a controlling statute.”
Metrish, 569 U.S. at 367-68.
Here, as in Metrish, [1] the Pennsylvania Supreme
Court, in Lynn, squarely addressed for the ﬁrst time
the application of the 1995 statute to those who supervised the welfare of children without supervising the
children themselves. According to the District Court
and Spanier, Lynn [2] rejected a consistent line of
Pennsylvania Superior Court decisions that applied
the 1995 version of the child endangerment statute
only to defendants who were directly involved with
children. Spanier, 2019 WL 1930155, at *14. And Lynn
is [3] the state supreme court’s reasonable interpretation of the language of the statute.4 As in Metrish, the
state appellate court held that retroactively applying
the state supreme court decision, Lynn, did not violate
due process. See Spanier, 192 A.3d at 153-54. Based on
4

The District Court did not conclude that Lynn was unexpected and indefensible; it concluded that the Superior Court’s afﬁrmance of Spanier’s conviction was. Spanier, 2019 WL 1930155,
at *15. Similarly, Spanier does not attack Lynn. Instead, he argues that “the state courts in his case misinterpreted Lynn” and
incorrectly interpreted “the 1995 statute as including language
added in 2007.” Appellee’s Br. 40 n.10.

28a
these parallels, Metrish weighs against a ﬁnding that
there was a due process violation here.
We must now decide, in light of Bouie, Rogers, and
Metrish, whether the Pennsylvania Superior Court’s
afﬁrmance of Spanier’s conviction “was contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States.” 28 U.S.C. § 2254(d)(1). The
District Court, on habeas review, concluded that the
Superior Court’s decision met this standard. Spanier,
2019 WL 1930155, at *15. The Court also held that
the jury instruction permitted a conviction either because Spanier supervised the welfare of a child by
“provid[ing] care, education, training, or control,” or because he was “a person that employs or supervises
such a person.” Id. at *17 (quoting jury instructions).
According to the District Court, the second option was
available only under the amended 2007 statute, and
permitting a conviction on that alternative basis violated due process by relieving the Commonwealth of
its burden to prove every element of the 1995 statute.
Id.
The Commonwealth argues that the District
Court erred and that the application of Lynn to afﬁrm
Spanier’s conviction was not unexpected and indefensible. Spanier’s response aligns with the District Court.
He says Lynn held that the 1995 statute required the
defendant to have supervised the welfare of a child either directly or indirectly, and that the 2007 statute
added another category of persons who could be liable:
those who are “not supervising the welfare of a child,”

29a
even indirectly, but are “employing or supervising
someone else who was doing so.” Appellee’s Br. 43. He
argues that his due process rights were violated because the jury could have convicted him based on a
ﬁnding that he ﬁt in the new category.
However, due process was violated here only if
the Superior Court’s afﬁrmance of Spanier’s conviction
was an “unexpected and indefensible” interpretation of
the child endangerment statute in light of prior law,
i.e., Lynn. See Bouie, 378 U.S. at 354 (citation omitted).
We conclude that it was not. The Superior Court extensively reviewed the Lynn decision before holding that
it was not error to instruct the jury using the language
of the 2007 statute. Spanier, 192 A.3d at 150-54. The
Court began by noting Lynn’s commentary that the
child endangerment statute “is protective in nature,
and must be construed to effectuate its broad purpose
of sheltering children from harm.” Id. at 150 (quoting
Lynn, 114 A.3d at 818). Such statutes “are written expansively by the legislature to cover a broad range of
conduct in order to safeguard the welfare and security
of our children.” Id. (quoting Lynn, 114 A.3d at 818).
Therefore, “[t]he common sense of the community, as
well as the sense of decency, propriety and the morality
which most people entertain is sufﬁcient to apply the
statute to each particular case, and to individuate
what particular conduct is rendered criminal by it.” Id.
at 151 (quoting Lynn, 114 A.3d at 818).
The Superior Court rejected Spanier’s argument
that he was positioned differently than Lynn, a diocesan official who was “responsible for protecting

30a
children from sexual abuse.” Id. at 152. The Court held
that Spanier “oversaw and approved the university’s
woefully deﬁcient response” to the abuse allegations,
so the fact that his ofﬁcial duties did not include addressing child abuse did “not undermine or preclude a
conclusion that he was supervising the welfare of a
child.” Id. at 153. To support this conclusion, the Superior Court quoted Lynn’s holding that the 1995 statute,
“[b]y its plain terms, . . . encompasses all forms of supervision of a child’s welfare.” Id. at 152 (quoting Lynn,
114 A.3d at 824).
The Superior Court also was unpersuaded by
Spanier’s argument that his case is distinguishable
from Lynn because he “did not supervise persons who
interacted directly with the minor in question, as did
the Lynn defendant or as would a school principal or
daycare manager.” Id. The Superior Court pointed out
that “[t]he Lynn Court held that it is the child’s welfare
that is supervised” under the child endangerment statute. Id. Because Spanier “supervised his school’s response to repeated allegations of on-campus abuse of a
minor by a high-status former employee with access
to campus facilities[,] [h]e was clearly supervising a
child’s welfare pursuant to Lynn.” Id.
Finally, the Superior Court addressed Spanier’s
argument that the jury instruction was erroneous
and stated that, “[g]iven our analysis of . . . the Lynn
Court’s treatment of the pre-2007 version of [the statute], we discern no reversible error.” Id. at 154. The
Superior Court held that “the language added [to the
statute] in 2007 or, more appropriately, the language

31a
not included in the pre-2007 version, does not alter the
result here.” Id. It concluded that “[o]n the facts of this
case, the trial court’s instruction on the 2007 version of
the . . . statute did not result in an inaccurate statement of the law.” Id. Although the Superior Court did
not say it in so many words, the import of its holding
is that the “employs or supervises” language included
in the jury instruction accurately reﬂected the meaning of the 1995 statute. See id. This analysis ﬂows directly from its careful reading of Lynn. We cannot
agree with Spanier that the Superior Court “misinterpreted Lynn” and incorrectly construed “the 1995 statute as including language added in 2007.” Appellee’s
Br. 40 n.10.
We acknowledge that, in some respects, this case
is like Bouie—where there was a due process violation
in the application of a state supreme court decision
that changed the meaning of a state statute. Bouie, 378
U.S. at 361. But in other respects, this case is like Metrish—where there was no due process violation in the
application of a state supreme court decision that
struck down a widely relied-upon defense to criminal
liability. Metrish, 569 U.S. at 365. Because of the equipoise in the case law, the habeas standard is particularly important here: the writ may not be granted
unless the state court decision “was contrary to, or involved an unreasonable application of, clearly established Federal law.” 28 U.S.C. § 2254(d)(1). There can
be no “possibility for fairminded disagreement.” Metrish, 569 U.S. at 357-58 (quoting Harrington v. Richter,
562 U.S. 86, 102-03 (2011)). “[T]he petitioner must

32a
demonstrate that Supreme Court precedent requires
[a] contrary outcome” to the state court decision. Rosen
v. Superintendent, 972 F.3d 245, 252 (3d Cir. 2020)
(quoting Matteo v. Superintendent, 171 F.3d 877, 888
(3d Cir. 1999) (en banc)). Here, Bouie and Metrish point
in different directions, creating more than a possibility
for fairminded disagreement. Therefore, we must reverse in light of “28 U.S.C. § 2254(d)(1)’s demanding
standard.” Metrish, 569 U.S. at 367.
The District Court cited Bouie and Rogers, but did
not examine them closely. Spanier, 2019 WL 1930155,
at *12. Nor did it mention Metrish. The Court pointed
to the 2005 grand jury report discussed in Lynn, which
declined to recommend charging Lynn under the 1995
version of the child endangerment statute and instead
recommended that the statute be amended. Id. at *15.
The Lynn opinion, however, clariﬁes that “[t]he decisions of neither the grand jury nor a prior District Attorney [who chose not to charge Lynn under the 1995
statute] prove the meaning of the . . . statute, which is
determined by” plain-language analysis. Lynn, 114
A.3d at 826-27. Following this holding, we conclude
that the subsequent grand jury report is not persuasive evidence of the meaning of the 1995 statute, and
therefore does not demonstrate that the application of
Lynn was “unexpected and indefensible.” See Bouie,
378 U.S. at 354.
Even if we agreed with Spanier that the jury instruction improperly reﬂected the 2007 statute, we
would still reverse. “[N]ot every ambiguity, inconsistency, or deﬁciency in a jury instruction rises to the

33a
level of a due process violation.” Middleton v. McNeil,
541 U.S. 433, 437 (2004). We consider the instruction
“in the context of the instructions as a whole and the
trial record,” asking “ ‘whether there is a reasonable
likelihood that the jury has applied the challenged instruction in a way’ that violates the Constitution.” Estelle v. McGuire, 502 U.S. 62, 72 (1991) (quoting Boyde
v. California, 494 U.S. 370, 380 (1990)).
There is not a reasonable likelihood that the jury
convicted Spanier on the basis of the contested jury instruction language—that is, by ﬁnding that he was “a
person that employs or supervises” someone who is supervising the welfare of a child. App. 1307. The jury instruction at the beginning of the trial reﬂected the
1995 statute and did not include the “employs or supervises” language. App. 704. In his opening statement, Spanier followed suit, emphasizing that to
convict, the jury would need to “ﬁnd that [Spanier]
knowingly endangered the welfare of a child by violating a duty of care, protection or support, to a child
whose welfare he was supervising.” App. 739. And the
Commonwealth’s theory of the case was that Spanier
himself supervised the welfare of a child, not that
he employed or supervised such a person. Although
the prosecutor argued in closing that “[t]he buck
stopped with” Spanier and that he was “the top of the
food chain,” her repeated theme was that if Spanier,
Schultz, and Curley had “call[ed] the authorities and
let the authorities investigate it, . . . [t]hey wouldn’t
have been responsible. But they took it upon themselves.” App. 1282. She continued with the theme that

34a
Spanier assumed responsibility for supervising the
welfare of a child:
[Spanier, Schultz, and Curley] don’t have a
duty to support this child, but their duty of
care and protection came when they took it.
When they decided in their little group that
they weren’t going to call the outside agency,
that they weren’t going to tell their own University police, but that they themselves, the
three of them, were going to be the cabal that
was going to keep him under control. They
took that responsibility. They can’t hide from
it now. They took it upon themselves. . . .
And, again, that’s a person supervising the
welfare of a child under the age of 18. They
chose that. They didn’t have to. It’s a choice
that Graham Spanier made.
App. 1290. Therefore, it is not reasonably likely that
the jury convicted Spanier because he employed someone who supervised the welfare of a child—rather than
because he himself supervised the welfare of a child.
On direct appeal, the Pennsylvania Superior
Court took care to note how the record showed that
Spanier himself was supervising the welfare of a child.
It stated multiple times that because Spanier “personally oversaw [the university’s] response” to the abuse
allegations, he “was clearly supervising a child’s welfare pursuant to Lynn.” Spanier, 192 A.3d at 153-54.
The Court reached its conclusion that there was no
error in the jury instruction in light of “the facts of
this case.” Id. at 154. We agree with, and defer to, the

35a
Superior Court’s reasonable reading of the record. See
Waddington v. Sarausad, 555 U.S. 179, 193-94 (2009)
(holding that even if the jury instruction was ambiguous, the state courts reasonably concluded, after reviewing the trial record, that the jury’s conviction was
not based on the incorrect understanding of the law
that the defendant said the instruction had conveyed).
In sum, we conclude that there was no due process
error with regard to the jury instruction. Under clearly
established federal law, state courts have considerable
latitude to rule on the meaning of statutes, and this
latitude extends to announcing a new rule of law to uphold a conviction—so long as the new rule is not unexpected and indefensible. In addition, there is not a
reasonable likelihood that the jury convicted based on
the contested language in the jury instruction. Given
the demanding standard on habeas corpus review of
state-court convictions, we conclude that the District
Court erred in granting the petition.
C.

Due Process and the Statute of Limitations

The District Court held that Spanier’s due process
rights were not violated by the application of the statute of limitations provided in 42 Pa. C.S. § 5552(c).
Spanier, 2019 WL 1930155, at *19. Spanier argues
that this was error, and that we may afﬁrm the grant
of his habeas petition on the alternative basis that the
application of the statute indeed violated due process.
See Murray v. Bledsoe, 650 F.3d 246, 247 (3d Cir. 2011)
(“We . . . may afﬁrm the District Court’s judgment on

36a
any basis supported by the record.”). We disagree that
the application of the statute of limitations provides a
basis to afﬁrm.
Spanier’s limitation argument turns on the multipart structure of the statute, 42 Pa. C.S. § 5552, and on
its 2007 amendment. At the time of Spanier’s crimes,
in 2001, Pennsylvania’s “[g]eneral” criminal statute of
limitations was two years, but there was an “[e]xception[ ]” for “[a]ny sexual offense committed against a
minor”: such a prosecution might be commenced “any
time up to the period of limitation provided by law after the minor has reached 18 years of age,” that is, until
the victim’s twentieth birthday. 42 Pa. C.S. § 5552(a),
(c)(3) (2000). In 2007, when the child endangerment
statute and its limitations rule were amended, the legislature added another exception: prosecution may be
commenced “up to the later of the period of limitation
provided by law after the minor has reached 18 years
of age or the date the minor reaches 50 years of age.”
Id. § 5552(c)(3) (2007) (emphasis added).
When the Commonwealth began prosecuting
Spanier in 2012, its theory was that the general twoyear statute of limitations controlled. The Commonwealth argued that Spanier endangered the welfare of
children through a course of conduct that extended
from 2001 (when he and Schultz and Curley decided
not to report Sandusky to the authorities) until 2012
(when Sandusky was convicted). But the jury rejected
that theory. Although it found Spanier guilty of endangering the welfare of a child, it indicated on the
verdict slip that Spanier had not engaged in a course

37a
of conduct. That meant Spanier was convicted solely
for his actions in 2001—eleven years before the prosecution began. Therefore, the § 5552(a) two-year statute
of limitations could not control. Nevertheless, the trial
court held there was no limitations problem, pointing
to the § 5552(c) exception, which the Commonwealth
had not invoked at any point before the verdict.
This lengthy setup brings us to Spanier’s argument: he contends that his due process rights were
violated because he did not have notice, prior to the
verdict, that the § 5552(c) exception might apply. He
argues that if he had known the Commonwealth would
rely on § 5552(c)(3), he would have investigated and
put on evidence regarding the age of the boy McQueary
saw in the shower. McQueary testiﬁed that the boy was
“[r]oughly 10 to 12 years old” at the time, App. 806, but
if the boy was actually fourteen, he would have turned
20—and the statute of limitations would have run—in
2006, before the January 2007 amendment. In that scenario, the prosecution would be time-barred. See Commonwealth v. Harvey, 542 A.2d 1027, 1030 (Pa.
Super. Ct. 1988) (en banc) (if “the prior statute of limitations has run before the new statute of limitations
becomes effective[,] . . . the cause of action has expired,
and the new statute of limitations cannot serve to revive it”).
The Pennsylvania Superior Court concluded that
Spanier’s due process rights were not violated as a
matter of state law. Under “[e]stablished Pennsylvania
law,” a defendant may be convicted of an uncharged offense that is “a lesser-included offense of the charged

38a
crime.” Spanier, 192 A.3d at 146 (quoting Commonwealth v. Houck, 102 A.3d 443, 449-50 (Pa. Super. Ct.
2014)). Therefore, the Superior Court held, the charge
of felony endangerment (i.e., a course of conduct of
endangerment) put Spanier “on notice that he was
liable to be convicted of misdemeanor [endangerment]”
(i.e., endangerment without a course of conduct). Id.
In addition, the Court held, the complaint was ﬁled
“well outside of the general two-year limitations period of § 5552(a),” so “it was plainly evident . . . that
§ 5552(c)(3) would govern the limitations period for a
misdemeanor [endangerment] prosecution.” Id. at 14647.
The Superior Court also observed that § 5552(c)(3)
is not a tolling provision (those are codiﬁed in § 5554,
titled “Tolling of statute”). Id. at 149; see also 42 Pa.
C.S. § 5552(c) (2000) (providing “Exceptions” to the
general rule and not mentioning tolling). Therefore,
Pennsylvania’s rule requiring notice of intent to rely
on a tolling provision did not apply. Spanier, 192 A.3d
at 149. “The purpose of this rule is to apprise a defendant that he must defend not only against the crime itself, but also against the limitation of prosecution.” Id.
at 148. The rule is crucial where the prosecution will
have to prove separate “fact(s) . . . to toll the statute of
limitations.” Id. In Spanier’s case, however, “the prosecution for misdemeanor [endangerment] was not dependent upon proof of any facts outside those already
alleged in the complaint.” Id. at 148-49. Therefore, “notice requirements under due process were not violated
here.” Id. at 149.

39a
Under the deferential habeas standard, we may
not grant relief unless the Superior Court’s opinion
“was contrary to, or involved an unreasonable application of, clearly established federal law, as determined by the Supreme Court of the United States.”
28 U.S.C. § 2254(d)(1). Spanier says the decision violated his clearly established due process right to notice
of the charges to permit the preparation of his defense.
The Superior Court’s cogent opinion explains that
Spanier received notice commensurate with due process. Spanier, 192 A.3d at 146-49. Spanier ignores that
opinion. He continues to refer to § 5552(c)(3) as a
“toll[ing]” provision, Appellant’s Br. 58, although it is
not, 192 A.3d at 148-49. Nor does he explain, given
Pennsylvania law regarding lesser-included offenses,
why the complaint failed to put him on notice that
§ 5552(c) might apply. Therefore, Spanier does not
show that the Superior Court’s reasoning contradicts
clearly established federal law. The District Court correctly ruled that the statute of limitations issue is not
a basis for habeas relief.
III.
For these reasons, we will reverse the grant of
Spanier’s habeas corpus petition.

40a
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
-----------------------------------------------------------------------

No. 19-2228
-----------------------------------------------------------------------

GRAHAM B. SPANIER
v.
DIRECTOR DAUPHIN COUNTY
PROBATION SERVICES;
ATTORNEY GENERAL PENNSYLVANIA,
Appellants
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D. C. No. 3-19-cv-00523)
Magistrate Judge: Honorable Karoline Mehalchick
-----------------------------------------------------------------------

Argued June 16, 2020
Before: CHAGARES,
PORTER and FISHER, Circuit Judges.
-----------------------------------------------------------------------

JUDGMENT
-----------------------------------------------------------------------

This cause came on to be heard on the record from
the United States District Court for the Middle District of Pennsylvania and was argued on June 16, 2020.

41a
On consideration whereof, it is now hereby ORDERED and ADJUDGED that the order of the District
Court entered April 30, 2019, be and the same is
hereby REVERSED. All of the above in accordance
with the opinion of this Court.
Costs taxed against Appellee.
Attest
s/ Patricia S. Dodszuweit
Clerk
Dated: December 1, 2020

42a
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
GRAHAM B. SPANIER,
Petitioner,
v.

CIVIL ACTION NO.
3:19-CV-523
(MEHALCHICK, M.J.)

CHAD LIBBY, Director of
Dauphin County Probation
Services, et al.,
Respondents.
MEMORANDUM
In March 2017, Petitioner, Graham B. Spanier, was
convicted in the Dauphin County Court of Common
Pleas of one misdemeanor count of endangering the
welfare of a child pursuant to 18 Pa. C.S.A.
§ 4304(a)(1). Spanier now brings this petition for writ
of habeas corpus pursuant to 28 U.S.C. § 2254, asking
this Court to set aside that conviction as it violates his
rights guaranteed under the United States Constitution, and in particular, that the conviction runs afoul
of the Ex Post Facto and Due Process clauses of the
Constitution.
The crux of Spanier’s argument is that he is entitled to habeas relief because he was charged and tried
on the basis of a statute that came into effect six years
after the conduct at issue. The state courts, relying
upon the Pennsylvania Supreme Court’s decision in
Com. v. Lynn, 114 A.3d 796 (Pa. 2015), concluded that
the retroactive application of the 2007 statute to

43a
Spanier’s 2001 conduct was not unconstitutional.
Spanier submits that this retroactive application is unreasonable and far more extensive than anyone in
2001 would have been able to reasonably foresee. The
Court agrees. For the reasons set forth below, the Court
ﬁnds that the Pennsylvania state courts unreasonably
expanded the scope of the pre-amendment child endangerment statute in such a way that it would have
been unforeseeable to Spanier in 2001 that his conduct
could result in criminal culpability under § 4304, and
in a manner which violates bedrock constitutional
principles of due process. For these reasons, the Court
grants the petition for writ of habeas corpus.
I.

STATEMENT

OF THE

CASE

Spanier seeks federal review via the provisions of
28 U.S.C. § 2254. Speciﬁcally, he submits that his conviction violates his rights under the United States
Constitution because (1) it was based on a criminal
statute not in effect at the time of the alleged criminal
conduct; (2) the jury was instructed that it could convict Petitioner on the basis of the later-enacted criminal statute; and (3) the conviction was upheld on the
basis of a statute-of-limitations exception not raised by
the Commonwealth before or during trial.
A. PROCEEDINGS

IN

STATE COURT

In February 2001, Spanier, as President of the
Pennsylvania State University, became aware of and
responded to allegations of sexual abuse of a minor

44a
child by Jerry Sandusky, the former defensive coordinator for the Penn State football team.1 On November
1, 2012, eleven years after the alleged conduct occurred, Spanier was charged in Dauphin County with
eight criminal counts – one count of perjury, two counts
of endangering the welfare of children (EWOC), one
count of obstruction of justice, three counts of conspiracy, and one count of failure to report suspected child
abuse.2, 3

1

Sandusky has since been convicted of 45 counts of sexual
abuse.
2
18 Pa.C.S.A. §§ 4902, 4304(a)(1); 4304(a)(2), 5101, 903, and
23 Pa.C.S.A. § 6319, respectively.
3
The parties appear to dispute which version of the Child
Endangerment statute applied to Spanier’s criminal proceedings.
Respondent claims that “[n]o state court has ever held that the
2007 EWOC statute was retroactively applicable to Spanier, that
the jury was instructed to apply the 2007 statute as opposed to
the 2001 statute, or that he had been convicted under the 2007
statute.” (Doc. 21, at 17). Spanier, however, maintains that he
was improperly tried and convicted under the 2007 statute. (Doc.
21, at 4). It is evident that the Commonwealth charged Spanier
under the 2007 statute, as the criminal complaint ﬁled against
him invoked 18 Pa.C.S. § 4304(a)(1) and 18 Pa.C.S. § 4304(a)(2),
which provisions that did not exist under the 1995 statute. Further, both the Trial Court and Appellate Court decisions acknowledged that the jury convicted Spanier under 18 Pa.C.S.
§ 4304(a)(1), which was not in effect until 2007. (Doc. 1-1, at 7;
Doc. 1-2, at 19). The State Courts also expressly stated that the
jury was instructed on the basis of the 2007 statute. (Doc. 1-1, at
14; Doc. 1-2, at 15). Accordingly, based on the record, the Court is
not persuaded by Respondent’s effective contention that the 2007
statute was not retroactively applied to Spanier during his criminal proceedings and conviction.

45a
Throughout the course of pretrial litigation, all but
three of these counts were dismissed – Endangering
the Welfare of Children (violating a duty of care, protection, or support); Endangering the Welfare of Children (in an Ofﬁcial Capacity, preventing or interfering
with the making of a report of suspected child abuse);
and Conspiracy to commit endangering the welfare of
children. (Doc. 1-2, at 3). At the conclusion of a jury
trial in March 2017, Spanier was convicted of one misdemeanor count of endangering the welfare of a child
pursuant to 18 Pa. C.S.A. § 4304(a)(1). He was acquitted of the other charges against him. Importantly for
this Court’s analysis, he was acquitted of having engaged in a “course of conduct” of child endangerment;
instead, the jury found him guilty of one count stemming from his conduct in February 2001. (Doc. 1-2, at
3). In June 2017, Spanier was sentenced to 4 to 12
months of incarceration. He is scheduled to report for
his sentence on May 1, 2019.
Throughout the trial, Spanier maintains that he
objected to the use of the EWOC Statute because it
charged him under the 2007 version of the statute (the
“2007 statute”), instead of under the 1995 version of
the statute (the “1995 statute”) in effect during his alleged conduct. (Doc. 23, at 7). However, the Commonwealth asserted that the application of the 2007
statute did not violate Spanier’s constitutional rights,
as they had charged him “with a course of conduct that
stretched from February of 2001 until 2012,” and thus
brought him under the purview of the amended statute. (Doc. 23, at 7). Spanier also ﬁled proposed jury

46a
instructions, which excluded the language added in the
2007 version of the amended EWOC statute and
sought an instruction on the applicable statute of limitations. (Doc. 23, at 7). However, the trial court used
the proposed jury instructions provided by the Commonwealth, which reﬂected the language articulated
in the 2007 statute, and declined to instruct the jury
on the statute of limitations issue raised by Spanier.
(Doc. 23, at 8).
B. POST-TRIAL AND STATE COURT APPELLATE DECISIONS

Spanier ﬁled a post-sentence motion on June 8,
2017, which was subsequently denied by the state trial
court on July 5, 2017. (Doc. 1-2, at 3). Thereafter,
Spanier ﬁled a notice of appeal, as well as a Rule
1925(b) statement, on July 17, 2017. (Doc. 1-2, at 3).
After the trial court ﬁled its opinion on September 22,
2017, Spanier appealed his conviction to the Superior
Court of Pennsylvania, raising the following grounds:
(1) “Where the prosecution was commenced
in November 2012, and the only evidence
presented, at trial regarding the charge of
conviction involved conduct in February
2001, and the jury rejected the only argument the Commonwealth made for an
exception to the two-year statute of limitations—that Dr. Spanier engaged in a
course of conduct—did the trial court err
in not entering judgment of acquittal?”

47a
(2) “Where the Commonwealth presented no
evidence of a duty of care that Dr. Spanier
owed any minor child or that he had any
direct interaction with minor children or
was the point person for abuse allegations or supervised the individual who
abused minor children on campus, did the
trial court err in not entering judgment of
acquittal?”
(3) “Where the 2001 version of the childendangerment statute only imposed liability on a parent, guardian, or other
person supervising the welfare of a child,
and Dr. Spanier was convicted for employing or supervising someone else who
was supervising the welfare of a child—a
category added to the statute in 2007—
did his conviction violate the Due Process
and Ex Post Facto Clauses of the state
and federal constitutions?”
(4) “Where Dr. Spanier requested that the
jury be instructed on the statute of limitations, did the trial court err in denying
this request?”
(5) “Where the only conduct, at issue occurred in 2001, did the trial court err in
denying Dr. Spanier’s request to instruct
the jury on the 2001 version of the childendangerment statute rather than the
2007 version?”
(6) “Where the standard jury instructions for
child endangerment are not a complete

48a
statement of the law, did the trial court
err in using them?”
(Doc. 1, at 3-4; Doc. 1-1; Doc. 23-9).
The Superior Court afﬁrmed Spanier’s conviction
in a written opinion on June 26, 2018. (Doc. 1-1); Commonwealth v. Spanier, 192 A.3d 141 (Pa. Super. 2018).
In a 2 to 1 decision, the Superior Court found that
Spanier’s statute of limitations argument was unavailing, as he was “on notice of his potential criminal liability for EWOC,” and was thus, in essence, on
constructive notice that the statute of limitations exception set forth under 42 Pa.C.S.A. § 5552(c)(3) was
applicable to him—even if not expressly invoked by the
Commonwealth before or during trial. (Doc. 1-1, at 11).
Judge Ransom, however, disagreed on this point, and
stated in a dissenting opinion that Spanier’s due process rights were violated when the Commonwealth
failed to apprise him that they would seek to toll the
statute of limitations under § 5552(c)(3). (Doc. 1-1, at
22). According to the dissent, absent proper notice that
the Commonwealth would invoke § 5552(c)(3), the requirements of due process were not met because
Spanier prepared his defense based on the Commonwealth’s express reliance on the course of conduct exception. (Doc. 1-1, at 22).
The Superior Court further found that the evidence was sufﬁcient to convict Spanier under the
EWOC statute. (Doc. 1-1). Speciﬁcally, relying on the
Pennsylvania Supreme Court decision in Commonwealth v. Lynn, 114 A.3d 796 (Pa. 2015), the Superior

49a
Court noted that the 1995 statute “encompasses all
forms of supervision of a child’s welfare,” and that “supervision is routinely accomplished by subordinates.”
(Doc. 1-1, at 12). Accordingly, based on the facts before
the Superior Court, it concluded that the evidence was
sufﬁcient to ﬁnd Spanier was supervising a child’s welfare in accordance with the holding in Lynn. (Doc. 1-1,
at 13). The Superior Court also determined that
Spanier owed a duty of care to the child victimized by
Sandusky in 2001. (Doc. 1-1, at 14). Thus, the “absence
of direct interaction between [Spanier], Shultz, or
Curley and Sandusky’s victims” did not preclude
Spanier’s conviction “under the pre-2007 version of
§ 4304 as construed in Lynn.” (Doc. 1-1, at 14). The Superior Court similarly rejected Spanier’s arguments
regarding the jury instructions, holding that given its
“analysis of the statute of limitations and of the Lynn
Court’s treatment of the pre-2007 version of § 4304”
there was no reversible error. (Doc. 1-1, at 14).
After a request for re-argument was denied,
Spanier ﬁled a petition for allowance of appeal with the
Supreme Court of Pennsylvania. (Doc. 1, at 4). The Supreme Court, however, denied Spanier’s petition on
February 21, 2019. (Doc. 1, at 4).
C. PROCEEDINGS

IN

FEDERAL COURT

Having challenged his conviction in Pennsylvania
state courts, Spanier ﬁled the instant habeas corpus
petition on March 22, 2019. (Doc. 1). Respondent Chad
Libby ﬁled a Response on April 8, 2019 (Doc. 12), and

50a
Respondent Josh Shapiro (hereinafter referred to as
“Respondents”) ﬁled a Response on April 19, 2019.
(Doc. 21). Spanier ﬁled two respective traverses on
April 23, 2019. (Doc. 22; Doc. 23).
In his petition, Spanier seeks federal review pursuant to 28 U.S.C. § 2254, and submits that his conviction violates the Ex Post Facto and Due Process clauses
of the United States Constitution. Speciﬁcally, he submits the conviction violates his Constitutional rights
in that (1) it was based on a criminal statute not in
effect at the time of the alleged criminal conduct; (2)
the jury was instructed that it could convict Spanier on
the basis of the later-enacted criminal statute; and (3)
the conviction was upheld on the basis of a statute-oflimitations exception not raised by the Commonwealth
before or during trial. (Doc. 1).
The ﬁrst two grounds for his petition turn on
whether Spanier’s constitutional rights were violated
when he was charged and the jury instructed under
the 2007 version of the child endangerment statute
when his purported conduct occurred in 2001. Respondents submit that Pennsylvania state courts have
ruled, as a matter of state law, that the prior version of
the EWOC statute in effect in 2001 encompassed and
rendered criminal the same conduct as did the 2007
version, and therefore that the charge and jury instruction were proper. (Doc. 21).
In his third ground for relief, Spanier submits that
he was unconstitutionally deprived of notice that the
Commonwealth would be relying on a statute of

51a
limitations exception in 42 Pa. C.S. § 5552(c)(3), and
that he was denied the opportunity to challenge the
application of this exception at trial, therefore prejudicing his ability to defend against the child-endangerment charge. The state trial and appellate courts
determined that Spanier was properly put on notice of
this exception by virtue of evidence and allegations in
the case. Respondents’ sole argument on this issue is
that the state court rulings are binding on this Court,
and that there is no valid basis for disturbing those
ﬁndings. (Doc. 21).
In addition to their arguments on the merits of
Spanier’s grounds for relief, Respondents submit that
Spanier has failed to exhaust these claims before the
state courts, and therefore this Court is precluded from
reviewing these procedurally defaulted claims.
Fully briefed, and argued before the undersigned
on April 25, 2019, Dr. Spanier’s petition is ripe for review.
II.

EXHAUSTION OF FEDERAL CONSTITUTIONAL CLAIMS
IN THE STATE COURTS

Individuals seeking relief under 28 U.S.C. § 2254
must satisfy speciﬁc and precise procedural standards.
Among these procedural prerequisites is a requirement that the petitioner “has exhausted the remedies
available in the courts of the State” before seeking relief in federal court. 28 U.S.C. § 2254(b). In instances
where a petitioner has failed to exhaust the legal remedies available to him in the state courts, federal courts

52a
typically will refuse to entertain a petition for habeas
corpus. See Whitney v. Horn, 280 F.3d. 240, 250 (3d Cir.
2002). Rooted in principles of comity and reﬂecting the
fundamental idea that the state should be given the
initial opportunity to pass upon and correct alleged
violations of the petitioner’s constitution rights, “the
exhaustion doctrine is designed to give the state courts
a full and fair opportunity to resolve federal constitutional claims before those claims are presented to the
federal courts.” O’Sullivan v. Boerckel, 526 U.S. 838,
844-845 (1999). In order to satisfy § 2254’s exhaustion
requirement, the claims included in a federal petition
must be fairly presented to the state courts. Picard v.
Connor, 404 U.S. 270, 275 (1971).
The burden of establishing that such claims were
fairly presented falls upon the petitioner. See Evans v.
Court of Common Pleas, Delaware Cnty., Pa., 959 F. 2d
1227, 1229 (3d Cir. 1992); Lambert v. Blackwell, 134
F.3d 506, 513 (3d Cir.1997). This requires that the
claim brought in federal court be the substantial equivalent of that presented to the state courts. Santana v.
Fenton, 685 F.2d 71, 74 (3d Cir. 1982), cert. denied, 459
U.S. 1115 (1983). It is not sufﬁcient that a “somewhat
similar state-law claim was made.” Anderson v.
Harless, 459 U.S. 4, 6 (1982). Yet, the petitioner need
not have cited “book and verse” of the federal constitution. Picard, 404 U.S., at 277. Thus, the federal habeas
court should “look to the substance of the claim presented to the state courts, rather than its technical designation.” Evans, 959 F.2d, at 1231. To “fairly present”
a claim for exhaustion purposes, the petitioner must

53a
advance “a federal claim’s factual and legal substance
to the state courts in a manner that puts them on notice that a federal claim is being asserted.” Bennett v.
Superintendent Graterford SCI, 886 F.3d 268, 280 (3d
Cir. 2018) (quoting McCandless v. Vaughn, 172 F.3d
255, 261 (3d Cir. 1999)).
While this exhaustion requirement compels petitioners to have previously given the state courts a fair
“opportunity to apply controlling legal principles to the
facts bearing upon [the petitioner’s] constitutional
claim,” Picard, 404 U.S., at 276, this requirement is
to be applied in a common sense fashion. Bartone v.
Overmeyer, No. 1:15-CV-2142, 2016 WL 4059686, at *6
(M.D. Pa. June 29, 2016), report and recommendation
adopted sub nom. Bartone v. Overmyer, No. 1:15-CV2142, 2016 WL 3997436 (M.D. Pa. July 26, 2016). Thus,
the exhaustion requirement is met when a petitioner
submits the gist of his federal complaint to the state
courts for consideration, without requiring that the
petitioner engage in some “talismanic” recitation of
speciﬁc constitutional claims. Evans, 959 F.2d, at 123033. Similarly, a petitioner meets his obligations by
fairly presenting a claim to the state courts even if the
state courts decline to speciﬁcally address that claim.
See Dye v. Hofbauer, 546 U.S. 1(2005) (per curiam);
Johnson v. Pinchak, 392 F.3d 551, 556 (3d Cir. 2004).
With these legal benchmarks in mind, the Court
turns to the arguments on exhaustion for each of the
grounds raised by Spanier in his petition.

54a
A. GROUND ONE: THE APPLICATION
STATUTE TO 2001 CONDUCT

OF THE

2007

Respondents asserts that Spanier never meaningfully argued that the judicial interpretation of the 1995
state statute, that actually controlled the outcome of
this case, violated his federal Due Process rights under
Bouie and its progeny. (Doc. 21, at 21). In support of
this assertion, the Commonwealth cites the following
excerpt from Spanier’s brief to the Pennsylvania Superior Court:
And if this Court upholds the retroactive application of the statute to Dr. Spanier, this
would violate his due process rights. See
Marks v. United States, 430 U.S. 188, 191-92
(1977); Commonwealth v. Davis, 760 A.2d 406,
410 (Pa. Super. 2000); U.S. CONST. amend
XIV, § 1; PA. CONST. art. 1, § 9.
(Doc. 21, at 20; Doc. 23-9, at 15).
In addition to having raised the concern that the retroactive application of the statute would violate his
due process rights, citing both federal and state
caselaw, and the pertinent sections of the United
States and Pennsylvania Constitutions, Spanier also
raised the issue of the retroactive application in his
questions for review to the Superior Court:
The state and federal constitutions prohibit
the government from imposing punishment
for conduct that was not criminal, at the time
of the conduct but was later criminalized. In
2001, when the alleged conduct, at issue here
occurred, the child-endangerment statute did

55a
not encompass someone who was employing
or supervising someone else who was supervising the welfare of a minor child; this “employing or supervising” provision was added
to the statute in 2007. To the extent Dr.
Spanier’s child-endangerment conviction was
based on his alleged employment or supervision of someone else who was supervising the
welfare of a child, did the trial court err in not
entering a judgment of acquittal?
Answer below: No.
(Doc. 1-1, at 7; Doc. 23-9, at 7; Commonwealth
v. Spanier, 192 A.3d 141, 144 (Pa. Super.
2018)).
Respondents submit that “it is unclear what Spanier
as arguing” and that nothing in his argument “would
put the state court fairly on notice that he was challenging the application of the state courts’ interpretation of the 2001 EWOC statute to him.” (Doc. 21, at 21).
The Court does not agree with this contention.
Spanier argued to the Superior Court that “[t]he
state and federal constitutions prohibit the government from imposing punishment for conduct that was
not criminal, at the time of the conduct but was later
criminalized.” Spanier described the activity in the
state trial court that he found to offend the federal
constitution – the punishing of conduct not criminal,
at the time the conduct occurred – and that conduct
which was precluded by the United States Supreme

56a
Court in the Marks case cited by Spanier in the very
same paragraph.4
Spanier fairly presented the issue of the unconstitutional application of a 2007 statute to 2001 conduct
to the Pennsylvania Superior Court by citing the relevant provision of the United States Constitution and
federal cases supporting his argument. Bennett v. Superintendent Graterford SCI, 886 F.3d 268, 280–81 (3d
Cir. 2018); see also Wilkerson v. Superintendent, 871
F.3d 221, 228–29 (3d Cir. 2017). As such, he has fully
exhausted this claim.
B. GROUND TWO: JURY INSTRUCTIONS
STATUTE FOR 2001 CONDUCT

ON

2007

Respondents also submit that Spanier’s claim related to the jury instruction on the 2007 statute is
procedurally defaulted. (Doc. 21, at 29). Speciﬁcally,
Respondents claim that Spanier “raised only state lawbased and Ex Post Facto challenges to the jury instruction, the latter of which, as previously discussed, are
inapplicable to judicial determinations.” (Doc. 21, at
29). On state court review, a citation of a relevant provision of the federal constitution and federal cases supporting petitioner’s argument constitutes exhaustion
of a § 2254 claim. Bennett, 886 F.3d, at 281 (citations
4

The Supreme Court, in Marks, held “ . . . that the Due Process Clause precludes the application to petitioners of the [new]
standards . . . to extent that those standards may impose criminal
liability for conduct not punishable under [case law, at time of
conduct].” Marks v. U.S., 430 U.S. 188, 196 (1977).

57a
omitted). In the section of his brief to the Pennsylvania
Superior Court about the jury instructions used, at trial,
Spanier stated “[t]he trial court erred in instructing
the jury on the 2007 version of the child-endangerment
statute, rather than the 2001 version.” (Doc. 23-9, at
18). In support of his argument, Spanier submits that
the instructions violated “the principles of the Ex Post
Facto clauses of the state and federal constitutions, as
well as Dr. Spanier’s due process rights. . . .” (Doc. 239, at 18). In the same section of that brief, Spanier cites
to relevant federal case law5 for the principle that “a
trial court should not instruct a jury on a version of an
offense that did not exist, at the time of the conduct the
jury is considering when determining a defendant’s
guilt.” (Doc. 23-9, at 18-19).
As such, the Court ﬁnds that Spanier fairly presented the issue of the unconstitutionality of instructing a jury on the 2007 statute, rather than the 2001
version, such that he has fully exhausted this claim.
C. GROUND THREE: APPLICATION
LIMITATIONS EXCEPTIONS

OF

STATUTE

OF

Finally, Respondents submit that Spanier failed to
exhaust his statute of limitations argument because
he had “previously couched his challenges to the state
courts’ rulings on this issue exclusively as questions of
state law. . . .” (Doc. 21, at 31). Again, Spanier asserts
that he fairly presented this claim as a due process
5

United States v. Marcus, 560 U.S. 258, 263-64 (2010) (Doc.
23-9, at 19).

58a
challenge, that he outlined the factual and legal basis
of that claim, and further, that the federal and state
constitutions use the same due process analysis. (Doc.
23, at 13).
As discussed supra, to “fairly present” a claim for
exhaustion purposes, the petitioner must advance “a
federal claim’s factual and legal substance to the state
courts in a manner that puts them on notice that a federal claim is being asserted.” Bennett v. Superintendent
Graterford SCI, 886 F.3d 268, 280 (3d Cir. 2018) (quoting McCandless v. Vaughn, 172 F.3d 255, 261 (3d Cir.
1999)). So long as that federal claim is asserted in
“terms so particular as to call to mind a speciﬁc right
protected by the [federal] Constitution” the claim will
be exhausted. McCandless, 172 F.3d, at 260. Further,
only a “basic factual outline” of the claim need be presented. A petitioner need not explicitly reference federal law in order to fairly present his claim. See e.g.,
Picard, 404 U.S., at 278, 92 S.Ct. 509; McCandless, 172
F.3d, at 261 (“the absence of explicit reference to federal law does not resolve the issue of whether a federal
claim was fairly presented”); Evans, 959 F.2d, at 1231
(noting some of the “ways in which a state defendant
may fairly present to the state courts the constitutional nature of his claim, even without citing chapter
and verse of the Constitution”).
Respondents’ sole argument on exhaustion of this
ground is that Spanier had previously couched his
challenges only as questions of state law. However, as
stated, the petitioner need not explicitly reference federal law. Here, it is clear that the issue of due process

59a
was before the Superior Court, as it is addressed both
in the majority opinion, and even more so in the dissenting opinion, which speciﬁcally addresses the manner in which due process requirements are met on this
issue, and the due process concerns that must be satisﬁed. Spanier, 192 A.3d, at 163. As such, the Court
ﬁnds that Spanier fairly presented the issue of the application of the statute of limitations exceptions to the
state court such that he has fully exhausted this claim.
Having determined that Spanier has fully exhausted each of his claims in state court, the Court will
turn to the merits of the Petition.
III. HABEAS CORPUS STANDARDS
Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), which is codiﬁed, at 28
U.S.C. § 2254(d), a habeas corpus petition can only
succeed if Petitioner can show that (i) the state court’s
resolution of his claim was contrary to, or an objectively unreasonable application of, clearly established
federal law and (ii) his claim is exhausted. See 28
U.S.C. § 2254(d)(1); Woodford v. Visciotti, 537 U.S. 19,
24-25 (2002); Berryman v. Morton, 100 F.3d 1089, 1103
(3d Cir. 1996).
“A state-court decision is ‘contrary to’ clearly established federal law if the state court (1) ‘contradicts
the governing law set forth in [the Supreme] Court’s
cases’ or (2) ‘confronts a set of facts that are materially
indistinguishable from a decision of [the Supreme]
Court and nevertheless arrives, at a [different]

60a
result.’ ” Lambert v. Blackwell, 387 F.3d 210, 234 (quoting Williams v. Taylor, 529 U.S., at 362, 405-06 (2000)).
“A state-court decision ‘involve[s] an unreasonable application’ of clearly established federal law if the state
court (1) ‘identiﬁes the correct governing legal rule
from [the Supreme] Court’s cases but unreasonably applies it to the facts of the particular . . . case’; or (2) ‘unreasonably extends a legal principle from [Supreme
Court] precedent to a new context where it should not
apply or unreasonably refuses to extend that principle
to a new context where it should apply.’ ” Lambert, 387
F.3d, at 234 (quoting Williams, 529 U.S., at 407). An
objectively unreasonable application does not require
merely that a state court’s decision be erroneous or
incorrect, but also that it be unreasonable. Williams,
529 U.S., at 407. Clearly established federal laws are
the holdings, not the dicta, of the Supreme Court.
Williams, 529 U.S., at 390.
State court factual determinations are also given
considerable deference under the AEDPA. Lambert,
387 F.3d, at 239. “A state court decision is an ‘adjudication on the merits,’ reviewed under the deferential
standard of § 2254(d), where it is ‘a decision ﬁnally resolving the parties’ claims, with res judicata effect,
that is based on the substance of the claim advanced,
rather than on a procedural, or other, ground.’ ” Simmons v. Beard, 590 F.3d 223, 232 (3d Cir. 2009) (quoting
Rompilla v. Horn, 355 F.3d 233, 247 (3d Cir. 2004)). Petitioner must establish that the state court’s adjudication of his claim “resulted in a decision that was based
on an unreasonable determination of the facts in light

61a
of the evidence presented in the state court proceeding.” 28 U.S.C. § 2254(d)(2).
IV. DISCUSSION
A. GROUND ONE: THE APPLICATION OF THE 2007
CRIMINAL STATUTE TO 2001 CONDUCT
In his ﬁrst ground for relief, Spanier asserts that
his conviction and sentence are based on the 2007 statute, and thus in violation of the Ex Post Facto and Due
Process Clauses of the United States Constitution.
(Doc. 1, at 6). Speciﬁcally, Spanier argues that the 2007
statute criminalized conduct that was “not criminal” in
2001—when his actions took place—and amended the
1995 statute to expand the scope of persons subject to
liability. (Doc. 1, at 6-7). The 1995 statute, in effect during 2001, provides:
(a) Offense deﬁned. A parent, guardian, or
other person supervising the welfare of a child
under 18 years of age commits an offense if he
knowingly endangers the welfare of the child
by violating a duty of care, protection or support.
18 Pa.C.S.A § 4304 (1995).
In contrast, the amended 2007 statute states, in
pertinent part:
(a)

Offense deﬁned.

(1) A parent, guardian or other person supervising the welfare of a child under 18 years
of age, or a person that employs or supervises

62a
such a person, commits an offense if he knowingly endangers the welfare of the child by violating a duty of care, protection or support.
(2) A person commits an offense if the person, in an ofﬁcial capacity, prevents or interferes with the making of a report of suspected
child abuse under 23 Pa.C.S. Ch. 63 (relating
to child protective services).
(3) As used in this subsection, the term “person supervising the welfare of a child” means
a person other than a parent or guardian that
provides care, education, training or control of
a child.
18 Pa.C.S.A. § 4304 (2007).
Accordingly, based on the language added to the
2007 statute, Spanier avers that “someone who was not
supervising the welfare of a child could be found guilty
of violating the statute if he was employing or supervising someone else who was doing so.” (Doc. 1, at 8).
Respondents submit that the 2007 statute merely
“made explicit” the criminalization of certain conduct,
such as Spanier’s actions in 2001, that the Pennsylvania Supreme Court, in Lynn, determined already existed under the 1995 statute. (Doc. 21, at 17).
In addressing this issue, the Trial Court held:
Based upon the Supreme Court’s analysis in
Lynn the EWOC statute, as it existed in 2001
when the incident at issue occurred, encompassed persons who employed or supervised
persons who supervised the welfare of

63a
children. Thus, it is irrelevant that the statute
was later changed to explicitly include this
class of persons, because they were already included in the plain language of the 1995 statute. Therefore, as a person who employed or
supervised persons who supervised the welfare of children, Defendant’s conviction does
not violate the Ex Post Facto clause.
(Doc. 1-2, at 18).
Thus, the Trial Court determined that the decision
in Lynn foreclosed any as-applied Ex Post Facto challenge raised by Spanier. (Doc. 1-2). Further, in addressing Spanier’s weight of the evidence challenge to his
conviction under § 4304(a)(1), the Trial Court concluded that, pursuant to Lynn, “[b]ecause [Spanier]
was the president of the University where the incident
occurred, the jury could properly ﬁnd that [Spanier]
supervised the physical and moral welfare of all minor
children present on the University campus, even absent direct contact with them.” (Doc. 1-2, at 19).
On direct appeal, the Superior Court did not expressly reference the Ex Post Facto or Due Process
clauses with respect to the application of the 2007 statute to Spanier. (Doc. 1-1). However, it upheld, based on
the facts before it, that “[Spanier] was supervising the
welfare of a child and owed a duty of care to the child.”
(Doc. 1-1, at 14). It also rejected the notion that the
1995 statute did not apply to him, as “[t]he absence
of direct interaction between [Spanier], Schultz, or
Curley and Sandusky’s victims . . . does not preclude
[Spanier’s] conviction under the pre-2007 version of

64a
§ 4304 as construed in Lynn.” (Doc. 1-1, at 14). The
Superior Court then concluded that “the language
added in 2007 or, more appropriately, the language not
included in the pre-2007 version, does not alter the result [in Spanier’s case].” (Doc. 1-1, at 14).
Respondents contend that “[t]he 2007 version of
the EWOC statute is relevant to this case only in that
it made explicit the prohibition of certain conduct, such
as Spanier’s, that has been held to exist within the
[1995] version of the statute.” (Doc. 21, at 17). The Respondents also argue that Spanier’s case “hinged
solely” on the State Court’s interpretation of a state
criminal statute, which is not reviewable by a federal
habeas court. (Doc. 21, at 17-18). Nonetheless, Respondents aver that Spanier’s Ex Post Facto challenge
is without merit, as the Ex Post Facto Clause only applies to legislative acts and not judicial determinations. (Doc. 21, at 18). They further claim that Spanier’s
only ground for relief would be rooted in the Due Process Clause, insofar as Spanier contests an “unexpected and indefensible” judicial construction of 18
Pa.C.S. § 4304. (Doc. 21, at 18).
Article I, § 10, of the Constitution prohibits the
States from passing any “Ex Post Facto law.” “The Ex
Post Facto Clause ﬂatly prohibits retroactive application of penal legislation.” Landgraf v. USI Film Prod.,
511 U.S. 244, 266 (1994). Speciﬁcally, this clause forbids enactment of any law “which imposes a punishment for an act which was not punishable, at the time
it was committed; or imposes additional punishment to
that then prescribed.” Weaver v. Graham, 450 U.S. 24,

65a
28 (1981) (quoting Cummings v. Missouri, 4 Wall. 277,
325–26, 18 L.Ed. 356 (1867)). The crux of the Constitution’s Ex Post Facto prohibition is that a person should
be given fair notice of an offense, or of the punishment
for that offense, prior to the offense’s commission. See
Weaver, 450 U.S., at 28-29 (Through the Ex Post Facto
Clause, “the Framers sought to assure that legislative
Acts give fair warning of their effect and permit individuals to rely on their meaning until explicitly
changed.”); see also Peugh v. United States, 569 U.S.
530, 544 (2013) (the Ex Post Facto Clause “safeguards
‘a fundamental fairness interest . . . in having the government abide by the rules of law it establishes to
govern the circumstances under which it can deprive
a person of his or her liberty or life.’ ”) (quoting Carmell
v. Texas, 529 U.S. 513, 533 (2000)); Collins v.
Youngblood, 497 U.S. 37, 43 (1990) (the original understanding of the Ex Post Facto Clause is that “[l]egislatures may not retroactively alter the deﬁnition of
crimes or increase the punishment for criminal acts.”).
The Supreme Court has articulated that the Ex
Post Facto Clause only refers to “certain types of criminal laws,” ﬁrst categorized in 1798 as follows: (1)
“Every law that makes an action done before the passing of the law, and which was innocent when done,
criminal; and punishes such action”; (2) “Every law
that aggravates a crime, or makes it greater than it
was, when committed”; (3) “Every law that changes the
punishment, and inﬂicts a greater punishment, than
the law annexed to the crime, when committed”; and
(4) “Every law that alters the legal rules of evidence,

66a
and receives less, or different, testimony, than the law
required, at the time of the commission of the offence,
in order to convict the offender.” Calder v. Bull, 3 Dall.
386, 390, 1 L.Ed. 648 (1798); accord Carmell v. Texas,
529 U.S. 513, 522 (2000). A statute is not “impermissibly retroactive” merely because it is applied to a conduct that pre-dates its enactment—“[r]ather, the court
must ask whether the new provision, attaches new legal consequences to events completed before its enactment.” Brand Energy & Infrastructure Servs., Inc. v.
Irex Contracting Grp., No. CV 16-2499, 2017 WL
1105648, at *5 (E.D. Pa. Mar. 24, 2017) (quoting Landgraf, 511 U.S., at 269-70); see also Collins v.
Youngblood, 497 U.S. 37 (1990) (noting that the United
States Constitution does not prohibit every retrospective law that alters a party’s situation to his disadvantage). Thus, the Supreme Court has further
clariﬁed the categories originally set forth in Calder,
and held that a law is unconstitutional under the Ex
Post Facto clause if it “(1) punishes as a crime an act
that was innocent when done, or (2) makes more burdensome the punishment for a crime after its commission, or (3) deprives one charged with a crime of any
defense available according to law, at the time the act
was committed.” Helton v. Fauver, 930 F.2d 1040, 1045
(3d Cir. 1991) (citing Beazell v. Ohio, 269 U.S. 167, 170
(1925)). The Supreme Court has additionally emphasized that “it is the effect, not the form, of the law that
determines whether it is ex post facto.” Weaver, 450
U.S., at 31.

67a
Spanier submits that the retroactive application
of the 2007 statute to his 2001 conduct violates the
Ex Post Facto and Due Process clauses. He is not challenging the state court’s interpretation of Lynn, or its
construction of the 1995 statute. Rather, he argues that
the 2007 statute criminalizes conduct that, in effect,
was innocent under the 1995 Statute, and it was the
application of the later statute to his conduct which violated his constitutional rights.
“Although the state court’s determination of state
law is for the state courts to determine, the federal
court still must determine whether the change in state
law wrought by the state court violates the Ex Post
Facto Clause.” Fisher v. Beard, No. CV 03-788, 2018 WL
3594990, at *8 (E.D. Pa. July 25, 2018). Following
Spanier’s conviction, the Court of Common Pleas of
Dauphin County issued a trial court opinion on September 22, 2017. (Doc. 1-2). Therein, the trial court addressed Spanier’s argument regarding the application
of the 2007 Statute to Spanier’s conduct, and found as
follows:
The Court instructed the jury pursuant
to the 2007 version of Section 4304 . . . Defendant claims that utilization of the 2007 version of Section 4304 violates the Ex Post Facto
clause because the actions that he was convicted of occurred in 2001, and the 2007
amendment expanded the scope of the statute
to include persons employing or supervising
someone who is supervising the welfare of a
child. Thus, he appears to be asserting that
his actions were innocent when done in 2001,

68a
but did not become criminal until the 2007
amendment.
In order to determine whether or not this
violates the Ex Post Facto clause, it is necessary to examine the history behind the change
in law. In Com. v. Lynn, 114 A.3d 796 (Pa.
2015), a priest by the name of William Lynn
was Secretary of the Clergy in the Archdiocese
of Philadelphia. In this position, Lynn was
responsible for ensuring that parishes had
enough priests, resolving disputes among
priests and handling clergy sexual abuse issues. Id. at 798. Near the end of his tenure as
Secretary of the Clergy, the Philadelphia District Attorney began investigating the Archdiocese of Philadelphia for clergy sex abuse
complaints. Id. at 806-07. A grand jury was
empaneled, and Lynn was subpoenaed to testify and provide documents related to priests
accused of sexual abuse. Id. at 807.
The grand jury issued a report in 2005,
concluding that the statute pertaining to the
crime of endangering the welfare of a child
was written in a way that would allow church
ofﬁcials, such as Lynn to escape criminal liability. Id.. The report further concluded that
the offense of endangering the welfare of a
child is too narrow to support prosecution of
the decision makers who were running the
Archdiocese because they were too far removed from any direct contact with children.
Id. Based on this interpretation, the grand
jury did not recommend any criminal charges
against Lynn, but instead recommended that

69a
the statute be amended to include those who
were in an employer or supervising capacity.
Id. The legislature complied with this recommendation in 2006 and amended the statute,
effective January 27, 2007 to include the
above-stated language. Id.
Despite this grand jury report, the Commonwealth charged Lynn in 2011 with two
counts of Endangering the Welfare of a Child
(EWOC) and two counts of conspiracy to commit same. Id. Lynn sought to quash these
charges on the basis that he had no connection to the children whose welfare he was accused of having endangered. Id. at 808. After
a trial, Lynn was found guilty of one count of
EWOC and appealed that conviction to the
Superior Court, where it was overturned. The
Commonwealth appealed to the Pennsylvania
Supreme Court, and their petition for allowance of appeal was granted to address, in relevant part, whether or not the evidence was
sufﬁcient to prove endangering the welfare of
children when Lynn did not have direct contact with those children. Id. at 817.
On appeal, the Pennsylvania Supreme
Court noted that, although criminal statutes
are generally to be strictly construed, in the
unique case of EWOC, the statute must be
construed in order to effectuate its broad purpose of protecting children. Id. at 818. Specifically, the juvenile statutes are written
expansively to criminalize behavior that produces or tends to produce a defined result,
rather than preparing a list of all illegal

70a
conduct. Id. Thus, the EWOC statute is drawn
broadly to criminalize conduct that involves
the endangering of the physical or moral welfare of a child. Id. at 819.
Based on the language of the 1995 statute, the Pennsylvania Supreme Court held
that the statute was unambiguous that it is
not the child that Lynn must have been supervising, but the child’s welfare. Id. at 823.
Therefore, the Commonwealth need only have
demonstrated evidence that Lynn was supervising the child’s physical or moral welfare.
Id. at 824. However, the requirement of supervision was not limited to only direct or actual
supervision. Id. Rather, the plain terms of the
statute, as it existed from 1995 until 2007, encompasses all forms of supervision of a child’s
welfare. Id. Supervision is often done through
subordinates, but that does not make it any
less supervisory if it does not involve personal
encounters with the children at issue. Id.
Therefore, depending on the facts of a case, a
school principal or manager of a day care center could be held criminally liable for endangering the welfare of the children under their
supervision if they knowingly place sexually
abusive employees in such proximity to them
as to allow for the abuse of these youth. Id.
Based upon the Supreme Court’s
analysis in Lynn, the EWOC statute, as it
existed in 2001 when the incident at issue occurred, encompassed persons who
employed or supervised persons who supervised the welfare of children. Thus, it

71a
is irrelevant that the statute was later
changed to explicitly include this class of
persons, because they were already included in the plain language of the 1995
statute. Therefore, as a person who employed or supervised persons who supervised the welfare of children,
Defendant’s conviction does not violate
the Ex Post Facto clause.
(Doc. 1-2, at 16-18) (emphasis added).
Given this reasoning, Spanier argues that the trial
court found he was “properly convicted” under the
EWOC statute as an employer or supervisor of a supervisee in 2001. (Doc. 1, at 9). However, Spanier asserts that the Superior Court misunderstood his
challenge to this ﬁnding on direct appeal. (Doc. 1, at 9).
Notably, without expressly referencing the Ex Post
Facto or Due Process clauses, the Superior Court concluded as follows:
“[W]e consider Appellant’s argument that the
version of § 4304 extant in 2001 did not apply
to him because he did not supervise children
directly. The Lynn Court wrote: ‘A subsequent
change in language does not retroactively alter the legislative intent that is apparent in
the plain language of the prior version of the
statute.’ Id. at 827. Thus, the Lynn Court upheld the defendant’s conviction under the
pre–2007 version of EWOC even though the
pre–2007 did not expressly apply to a person
‘who employs or supervises’ someone supervising the welfare of a child. Appellant would

72a
distinguish Lynn because the defendant there
was supervising priests who directly interacted with children. Here, in contrast, there is
no evidence that Appellant supervised anyone
who interacted directly with Sandusky’s minor victims. As we have already explained
above, the Lynn Court held that § 4304 applies to persons who supervise a child’s welfare, not persons who supervise a child. The
absence of direct interaction between
Appellant, Shultz, or Curley and
Sandusky’s victims therefore does not
preclude Appellant’s conviction under
the pre–2007 version of § 4304 as construed in Lynn.”
(Doc. 1-1, at 14); Commonwealth v. Spanier,
2018 PA Super 184, 192 A.3d 141, 153-54
(2018), reargument denied (Sept. 7, 2018), appeal denied, 203 A.3d 199 (Pa. 2019) (emphasis added).
Accordingly, Spanier argues that the Superior
Court upheld his conviction as an employer or supervisor of a person that supervised the welfare of children—as concluded by the trial court in its September
22, 2017 opinion—based on Lynn’s proposition that direct interaction need not occur to supervise the welfare
of a child under the 1995 Statute. (Doc. 1, at 9-10).
Upon review of the Trial and Superior Court opinions, it is evident that both effectively determined the
holding in Lynn foreclosed any Ex Post Facto challenge

73a
raised by Spanier.6 (Doc. 1-1; Doc. 1-2). However, while
federal habeas courts are “bound by a state supreme
court’s construction of a state penal statute,” they are
not “bound by the state court’s determination as to
whether its construction offends the federal Constitution .” Helton v. Fauver, 930 F.2d 1040, 1044 (3d Cir.
1991) (citing Missouri v. Hunter, 459 U.S. 359, 368
(1983)). As the State Court’s conclusion regarding
Spanier’s Ex Post Facto challenge appears to have relied on an interpretation of state law, which is entitled
to deference under the AEDPA, the Court must
“merely determine whether that interpretation of state
law, enunciated after the crime was committed, violates the Ex Post Facto Clause.” Fisher v. Beard, No. CV
03-788, 2018 WL 3594990, at *8 (E.D. Pa. July 25,
2018) (citing Harris v. Reed, 489 U.S. 255, 262 (1989)).
“In the ex post facto context, the question of whether a
federal court must defer to the state court’s statutory
interpretation turns on whether the state court’s interpretation was foreseeable.” Fisher, 2018 WL 3594990,
at *8.
The Ex Post Facto clause “is a limitation upon the
powers of the Legislature, and does not of its own force
6

Although the trial court’s opinion appears to have implicitly considered whether the 2007 Statute fell within the first
Calder category, by recognizing Spanier’s argument that the
amendment widened the net of persons subject to liability, it does
not appear to have based its conclusion on whether the amended
statute, as applied to Spanier, constituted an ex post facto law as
applied. (Doc. 1-2). Rather, it—as well as the Superior Court—
based its conclusion on the application of Lynn in order to justify
the use of the 2007 Statute. (Doc. 1-1; Doc. 1-2).

74a
apply to the Judicial Branch of government.” Marks v.
United States, 430 U.S. 188, 191 (1977) (citation omitted). Nonetheless, “limitations on Ex Post Facto judicial
decision making are inherent in the notion of due process.” Rogers v. Tennessee, 532 U.S. 451, 456 (2001).
“Just as legislatures are barred from passing laws that
unforeseeably enlarge criminal statutes by the Ex Post
Facto Clause, so are courts ‘barred by the Due Process
Clause from achieving precisely the same result by
judicial construction.’ ” United States v. Null, No.
CRIM.A. 04-253, 2005 WL 1527747, at *3 (E.D. Pa.
June 28, 2005). As such, an “unforeseeable judicial enlargement of a criminal statute, applied retroactively,
operates precisely like an Ex Post Facto law, such as
Art. I, § 10 of the Constitution forbids.” Bouie v. City of
Columbia, 378 U.S. 347, 353 (1964); see also Rogers v.
Tennessee, 532 U.S. 451, 458-60 (2001) (holding that an
unforeseeable judicial enlargement of a criminal statute, applied retroactively, violates the federal due process right to fair warning of what constitutes criminal
conduct); Marks, 430 U.S., at 191-92 (same). In particular, a defendant’s due process rights are violated
when a court applies a construction of the statute that
“is unexpected and indefensible by reference to the law
which had been expressed prior to the conduct in issue.” Bouie, 378 U.S., at 354, 84 S.Ct. 1697 (internal
quotation marks and citation omitted); see also Rogers
532 U.S., at 455-57 (when a court’s judicial interpretation expands a criminal statute, or a prior judicial interpretation of the same, and said construction “is
unexpected and indefensible by reference to the law

75a
which had been expressed prior to the conduct in issue,
the construction must not be given retroactive effect.”).
Spanier submits that the retroactive application
of the 2007 statute to his 2001 conduct violates the
Ex Post Facto and Due Process clauses. He is not challenging the state court’s interpretation of Lynn, or its
construction of the 1995 statute. Rather, he argues that
the 2007 statute criminalizes conduct that, in effect,
was innocent under the 1995 statute, and that the application of the later statute to his conduct violated his
constitutional rights.
“Although the state court’s determination of state
law is for the state courts to determine, the federal
court still must determine whether the change in state
law wrought by the state court violates the Ex Post
Facto Clause.” Fisher v. Beard, No. CV 03-788, 2018 WL
3594990, at *8 (E.D. Pa. July 25, 2018); see also Helton
v. Fauver, 930 F.2d 1040, 1044 (3d Cir. 1991) (while federal habeas courts are “bound by a state supreme
court’s construction of a state penal statute,” they are
not “bound by the state court’s determination as to
whether its construction offends the federal Constitution.”) (citing Missouri v. Hunter, 459 U.S. 359, 368
(1983)). Thus, at issue is whether the State Court’s interpretation of the 1995 statute, and by implication the
2007 statute, was “foreseeable” Fisher v. Beard, No. CV
03-788, 2018 WL 3594990, at *8 (E.D. Pa. July 25,
2018). Respondents submit that the Court’s interpretation of Lynn was reasonable and foreseeable. Setting
aside that the Lynn case was decided in 2015, nearly
14 years after the conduct at issue in this case, the

76a
Court ﬁnds that the state court’s determination that
the 2007 statute effectively subsumes the 1995 statute,
therefore foreclosing any Ex Post Facto argument, was
unforeseeable and in violation of Spanier’s due process
rights.
The plain language of the 1995 statute, in effect in
2001, is such that, if not a parent or guardian of a child,
a defendant must be supervising the welfare of a child
to be culpable under that statute. The plain language
of the 2007 amended statute does not just clarify who
may be considered to be “supervising the welfare of a
child” but adds a fourth category of persons potentially
culpable – those individuals “employing or supervising” such a person. A review of the legislative history
and intent, and the application of this statute by state
courts makes clear that in 2001, Spanier could not
have reasonably foreseen liability under the revised
statute.
The original 1995 statute was derived from Section 230.4 of the Model Penal Code (1962); Com. v.
Taylor, 471 A.2d 1228, 1230 (1984). The rationale behind the drafting § 230.4 provides:
Section 230.4 reﬂects the judgment that penal
prohibitions of contributing to the delinquency of a minor should not be continued.
The basic error in such legislation [preceding
§ 230.4] is the assumption that the vague and
comprehensive terms used to confer jurisdiction on juvenile courts are also appropriate
for deﬁnition of a criminal offense. It is one
thing to vest expansive authority in an

77a
agency charged with promoting the welfare of children and quite another to give
a court equivalent latitude in deﬁning
crimes for which adults may be subjected to penal sanctions. Statutes
broadly condemning any conduct that
contributes to the delinquency of a minor contravene the general precept that
criminal laws should state their proscriptions with fair speciﬁcity and precision.
MODEL PENAL CODE § 230.4 cmt. 2, at 449 (AM.
LAW INST., Ofﬁcial Draft and Revised Comments 1980) (emphasis added).
The drafting comments also indicate that “[t]he
speciﬁcation that the actor’s conduct must violate a
duty of ‘care, protection, or support’ makes clear that
the provision applies only to those legal duties arising
by reason of the actor’s status as a ‘parent, guardian,
or other person supervising the welfare of a child.’ ”
MODEL PENAL CODE § 230.4 cmt. 2, at 451 (AM. LAW
INST., Ofﬁcial Draft and Revised Comments 1980). Accordingly, such a duty is expressly distinguishable
from “a legal duty owed by all citizens to one another
or by violating a duty which a stranger may owe to a
minor.” MODEL PENAL CODE § 230.4 cmt. 2, at 451 (AM.
LAW INST., Ofﬁcial Draft and Revised Comments 1980).
Indeed, “[t]he objective [of § 230.4] is to conﬁne criminal punishment for endangering the welfare of children to consequential acts violative of some settled
obligation springing from the supervisory relationship
of actor to child.” MODEL PENAL CODE § 230.4 cmt. 2, at

78a
451 (AM. LAW INST., Ofﬁcial Draft and Revised Comments 1980).
Importantly, the MPC comments note that there
must be some duty beyond just that owed “by all citizens to one another” and require that criminal punishment under this section must spring from some
relationship between the actor and the child. Initially,
the Court notes that this belies the state court’s broad
conclusion that, pursuant to Lynn, “[b]ecause [Spanier]
was the president of the University where the incident
occurred, the jury could properly ﬁnd that [Spanier]
supervised the physical and moral welfare of all minor
children present on the University campus, even absent direct contact with them.” (Doc. 1-2, at 19). This
distinction is further highlighted by Pennsylvania case
law addressing the persons who may be liable under
the 1995 Statute, prior to the holding articulated in
Lynn.7 For instance, in Com v. Brown, the Superior

7

The Court recognizes that the Pennsylvania Supreme
Court addressed a similar proposition in Lynn, ultimately ﬁnding
as follows:
“Finally, Appellee argues that the EWOC statute has
not heretofore been applied to someone like himself,
who did not come into contact with the children whose
welfare he endangered. We ﬁnd this argument to be inconsequential and irrelevant. Our analysis of the plain
language of the EWOC statute and examination of
whether the voluminous facts of record met the supervision element of the offense are not dependent on the
factual circumstances that led to convictions in prior
cases.”
Com. v. Lynn, 114 A.3d 796, 827 (2015).

79a
Court found that a person was not required to be a parent or guardian of a child in order to be convicted under
the 1995 Statute. 721 A.2d 1105, 1107 (Pa. Super. Ct.
1998). Speciﬁcally, the Court noted that “[i]n an age
when nontraditional living arrangements are commonplace, it is hard to imagine that the common sense
of the community would serve to eliminate adult persons residing with a non-custodial child from the scope
of a statute protecting the physical and moral welfare
of children.” Brown, 721 A.2d at 1107. The Court also
cited to its holding in Commonwealth v. Kellam, 719
A.2d 792 (Pa. Super. 1998)8 for the proposition that
“whenever a person is placed in control and supervision of a child, that person has assumed such a status
relationship to the child so as to impose a duty to act.”
Brown, 721 A.2d at 1107 n. 4. However, it afﬁrmed that
While the Court does not disturb this ﬁnding, it notes that a
dearth of such convictions under the 1995 Statute may impact
whether it was foreseeable that an employer of a child’s supervisor—as opposed to someone who indirectly supervised the welfare
of a child, as held in Lynn—could be subject to liability under its
provisions. Further, although its decision was ultimately reversed, the Pennsylvania Superior Court even noted that “neither
this Court nor our Supreme Court has ever afﬁrmed a conviction
for EWOC where the accused was not actually engaged in the supervision of, or was responsible for supervising, the endangered
child.” Com. v. Lynn, 83 A.3d 434, 450 (2013), rev’d, 631 Pa. 541,
114 A.3d 796 (2015).
8
“In the instant case, appellant resided with the victim and
her mother, exercised a great deal of control over the mother, and
voluntarily assumed parental responsibilities with regard to the
child. We therefore hold that whenever a person is placed in control and supervision of a child, that person has assumed such a
status relationship to the child so as to impose a duty to act.” Com.
v. Kellam, 719 A.2d 792, 796 (Pa. Super. Ct. 1998).

80a
whether a person supervises the welfare of a child is “a
factual one which should be decided on by a case by
case basis.” Brown, 721 A.2d at 1108 n. 6. This hardly
establishes the proposition that the 2007 Statute, insofar as it addresses “employers” who merely supervise
supervisees, necessarily means an employer may be
found liable as an indirect supervisor of a child’s welfare. Indeed, even on a case-by-case basis, the Pennsylvania Courts generally required, prior to Lynn, that an
individual be engaged in a child’s welfare to be encompassed under the statute.
Moreover, and critical to the question of foreseeability, the 2007 language was added to the statute after
a grand jury determined that the older version of the
statute was written too narrowly to sustain criminal
charges against high-level Archdiocesan ofﬁcials, and
recommended that the class of individuals contemplated by the statute be expanded to cover those who
employ or supervise a person who supervises a child’s
welfare. Act of Nov. 29, 2006, No. 179, 2006 Pa. Laws
1581 (codiﬁed as amended, at 18 Pa. Stat. and Cons.
Stat. Ann. § 4304(a)(1) (West 2007)); Commonwealth v.
Spanier, 2018 Pa. Super 184, 192 A.3d 141, 151–52
(2018), reargument denied (Sept. 7, 2018), appeal denied, 203 A.3d 199 (Pa. 2019). The 2007 statute clearly
broadened the class of persons subject to being
charged under the statute, adding a separate definition of individuals who may be culpable to include “a
person that employs or supervises such a person.” In
broadening that class of persons, the statute, attached
“new legal consequences to events completed before its

81a
enactment.” Brand Energy & Infrastructure Servs., Inc.
v. Irex Contracting Grp., No. CV 16-2499, 2017 WL
1105648, at *5 (E.D. Pa. Mar. 24, 2017) (quoting Landgraf, 511 U.S., at 269-70).
The Court ﬁnds that the state court’s conclusion,
upholding Spanier’s conviction on the basis of the 2007
statute, based on an unforeseeable interpretation of
the 1995 statute and of the Pennsylvania Supreme
Court’s decision in Lynn, constituted an unreasonable
application of Supreme Court precedent set forth in
Bouie.9 As such, the application of that statute to
9

Additionally, it is worth noting that in Bouie the Supreme
Court held,
“We think it clear that the South Carolina Supreme
Court, in applying its new construction of the statute
to afﬁrm these convictions, has deprived petitioners of
rights guaranteed to them by the Due Process Clause.
If South Carolina had applied to this case its new statute prohibiting the act of remaining on the premises of
another after being asked to leave, the constitutional
proscription of ex post facto laws would clearly invalidate the convictions. The Due Process Clause compels
the same result here, where the State has sought to
achieve precisely the same effect by judicial construction of the statute. While such a construction is of
course valid for the future, it may not be applied retroactively, any more than a legislative enactment may
be, to impose criminal penalties for conduct committed
at a time when it was not fairly stated to be criminal.”
Bouie v. City of Columbia, 378 U.S. 347, 362, 84 S. Ct.
1697, 1707, 12 L. Ed. 2d 894 (1964).
Although dicta, the Court ﬁnds this reasoning to be highly
persuasive to the facts of the case before it. In effect, following the
Supreme Court’s reasoning in Bouie, the state court’s construction of the 1995 statute in Lynn to effectively adopt the language

82a
Spanier’s conduct is an unconstitutional retroactive
application of the law.
B. GROUND TWO: JURY INSTRUCTIONS
STATUTE FOR 2001 CONDUCT

ON

2007

In his second ground for relief, Spanier argues
that his due process rights were violated when the jury
was improperly instructed under the 2007 statute.
(Doc. 1, at 11-14). Specifically, Spanier asserts that
the State Court could not rely on the amended 2007
statute, which was enacted six year after his conduct
at issue, to instruct the jury. (Doc. 1, at 12). As such,
Spanier claims that, given the jury instructions provided, it is impossible to determine whether he was
convicted (1) as a person “supervising the welfare of a
child” or (2) a person that employed or supervised such
a person. (Doc. 1, at 12). He further argues that such a
challenge does not constitute a collateral attack on
state-court jury instructions, as “habeas petitions frequently challenge state-court instructions on the
ground that they violate the constitution.” (Doc. 23, at
17). In short, Spanier submits that the jury instruction
based on the 2007 statute allowed the jury to convict
Spanier even if he was not supervising the welfare of a
child, but if they found that he was simply employing
or supervising someone else. Critically, under the 1995
version of the statute, there would have had to be a
ﬁnding by the jury that Spanier was also supervising
of the 2007 amendment, operate as a violation of the ex post facto
and due process clauses.

83a
the welfare of children. The jury, as instructed, did not
have to reach that conclusion in order to convict
Spanier here. Unlike in the Lynn case, where the court
gave the jury just those three options available under
the 1995 statute, here, the court instructed the jury
that it could convict Spanier under that fourth possibility as well – that he was a person employing or supervising a person supervising the welfare of a child –
language that was only added to the statute in 2007,
years after Spanier’s conduct. (Doc. 1-4, at 4). There
was no instruction to the jury that they were to determine whether Spanier “supervised the welfare of a
child.”
Emphasizing that questions regarding jury instructions normally fall within the province of state
law, and that the State Court thoroughly explained
why the inclusion of the 2007 language in the jury instruction was proper in Spanier’s case, Respondents
argue that the State Court’s determination—that the
jury instruction was proper as a matter of state law—
cannot be disturbed on habeas review. (Doc. 21, at 28,
30). Respondents further claim that this ground for relief is linked to Ground I, which rests upon the judicial
interpretation of the scope of the 1995 statute. (Doc. 21,
at 28).
In addressing the issue on direct review, the Superior Court concluded as follows:
Appellant claims the trial court erred in refusing to instruct the jury on the statute of limitations, and that the trial court erred in

84a
instructing the jury on the 2007 version of
EWOC. “[A] trial court has broad discretion in
phrasing its instructions, and may choose its
own wording so long as the law is clearly, adequately, and accurately presented to the jury
for its consideration. Only where there is an
abuse of discretion or an inaccurate statement
of the law is there reversible error.” Commonwealth v. Antidormi, 84 A.3d 736, 754 (Pa. Super. 2014) (quoting Commonwealth v. Trippett,
932 A.2d 188, 200 (Pa. Super. 2007)), appeal
denied, 626 Pa. 681, 95 A.3d 275 (2014).
Prior to trial, Appellant submitted a proposed
jury instruction for child endangerment that
reﬂected the language of the 2001 statute and
the Pennsylvania Supreme Court’s interpretation of that statute, and he requested an
instruction on the statute of limitations. The
trial court stated that it would give the standard jury instruction on child endangerment
and would charge the jury according to the
2007 version of the statute. Given our analysis of the statute of limitations and of the
Lynn Court’s treatment of the pre-2007 version of § 4304, we discern no reversible error.
...
Regarding the EWOC conviction, we have
concluded that the language added in 2007 or,
more appropriately, the language not included
in the pre-2007 version, does not alter the result here. On the facts of this case, the trial
court’s instruction on the 2007 version of the

85a
EWOC statute did not result in an inaccurate
statement of the law.
(Doc. 1-1, at 14). Commonwealth v. Spanier,
192 A.3d 141, 154 (2018), reargument denied
(Sept. 7, 2018), appeal denied, 203 A.3d 199
(Pa. 2019).
As previously articulated by the Supreme Court
with respect to constitutional challenges to jury instructions:
Our habeas precedent places an “especially
heavy” burden on a defendant who . . . seeks
to show constitutional error from a jury instruction that quotes a state statute. Even if
there is some “ambiguity, inconsistency, or deﬁciency” in the instruction, such an error does
not necessarily constitute a due process violation. Rather, the defendant must show both
that the instruction was ambiguous and that
there was “ ‘a reasonable likelihood’ ” that the
jury applied the instruction in a way that relieved the State of its burden of proving every
element of the crime beyond a reasonable
doubt. In making this determination, the jury
instruction “ ‘may not be judged in artiﬁcial
isolation,’ but must be considered in the context of the instructions as a whole and the
trial record.” Because it is not enough that
there is some “slight possibility” that the jury
misapplied the instruction, the pertinent
question “is ‘whether the ailing instruction by
itself so infected the entire trial that the resulting conviction violates due process . . . ’ ”

86a
Waddington v. Sarausad, 555 U.S. 179, 190–
91 (2009) (internal citations and quotations
omitted)
A court’s “analysis of jury instructions claimed to
impair a constitutional right ‘must focus initially on the
speciﬁc language challenged.’ ” Smith v. Horn, 120 F.3d
400, 411 (3d Cir. 1997) (quoting Francis v. Franklin,
471 U.S. 307, 315 (1985)). Here, the jury was instructed
on the basis of the broader 2007 statute, instead of the
1995 statute in effect during 2001. The trial court deﬁned the term “supervising the welfare of a child” in
accordance with the language of 2007 statute, and not
the 1995 statute:
Third, that the defendant was, at the time a
parent, guardian, person supervising the welfare of a child under the age of 18, or a person
that employs or supervises such a person. The
term “person supervising the welfare of a
child” means a person other than a parent or
guardian that provides care, education, training, or control of a child.
(Doc. 1-4, at 4)
Insofar as the state court relied on Lynn to uphold
Spanier’s conviction on this ground, the Lynn court
solely relied on the language of the 1995 statute and
did not reference the 2007 statute. Indeed, the jury instruction in Lynn provided as follows:
Third, that the defendant was, at the time a
parent, guardian, or person supervising the
welfare of the child under the age of 18 . . .
when determining whether the defendant

87a
[Lynn] is included under the term supervising
the welfare of a child, you jurors should make
this determination keeping in mind the common sense of the community as well as the
statute’s purpose, which is to prohibit a broad
range of conduct in order to safeguard the
welfare and security of children.
(Doc. 1-5, at 3).
In the context of the instruction as a whole, the
Court ﬁnds that there is a “reasonable likelihood that
the jury has applied the challenged instruction in a
way’ that violates the Constitution.” Estelle v. McGuire,
502 U.S. 62, 72 (1991). (quoting Boyde v. California, 494
U.S. 370, 380 (1990)). Further, it seems clear that the
error created a risk that the jury would convict Spanier
solely on the basis of conduct that was not criminal
when he engaged in that conduct. See United States v.
Marcus, 560 U.S. 258, 263–64 (2010). As the Supreme
Court in Marcus noted, that risk could be minimized,
if not eliminated, by giving the jury a proper instruction. Id. Further, “[w]here an allegedly faulty jury
charge implicates a habeas petitioner’s federal constitutional rights . . . we have an independent duty to ascertain how a reasonable jury would have interpreted
the instructions, at issue.” Smith v. Horn, 120 F.3d 400,
413 (3d Cir. 1997) (citing Francis, 471 U.S., at 315–16;
Sandstrom, 442 U.S., at 516–17).
The clear implication of the trial court’s charge in
this case is that the jury was allowed to convict
Spanier either on the basis of being a person “that provides care, education, training, or control of a child” or

88a
“a person that employs or supervises such a [supervisee]” (Doc. 1-4, at 4). That second possibility was only
available through the 2007 statute. Accordingly, despite the state court’s conclusion that providing an instruction based on the 2007 statute did not “result in
an inaccurate statement of law,” there is a reasonable
likelihood that the jury understood the charge provided as allowing them to convict Spanier either: (1) as
a person that supervises the welfare of a child; or (2)
as a person who did not supervise the welfare of a
child, but merely supervised or employed persons who
did. When taken as a whole, there is a reasonable likelihood that the jury convicted Spanier based on conduct that was not criminal under the 1995 statute.
Further, the charge could have been interpreted by the
jury as relieving the Commonwealth of its burden to
prove that Spanier was “a person supervising the welfare of children,” as opposed to merely the supervisor
employer of a person who did (as allowed by the 2007
statute but not the 1995 statute). It is well-settled that
“the Due Process Clause [of the Fourteenth Amendment] protects the accused against conviction except
upon proof beyond a reasonable doubt of every fact
necessary to constitute the crime with which he is
charged.” In re Winship, 397 U.S. 358, 364 (1970) (internal citations omitted). A jury instruction that omits
or materially misdescribes an essential element of an
offense as deﬁned by state law relieves the state of its
obligation to prove facts constituting every element of
the offense beyond a reasonable doubt, thereby violating the defendant’s federal due process rights. See
Carella v. California, 491 U.S. 263, 265 (1989) (per

89a
curiam); see also Polsky v. Patton, 890 F.2d 647, 651 (3d
Cir.1989) (no due process violation where jury instruction “did not omit any essential element of the crime
charged”); Smith v. Horn, 120 F.3d 400, 415 (3d Cir.
1997). Effectively, by instructing the jury on the language of the 2007 statute, it is possible that the jury
did not conclude that Spanier was a “person supervising the welfare of the children” (a required ﬁnding for
a conviction under the 1995 statute), thus relieving
the Commonwealth of its burden of proof under that
version of the statute. This constitutes a deprivation of
Spanier’s right to due process.
Neither Spanier nor the Commonwealth address
whether such a constitutional error would be considered harmless error by the state court, but such an
analysis must be conducted by this Court. See Smith v.
Horn, 120 F.3d, at 416–17 (where such a constitutional
error has occurred, it is subject to “harmless error”
analysis); Neder v. United States, 527 U.S. 1, 8–11
(1999). “[I]f the [federal habeas] court concludes from
the record that the error had a ‘substantial and injurious effect or inﬂuence’ on the verdict, or if it is in ‘grave
doubt’ whether that is so, the error cannot be deemed
harmless.” Smith v. Horn, 120 F.3d, at 418 (citing California v. Roy, 519 U.S. 2, 5 (1996)); Muscio v. New
Jersey, No. 02-1892 (DMC), 2005 WL 2600256, at *8
(D.N.J. Oct. 13, 2005); see also United States v. Marcus,
560 U.S. 258, 264–65 (2010) (regardless of whether
petitioner brought his jury instruction claim under an
Ex Post Facto or due process theory, “we see no reason
why this kind of error would automatically “affec[t]

90a
substantial rights” without a showing of individual
prejudice.”)
An error must have a “substantial and injurious
effect or inﬂuence in determining the jury’s verdict” before it can be considered harmful and require relief.
Whitney v. Horn, 280 F.3d 240, 257 (3d Cir. 2002); citing
Brecht v. Abrahamson, 507 U.S. 619, 113 S.Ct. 1710,
123 L.Ed.2d 353 (1993). The Supreme Court has held
that if a habeas court “is in grave doubt as to the harmlessness of an error,” habeas relief must be granted.
O’Neal v. McAninch, 513 U.S. 432, 437, 115 S.Ct. 992,
995, 130 L.Ed.2d 947 (1995).
Based on the jury instruction as a whole, the possibility that the jury convicted Spanier under the 2007
statute instead of the 1995 version is not remote. Given
the Court’s conclusion that the application of the 2007
statute to Spanier’s 2001 conduct is unconstitutional,
the Court has “grave doubts” as to the harmlessness of
the jury instruction in this case. As such, the Court
ﬁnds that the jury instruction on the basis of the 2007
statute deprived Spanier of his due process rights.
C. GROUND THREE: APPLICATION OF STATUTE OF
LIMITATIONS EXCEPTIONS FOR WHICH THE
PROSECUTION PROVIDED NO NOTICE BEFORE
OR AT TRIAL
In his ﬁnal ground for relief, Spanier argues that
the application of the statute of limitations exception
articulated in 42 Pa.C.S. § 5552(c)(3) violated his
constitutional right to due process. (Doc. 1, at 14-19).

91a
Specifically, Spanier states that, as a criminal defendant, he was entitled to notice of the charges brought
against him in order to prepare and present his challenges accordingly. (Doc. 1, at 14). According to Spanier,
an element of a criminal charge also includes “conduct
that negatives a defense under the statute of limitation.” (Doc. 1, at 14). Thus, Spanier asserts that due
process required the Commonwealth to provide notice
of the basis on which it intended to meet this element
to negate any statute of limitations defense. (Doc. 1, at
15).
However, when Spanier raised the statute of limitations defense before trial, the Commonwealth solely
relied on the statute of limitations provision enumerated in 42 Pa.C.S. § 5552(d) to support its contention
that prosecution was timely. (Doc. 1, at 15). The Commonwealth asserted that Spanier had engaged in a
“course of conduct of endangering child welfare,” and
the limitations period did not run until such conduct
terminated under 42 Pa.C.S. § 5552(d).10 (Doc. 1, at 15).
However, according to Spanier, relying on this
10

At trial, the Commonwealth prosecuted Spanier under 18
Pa. C.A. § 4304(b)(1)(ii) (“felony charge”), a felony grade EWOC
offense. (Doc. 1-1 at 8). The jury found Spanier guilty of the lesserincluded offense, 18 Pa. C.A. § 4304(b)(1)(ii) (“misdemeanor
charge”), a misdemeanor grade EWOC offense. The Commonwealth initially sought to prove Spanier engaged in a course of
conduct, which a conviction for the felony charge required. (Doc.
1-1 at 8). The jury found no course of conduct, and so convicted
Spanier of the lesser-included offense. (Doc. 1-1 at 8). Given that
the incident for which Spanier was convicted occurred in February 2001, the trial court relied on an exception to the statute of
limitations. 42 Pa. C.S. § 5552(c). (Doc. 1-2 at 10-11).

92a
provision to support a timely prosecution was no
longer apposite once the jury found that he had not
engaged in such a course of conduct. (Doc. 1, at 15).
Nonetheless, on direct review, the State Court found
that Spanier’s prosecution was timely because a tolling
exception, never previously invoked by the Commonwealth, applied. 42 Pa.C.S. § 5552(c)(3).11 (Doc. 1, at
16-17).
Based on the Commonwealth’s initial reliance on
§ 5552(c)(3) after the trial had ended, Spanier argues
that the Commonwealth’s failure to provide notice that
it would be invoking § 5552(c)(3), instead of § 5552(d),
deprived him of the opportunity to defend against such
a charge, thereby violating his due process rights. (Doc.
1, at 16-17). Spanier additionally argues that, even
11

In upholding the trial court’s decision, the Superior Court
relied on state precedent which stands for the proposition that
when a defendant is charged with a higher-grade offense, he’s put
on notice of lesser-included offenses. (Doc. 1-1 at 8); Commonwealth
v. Houck, 102 A.3d 443, 449-50 (Pa. Super. 2014) (citing Commonwealth v. Sims, 919 A.2d 931 (Pa. 2007)). This statement of state
law is correct. However, in the following sentence, the Superior
Court goes on to say “[a]ttendant to [Houck’s lesser-included
offense proposition], Appellant was on notice of the applicability
of § 5552(c)(3), which expressly applies to offenses under
§ 4304.” (Doc. 1-1 at 8). The Superior Court found that because no
further facts were required to apprise Spanier that the Commonwealth intended to rely on an exception to the statute of limitations, notice requirements under due process were not violated
here. (Doc. 1-1 at 10). In summing up its position that no further
facts were required, the Superior Court states “Bethlehem,
Stockard, and Goldhammer are inapposite, as they, unlike the
instant case, required that the defendant be given additional facts
the Commonwealth intended to prove in order to comply with due
process.” (Doc. 1-1 at 11) (emphasis in original).

93a
though the Commonwealth put on “cursory evidence”
of the victim’s approximate age, the purported lack of
notice surrounding the applicability of 5552(c)(3) prevented him from challenging this provision and attempting to establishing that the victim was older
than 14 years old. (Doc. 1, at 16). Respondents emphasize that state court rulings on questions of state law
are binding on federal habeas courts. (Doc. 21, at 31).
Accordingly, Respondents assert that there is no valid
basis to disturb the State Court’s ﬁnding that Spanier
was subject to a state law statute of limitations exception, and that he was properly put on notice of this possibility by the allegations, and evidence, set forth in his
case. (Doc. 21, at 32).
At the outset, the Court again emphasizes that
federal courts have no supervisory authority over state
judicial proceedings and may intervene only to correct
wrongs of constitutional dimension. Johnson v.
Rosemeyer, 117 F.3d 104, 109 (3d Cir.1997) (quoting
Geschwendt v. Ryan, 967 F.2d 877, 888–89 (3d
Cir.1992) (en banc)) (alteration and emphasis added).
“[T]he Supreme Court has instructed that ‘an indictment must contain all the elements of the charged offense to ensure that a grand jury found them present
and to ‘fairly inform[ ] a defendant of the charge
against which he must defend,’ as well as ‘enable[ ] him
to plead an acquittal or conviction in bar of future prosecutions for the same offense.’ ” United States v. Stevenson, 832 F.3d 412, 423 (3d Cir. 2016) (quoting Hamling
v. United States, 418 U.S. 87, 117 (1974)). Indeed, “ ‘[i]t
is as much a violation of due process to send an accused

94a
to prison following conviction of a charge on which he
was never tried as it would be to convict him upon a
charge that was never made.’ ” Rabe v. Washington, 405
U.S. 313, 315 (1972) (quoting Cole v. Arkansas, 333 U.S.
196, 201 (1948) (“No principle of procedural due process is more clearly established than that notice of the
speciﬁc charge, and a chance to be heard in a trial of
the issues raised by that charge, if desired, are among
the constitutional rights of every accused in a criminal
proceeding in all courts, state or federal.”)). Thus, the
Government must prove beyond a reasonable doubt
“every fact necessary to constitute the crime with
which [the defendant] is charged.” In re Winship, 397
U.S. 358, 364 (1970).
Here, although a close determination, based on the
facts presented, the Court is of the opinion that the
State Court’s conclusions did not constitute an unreasonable application of clearly established federal law.
While Spanier relies on general propositions that “[a]
defendant’s right to notice of the charges against which
he must defend is well established,” Gray v. Netherland, 518 U.S. 152, 167–68 (1996), the Court is not persuaded that relying on the statute of limitations
associated with a lesser misdemeanor EWOC charge
here, as opposed to a felony EWOC charge, “violate[d]
those ‘fundamental conceptions of justice which lie at
the base of our civil and political institutions,’ Mooney
v. Holohan, 294 U.S. 103, 112 (1935), and which define ‘the community’s sense of fair play and decency,’
Rochin v. California, 342 U.S. [ 165,] 173 [(19520].”
United States v. Lovasco, 431 U.S. 783, 790 (1977).

95a
While the Court does not condone the Commonwealth’s reliance on § 5552(c)(3) following the jury’s
ﬁnding that Spanier could not be convicted under the
felony EWOC charge, it simply determines that such
conduct could not render Spanier’s trial so fundamentally unfair as to offend the Due Process Clause. Accordingly, the Court denies Spanier’s claim for relief
based on the application of the statute of limitations
exception.
V.

CONCLUSION

In 2001, Petitioner, Graham B. Spanier, then President of the Pennsylvania State University, participated in formulating a response on behalf of the
University to allegations of sexual abuse of a minor. As
a result of this response, in 2012, Spanier was charged
with endangering the welfare of a minor child under
the 2007 version of the statute, despite his alleged conduct having occurred six years before the enactment of
the 2007 amendment. That 2007 statute expanded the
previous version of the statute to change the deﬁnition
of who could be culpable for conduct under that law.
The application of that 2007 statute to Spanier’s conduct was a violation of the United States Constitution’s
Ex Post Facto and Due Process clauses. Further, at
trial, the jury was instructed pursuant to that 2007
version, and the trial court rejected the request by
Spanier to instruct the jury on the version of the statute in place at the time of the 2001 conduct. This instruction was not harmless error, and further violated
Spanier’s right to due process.

96a
In sum, the conviction in this matter was based on
a criminal statute that did not go into effect until six
years after the conduct in question, and is therefore
in violation of Spanier’s federal constitutional rights.
For these reasons, the Court is compelled to grant
Spanier’s § 2254 petition, vacate his misdemeanor conviction, and direct the Commonwealth to retry him under the 1995 version of the statute within 90 days.
An appropriate Order follows.
Dated: April 30, 2019 s/ Karoline Mehalchick
KAROLINE MEHALCHICK
United States Magistrate Judge

97a
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
GRAHAM B. SPANIER,
CIVIL ACTION NO.
3:19-CV-523

Petitioner,
v.

(MEHALCHICK, M.J.)

CHAD LIBBY, Director of
Dauphin County Probation
Services, et al.,
Respondents.
ORDER
AND NOW, this 30th day of April, 2019, upon
consideration of the application (Doc. 1) for a writ of
habeas corpus pursuant to 28 U.S.C. § 2254 filed by
Petitioner, Graham B. Spanier, and for the reasons set
forth in the accompanying memorandum, it is hereby
ORDERED that:
1.

Spanier’s petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254 is
GRANTED with respect to the ﬁrst two
grounds raised in the petition, namely
that the application of the 2007 child endangerment statute to his 2001 conduct,
and the jury instruction based on the
2007 statute, as applied to Spanier, are
unconstitutional. His petition is DENIED
with respect to the third ground raised,
the application of a statute-of-limitations
exception not raised by the Commonwealth before or at trial.

98a
2.

Spanier’s conviction and sentence for one
count of Endangerment of the Welfare of
a Child in the Court of Common Pleas of
Dauphin County, No. CP-22-CR-00036152013 are VACATED.

3.

The execution of the writ of habeas corpus is STAYED for 90 days from the date
of this order, during which time the Commonwealth of Pennsylvania may afford
Spanier a new trial.

4.

A certiﬁcate of appealability shall issue
with respect to Spanier’s third claim, that
his conviction was upheld on the basis of
a statute-of-limitations exception that
the Commonwealth did not raise before
trial. See 28 U.S.C. § 2254 Rule 11(a); 28
U.S.C. § 2253(c).1

5.

The Clerk of Court is directed to administratively CLOSE this case.

Dated: April 30, 2019 s/ Karoline Mehalchick
KAROLINE MEHALCHICK
United States Magistrate Judge

1
The Court has not addressed whether a certiﬁcate of appealability shall issue with respect to the disposition of the ﬁrst
two grounds of Spanier’s petition, as a certiﬁcate of appealability
is not required when a state or its representative or the United
States or its representative appeals. Fed. R. App. P. 22(b)(3).

99a
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
COMMONWEALTH OF
PENNSYLVANIA,
Respondent
v.
GRAHAM B. SPANIER,
Petitioner

:
:
:
:
:
:
:
:

No. 639 MAL 2018
Petition for Allowance
of Appeal from the
Order of the Superior
Court

ORDER
PER CURIAM
AND NOW, this 21st day of February, 2019, the
Petition for Allowance of Appeal is DENIED.

100a
2018 PA Super 184
COMMONWEALTH OF
PENNSYLVANIA
Appellee

IN THE SUPERIOR
COURT OF
PENNSYLVANIA

v.
GRAHAM B. SPANIER
Appellant

No. 1093 MDA 2017

Appeal from the Judgment of Sentence
Entered June 2, 2017
In the Court of Common Pleas of Dauphin County
Criminal Division at No: CP-22-CR-0003615-2013
BEFORE:

STABILE, NICHOLS, and RANSOM,* JJ.

OPINION BY STABILE, J.:

FILED JUNE 26, 2018

Appellant, Graham B. Spanier, appeals from the
judgment of sentence of four to twelve months of incarceration, imposed June 2, 2017, following a jury trial
resulting in his conviction for one count of endangering
the welfare of a child (“EWOC”).1 We afﬁrm.
Appellant is the former President of the Pennsylvania State University (“PSU”), and served in that capacity from 1995 through 2011.2 The charges against
him arise from his response to allegations of sexual
misconduct against Gerald “Jerry” A. Sandusky, who
* Retired Senior Judge assigned to the Superior Court.
1
18 Pa.C.S.A. § 4304(a)(1).
2
We have relied on the trial court’s opinion for our recitation
of facts. See Trial Court Opinion (TCO), 9/22/17, at 1-9.

101a
was the defensive coordinator for the Penn State football team and founder of a non-proﬁt charity for troubled youth, The Second Mile (“TSM”).
In May 1998, the mother of an eleven-year-old boy
who was a participant in Sandusky’s charity program
contacted PSU Police. She informed a detective that
Sandusky had bear-hugged her son while both were
naked in the shower. An investigation commenced, and
various PSU ofﬁcials were informed, including Tom
Harmon, PSU’s Chief of Police, Gary Schultz, PSU’s
Vice President for Finance and Business, and Tim
Curley, PSU’s Athletic Director. Schultz and Curley
corresponded regularly by email regarding the investigation. Appellant was a carbon-copy recipient of some
of those emails. Ultimately, no criminal charges were
ﬁled, and the investigation closed in June 1998. The
university took no further action regarding Sandusky
at that time.
On the evening of February 9, 2001, Michael
McQueary, a graduate assistant with the PSU football
team, went into the Lasch Building. He heard noises
and, upon investigating, observed Sandusky sexually
assaulting a ten-to twelve-year-old boy in the shower.
McQueary left the building but informed his father
about the incident later that night. On February 10,
2001, McQueary told head football coach Joe Paterno
about what he had seen. On February 11, 2001, Paterno contacted Curley, who in turn informed Schultz.
On February 12, 2001, following a routine president’s council meeting, Curley and Schultz met

102a
privately with Appellant to discuss Sandusky. They
discussed the recent incident and the 1998 incident,
which Appellant remembered. They devised a threepart plan: 1) speaking with Sandusky about appropriate use of facilities; 2) contacting the director of TSM;
and 3) contacting the Department of Public Welfare
(“DPW”). Appellant put Curley in charge of executing
the plan and keeping Schultz informed.
On February 17, 2001, Curley informed Schultz
that he had not begun to implement the plan. The next
week, Curley and Shultz met with McQueary. He did
not describe the incident in detail, but stated that
Sandusky’s conduct was sexual and “over the line.” On
February 25, 2001, Curley and Schultz informed Appellant of McQueary’s account. The next day, Schultz
sent Curley an email requesting he execute the threestep plan.
On February 27, 2001, Curley emailed Schultz and
Appellant to say that he was no longer comfortable
with the original plan. Instead, Curley wanted to speak
only with Sandusky at ﬁrst to advise him to seek professional help, and to tell him he could no longer bring
underage boys to PSU facilities. If Sandusky cooperated, Schultz, Curley, and Appellant would inform only
TSM; otherwise, they would inform both TSM and
DPW. Appellant supported Curley’s plan, though he observed that if Sandusky did not cooperate, they would
be vulnerable for not having reported the incident.
Sandusky denied any wrongdoing when Curley
spoke to him. Nevertheless, Curley told him that he

103a
could no longer bring children into PSU athletic facilities and that the director of TSM, Jack Raykovitz,
would be informed. Curley spoke to Raykovitz and expected Raykovitz to enforce the limits on Sandusky’s
use of PSU facilities, but Curley did not offer Raykovitz
any direction on how to proceed. After speaking with
Sandusky and Raykovitz, Curley informed Appellant
and Schultz that he had done so. Curley never contacted DPW, Children and Youth Services, or the police.
Further, Curley did not inform campus police that
Sandusky was not permitted to bring children into the
facilities, or inform any other PSU personnel that they
should enforce this rule. McQueary continued to observe Sandusky in the Lasch Building after hours.
Sandusky subsequently abused at least four more
young boys, including one in the Lasch Building
shower in the summer of 2002.3 In 2011, Sandusky was
arrested and charged with forty-nine counts arising
from his alleged abuse of ten child victims. A jury found
Sandusky guilty on multiple counts. Appellant was removed as PSU president while the charges against
Sandusky were pending.
On November 1, 2012, Appellant was charged with
one count of perjury, two counts of endangering the
welfare of children (“EWOC”), one count of obstruction
of justice, three counts of conspiracy, and one count of
3

The victim, John Doe, testiﬁed at Appellant’s trial that in
the summer of 2002, when he was approximately twelve or thirteen years old, Sandusky sexually assaulted him in the shower at
the Lasch Building. See Notes of Testimony (N.T.), 3/22/17, at
404-08.

104a
failure to report suspected child abuse.4 Appellant ﬁled
pre-trial motions seeking to preclude the introduction
of the testimony of Cynthia Baldwin5 and quash
charges against him based upon violation of attorneyclient privilege. The trial court denied those motions,
and Appellant timely ﬁled an interlocutory appeal. A
prior panel of this Court determined that Ms. Baldwin
had breached attorney-client privilege and, therefore,
was incompetent to testify as to her conﬁdential communications with Appellant. See Commonwealth v.
Spanier, 132 A.3d 481, 482 (Pa. Super. 2016). Accordingly, this court quashed the charges of perjury, obstruction of justice, and conspiracy to commit perjury.6
Id.
Following remand, Appellant ﬁled an omnibus
pre-trial motion and a habeas corpus petition requesting dismissal of the failure to report and child endangerment charges, asserting that they were timebarred. The Commonwealth responded that the
charges were not time-barred because Appellant had
engaged in a course of conduct and the statute of limitations did not commence until the course of conduct
was complete. The trial court dismissed the failure to
report charge as time-barred but denied Appellant’s request to dismiss the EWOC charges.
4

18 Pa.C.S.A. §§ 4902, 4304, 5101, 903, and 23 Pa.C.S.A.
§ 6319, respectively.
5
Ms. Baldwin was the general counsel of PSU, and a former
Justice of the Pennsylvania Supreme Court.
6
A count of conspiracy to endanger the welfare of children
remained.

105a
The case proceeded to jury trial in March 2017.7
The jury found Appellant guilty of EWOC, 18 Pa.C.S.A.
§ 4304(a)(1), not guilty of EWOC, 18 Pa.C.S.A.
§ 4304(a)(2)8, and not guilty of conspiracy to endanger
the welfare of children. Additionally, the jury found Appellant had not engaged in a course of conduct with respect to the EWOC conviction, resulting in a conviction
for a misdemeanor rather than a felony. 18 Pa.C.S.A.
§ 4304(b)(1)(ii).
On June 2, 2017, the court sentenced Appellant to
four to twelve months of incarceration followed by two
years of probation. This timely appeal followed. Appellant raises the following questions for our review:
1. The Commonwealth bears the burden of
proving that this prosecution, which was commenced on November 1, 2012, was brought
within the two-year statute of limitations for
endangering the welfare of children. The only
argument the Commonwealth made before or
at trial that the charge was not time barred
was that [Appellant] endangered the welfare
of children through a course of conduct. Where
the only evidence presented at trial regarding
this charge involved conduct in February
2001, and the jury speciﬁcally found that [Appellant] did not engage in a course of conduct,
7

Prior to Appellant’s trial, Schultz and Curley each pleaded
guilty to a single misdemeanor child endangerment charge.
8
Respectively, Appellant was found guilty of violating a duty
of care and not guilty of preventing, in an ofﬁcial capacity, the
making of a report of suspected child abuse. See 18 Pa.C.S.A.
§§ 4304(a)(1), (2).

106a
did the trial court err in not entering judgment of acquittal?
2. The Commonwealth was required to
prove beyond a reasonable doubt that [Appellant] was supervising the welfare of a minor
child to whom [Appellant] owed a duty of care,
protection, or support. The duty of care, protection, or support must exist in law. A person
supervising the welfare of a child is someone
who provides permanent or temporary care,
supervision, or control of a child in lieu of parental care, supervision, and control. Where
the Commonwealth presented no evidence of
a statutory, contractual, or common-law duty
of care that [Appellant] owed any minor child
or that he had any direct interaction with minor children or was the point person for abuse
allegations or supervised the individual who
abused minor children on campus, did the
trial court err in not entering a judgment of
acquittal?
3. The state and federal constitutions prohibit the government from imposing punishment for conduct that was not criminal at the
time of the conduct but was later criminalized.
In 2001, when the alleged conduct at issue
here occurred, the child-endangerment statute did not encompass someone who was employing or supervising someone else who was
supervising the welfare of a minor child; this
“employing or supervising” provision was
added to the statute in 2007. To the extent
[Appellant]’s child-endangerment conviction
was based on his alleged employment or

107a
supervision of someone else who was supervising the welfare of a child, did the trial court
err in not entering a judgment of acquittal?
4. A jury in a criminal case must be given a
fair, accurate, and complete statement of the
law. A new trial should be ordered where there
is an omission from the charge amounting to
a fundamental error.
a. Where [Appellant] argued before
trial that the child-endangerment
charge was time-barred and requested that the jury be instructed
on this issue, did the trial court err
in denying this request and denying
[Appellant’s] motion for a new trial
due to that error?
b. Where the only conduct at issue
here occurred in 2001, did the trial
court err in denying [Appellant’s] request to instruct the jury on the 2001
version of the child-endangerment
statute rather than the 2007 version
and denying his motion for a new
trial due to that error?
c. Where the standard jury instructions for child endangerment do not
reﬂect a complete statement of the
law, as interpreted by this Court and
the Supreme Court, did the trial
court err in using that instruction
and in denying [Appellant’s] requested
instruction
on
child

108a
endangerment and denying his motion for a new trial due to that error?
Appellant’s Brief at 4-6 (answers omitted).
We ﬁrst consider Appellant’s argument that the
EWOC prosecution is barred by the statute of limitations. This raises a question of law, for which our standard of review is de novo and our scope of review is
plenary. Commonwealth v. Vega-Reyes, 131 A.3d 61,
63 (Pa. Super. 2016) (en banc). The trial court reasoned
that the statute of limitations was timely pursuant to
42 Pa.C.S.A. § 5552(c)(3). See Trial Court Opinion,
9/22/17, at 9-10.9 Section 5552 creates exceptions to the
two-year statute otherwise made generally applicable
under 5552(a):
(a) General rule. – Except as otherwise
provided in this subchapter, a prosecution for
an offense must be commenced within two
years after it is committed.

9

The Dissent states that the trial court reasoned the statute
of limitations was “tolled” by the exception at § 5552(c)(3). Dissenting Opinion, at 1. We find this to be in error, as the trial
court never mentioned or relied upon any tolling provision to conclude the prosecution for misdemeanor EWOC commenced within
the statutorily prescribed limitations period under § 5552(c)(3).
As we explain infra, this distinction is important. A statute of
limitations may be “tolled” (or stopped from running) under 42
Pa.C.S.A. § 5554 when the Commonwealth can prove additional
facts that qualify to toll a limitations period. Due Process requires
that a defendant be apprised prior to trial of facts the Commonwealth intends to establish to toll a limitations period. No such
notice was required here where the complaint put Appellant on
notice of all facts that support the application of § 5552(c)(3).

109a
[...]
(c) Exceptions. – If the period prescribed
in subsection (a), (b) or (b.1) has expired, a
prosecution may nevertheless be commenced
for:
[...]
(3) Any sexual offense committed
against a minor who is less than 18 years of
age any time up to the later of the period of
limitation provided by law after the minor has
reached 18 years of age or the date the minor
reaches 50 years of age. As used in this paragraph, the term “sexual offense” means a
crime under the following provisions of Title
18 (relating to crimes and offenses):
[...]
Section 4304 (relating to endangering
welfare of children).
[...]
42 Pa.C.S.A. § 5552(a), (c).
At trial the Commonwealth sought a felony conviction for EWOC under § 4304(b)(1)(ii), which requires proof that the perpetrator engaged in a course
of conduct.10 Had the Commonwealth succeeded, the
10

The Pennsylvania Crimes Code deﬁnes EWOC in relevant
part as follows:
(a) Offense deﬁned. –
(1) A parent, guardian or other person supervising the welfare of a child under 18 years of age, or a
person that employs or supervises such a person,

110a
statute of limitations presumably would have commenced when the course of conduct ended. See 42
Pa.C.S.A. § 5552(d). The jury, however, found no course
of conduct and therefore found Appellant guilty of
the lesser-included misdemeanor offense under 18
Pa.C.S.A. § 4304(b)(1)(i). Well-settled law permits this.
Established Pennsylvania law states a
defendant can be convicted of a crime that
was not actually charged when the uncharged
offense is a lesser-included offense of the
charged crime. As long as the conviction is for
a lesser-included offense, the defendant will
have been put on notice of the charges against
him and can adequately prepare a defense.
Commonwealth v. Houck, 102 A.3d 443, 449-50 (Pa.
Super. 2014) (citing Commonwealth v. Sims, 919
A.2d 931 (Pa. 2007)).
Pursuant to Houck, Appellant was on notice that
he was liable to be convicted of misdemeanor EWOC.
commits an offense if he knowingly endangers the welfare of the child by violating a duty of care, protection
or support.
[...]
(b) Grading. –
(1) Except as provided under paragraph (2), the
following apply:
(i) An offense under this section constitutes a
misdemeanor of the ﬁrst degree.
(ii) If the actor engaged in a course of conduct of
endangering the welfare of a child, the offense
constitutes a felony of the third degree.
18 Pa.C.S.A. § 4304.

111a
Attendant to that, Appellant was on notice of the applicability of § 5552(c)(3), which expressly applies to offenses under § 4304. The Commonwealth ﬁled its
complaint against Appellant on November 1, 2012,
more than eleven years after the February 9, 2001 offense and well outside of the general two-year limitations period of § 5552(a). Thus, it was plainly evident
when the Commonwealth ﬁled its complaint that
§ 5552(c)(3) would govern the limitations period for a
misdemeanor EWOC prosecution.
We are cognizant that § 5552 was amended since
the 2001 offense. On February 9, 2001, § 5552(c)(3) provided that, for a sexual offense committed against a
minor less than 18 years of age, prosecution could be
commenced within two years after the victim’s 18th
birthday. 1990 Pa. Laws 1341, No. 208, § 1. The 2001
version of § 5552(c)(3) identiﬁed § 4304 as a sexual offense (as we will discuss below, it still does). Id.; 42
Pa.C.S.A. § 5552(c)(3). Pursuant to the version of
§ 5552(c)(3) extant at the time of the 2001 offense,
therefore, the Commonwealth had until two years after the victim’s 18th birthday to commence this prosecution against Appellant.
The grand jury presentment, attached to the criminal complaint as “Exhibit A,” stated that the victim of
the 2001 offense was a prepubescent boy. Criminal
Complaint, 11/1/12, Exhibit A at 15.11 At trial, the
11

See, e.g. Commonwealth v. Morrow, 682 A.2d 347, 349
(Pa. Super. 1996) (noting that where the Commonwealth’s complaint averred the victim’s age but did not reference the statute
of limitations, the defendant was sufﬁciently on notice of the

112a
Commonwealth presented unchallenged evidence that
the victim was 10 to 12 years old at the time of his February 9, 2001 sexual assault. Therefore, on January 29,
2007, when the current version of § 5552(c)(3) took effect, the victim was no more than 18 years old. Because
the existing statute had yet to expire at the time of its
amendment, the amended statute applies to this prosecution. Commonwealth v. Harvey, 542 A.2d 1027,
1030-31 (Pa. Super. 1988) (en banc). Section 5552(c)(3),
as amended in 2007, permitted the Commonwealth
to commence this prosecution any time prior to the
victim’s 50th birthday. 42 Pa.C.S.A. § 5552(c)(3). The
victim would have been in his early twenties on November 1, 2012, when the Commonwealth commenced
this prosecution. In summary, Appellant’s notice of the
applicable limitations period was “sufﬁciently speciﬁc
so as to allow [Appellant] to prepare any available defenses.” Sims, 919 A.2d at 939. This prosecution was
timely.
Appellant offers several bases for avoiding this result, none of which we ﬁnd availing. Appellant asserts
the prosecution was untimely, since the only argument
the Commonwealth ever made to surmount the limitations bar was that Appellant engaged in a course of
conduct continuing until after November 2010. The
jury expressly rejected that theory, thus defeating the
Commonwealth’s sole statute of limitations argument.
While it is true the jury’s rejection of a course of conduct defeated the Commonwealth’s attempt to secure
applicable statute of limitations), appeal denied, 693 A.2d 587
(Pa. 1997).

113a
a conviction for EWOC as a felony, Appellant’s argument that the rejection of a course of conduct ﬁnding
rendered this prosecution untimely is misplaced. The
argument ignores, as previously stated, that Appellant
was convicted of EWOC as a misdemeanor not dependent upon a course of conduct ﬁnding.
Likewise, we cannot conclude, as Appellant urges,
that the Commonwealth waived its ability to rely upon
§ 5552(c)(3) because it sought a conviction based upon
a course of conduct. As explained, Appellant was always on notice of his potential liability for misdemeanor EWOC. Houck, supra.
Appellant argues further that the Commonwealth
cannot avoid the limitations bar through the trial
court’s after-the-fact reliance on § 5552(c)(3), which the
Commonwealth never raised nor addressed at trial.
Appellant points out that nowhere in its criminal complaint, presentment, information, pre-trial motion
brieﬁng, proposed jury instructions, or arguments at
trial did the Commonwealth invoke the statute of limitations exception at § 5552(c)(3). Appellant argues
that the Commonwealth was required to provide notice
of its intent to “toll” the statute of limitations under
§ 5552(c)(3) and is prohibited from doing so for the ﬁrst
time post-verdict, let alone on appeal. In support of this
proposition Appellant cites Commonwealth v. Bethlehem, 570 A.2d 563 (Pa. Super. 1989), abrogated in
part, Commonwealth v. Gerstner, 656 A.2d 108 (Pa.
1995), which he maintains is directly on point. We disagree.

114a
In Bethlehem, the defendant was convicted of
various sexual crimes committed against his young
niece during family visits to the victim’s former residence where she lived with her parents on or before
May 17, 1982. The complaint against the defendant
was ﬁled June 3, 1987, after the longest applicable
statute of limitations already had expired. In response
to defense motions arguing that the charges were
barred by the applicable statute of limitations, the
Commonwealth made no attempt to argue that any applicable statute of limitations was tolled under
§ 5554(3)12. Rather, the Commonwealth incorrectly
maintained only that time elements were not controlling in cases involving minors. In response to post-verdict claims, the Commonwealth attempted for the ﬁrst
time to argue that the statute of limitations was tolled
by the parent or guardian exception under § 5554(3).
12

Section 5554, titled “Tolling of statute,” provides:
Except as provided by section 5553(e) (relating to disposition of proceedings within two years), the period of
limitation does not run during any time when:
(1) the accused is continuously absent from this Commonwealth or has no reasonably ascertainable place of
abode or work within this Commonwealth;
(2) a prosecution against the accused for the same
conduct is pending in this Commonwealth; or
(3) a child is under 18 years of age, where the crime
involves injuries to the person of the child caused by
the wrongful act, or neglect, or unlawful violence, or
negligence of the child’s parents or by a person responsible for the child’s welfare, or any individual residing
in the same home as the child, or a paramour of the
child’s parent.
42 Pa.C.S.A. § 5554.

115a
This Court held that the Commonwealth’s post-verdict
claim that proof of the applicable exception came too
late. At no time pre-trial was the defendant given notice, actual or constructive, of the Commonwealth’s intent to claim tolling of the statute of limitations under
§ 5554(3). The rationale for this conclusion is grounded
in due process. When the Commonwealth seeks to toll
the statute of limitations by establishing one of the
tolling exceptions, it must allege the exception in the
indictment. Commonwealth v. Stockard, 413 A.2d
1088 (Pa. 1980).13 The purpose of this rule is to apprise
a defendant that he must defend not only against the
crime itself, but also against the limitation of prosecution. Id. A defendant must have some reasonable time
before trial to be apprised of the fact(s) the Commonwealth will seek to prove to toll the statute of limitations in order to satisfy the due process requirements
of notice. Id. The Commonwealth’s failure in Bethlehem to apprise the defendant of facts it intended to
prove to toll the applicable statute violated due process. Unlike Bethlehem, the Commonwealth here did
not attempt to invoke any of the exceptions under
§ 5554 to toll the statute of limitations. More importantly, the prosecution for misdemeanor EWOC
was not dependent upon proof of any facts outside
those already alleged in the complaint. Thus, unlike
Bethlehem, notice requirements under due process
were not violated here.

13

Stockard was decided under 18 Pa.C.S.A. § 108(f ), the
statutory predecessor to current 42 Pa.C.S.A. § 5554.

116a
Likewise, we ﬁnd Commonwealth v. Goldhammer, 489 A.2d 1307, 1312 (Pa. 1985), also cited by
Appellant not persuasive. In Goldhammer, the Pennsylvania Supreme Court held that the Commonwealth
could not rely on § 5552(c)(1) to salvage the timeliness
of a prosecution. That section applies to offenses for
which fraud or breach of ﬁduciary duty is a material
element, and it permits commencement of prosecution
within one year of discovery of the fraud or breach.
42 Pa.C.S.A. § 5552(c)(1). While acknowledging that
when the Commonwealth seeks to toll the statute of
limitations it must allege the exception in the information or otherwise apprise the defendant within a
reasonable time that it intends to toll the statute, the
Court concluded the discovery provision under
§ 5552(c)(1) did not apply because neither fraud nor
breach of ﬁduciary duty was a material element of
theft by unlawful taking. Id. at 1312-13.
Bethlehem and Stockard are easily distinguishable from Appellant’s case in that they construe the
statutory tolling provision, currently codiﬁed at 42
Pa.C.S.A. § 5554. Section 5554 does not set the applicable limitations period for any offense, and that section is not at issue in this case. Likewise, under
§ 5552(c)(1), at issue in Goldhammer, the Commonwealth must give notice of its intent to prove that the
prosecution commenced within one year of the discovery of fraud or breach of ﬁduciary duty. 42 Pa.C.S.A.
§ 5552(c)(1). In other words, the Commonwealth must
give notice of its intent to establish that the applicable
limitations period did not commence until its discovery

117a
of a pertinent fact. In this respect, § 5552(c)(1) is similar to § 5554 because the Commonwealth has to allege
and provide a defendant notice of facts regarding its
discovery of the offense. Instantly, no additional facts
beyond those in the complaint were necessary to place
the defendant on notice of that which he would be required to defend against at trial.
Simply put, this case does not involve “tolling”
wherein the Commonwealth would have had an obligation to apprise the Appellant of additional facts to
defend against in response to his statute of limitations
defense. The Commonwealth alleged no facts that forestalled the commencement of the limitations period or
interrupted its running. Per Sims and Houck, Appellant was on notice of his potential criminal liability for
misdemeanor EWOC. No limitations period other than
§ 5552(c)(3) applied to that offense in this case. The
complaint and the attached grand jury presentment
apprised Appellant of the facts relevant to the applicable limitations period in order to defend against the
lesser-included offense of EWOC as a misdemeanor.
Bethlehem, Stockard, and Goldhammer are inapposite, as they, unlike the instant case, required that
the defendant be given notice of additional facts the
Commonwealth intended to prove in order to comply
with due process. Appellant has failed to establish that
the Commonwealth violated due process by failing to
notify him that § 5552(c)(3) set the limitations period
for the misdemeanor EWOC prosecution. Both the misdemeanor offense of EWOC and its applicable statute

118a
of limitations were known to the Appellant prior to
trial.
Appellant also seeks to avoid the application of
§ 5552(c)(3) by arguing that he did not personally commit a sexual offense. This argument fails because
§ 5552(c)(3) expressly and unambiguously identiﬁes
§ 4304 as one of the sexual offenses to which
§ 5552(c)(3) applies. 42 Pa.C.S.A. § 5552(c)(3) (“As used
in this paragraph, the term ‘sexual offense’ means a
crime under the following provisions of Title 18 (related
to crimes and offenses): [ . . . ] Section 4304 (relating to
endangering welfare of children)).” Furthermore,
§ 4304, by its clear terms, does not require sexual misconduct on the part of the perpetrator.14 Because
§ 5502(c)(3) clearly lists EWOC as a sexual offense,
and because EWOC does not require the perpetrator to
be the person committing sexual abuse, Appellant’s argument fails. Appellant would have us ﬁnd statutory
ambiguity where none exists, a course of action not permissible under the rules of statutory construction. 1
Pa.C.S.A. § 1921(b) (“When the words of the statute are
free and clear from all ambiguity, the letter of it is not
to be disregarded under the pretext of pursuing its
spirit.”). For all of the foregoing reasons, we reject Appellant’s argument that the prosecution was untimely.
Next, Appellant argues that the evidence for his
conviction under § 4304 is insufﬁcient because he owed
14

There is no dispute that the victim suffered sexual abuse.
We therefore need not consider the applicability of § 5552(c)(3) to
an EWOC prosecution in which the victim is not alleged to have
been the victim of a sex crime.

119a
no duty of care to the victim of the February 9, 2001
assault.15
Our Supreme Court has addressed proper construction of the EWOC statute:
15

The following governs our review of this issue:
A motion for judgment of acquittal challenges the
sufﬁciency of the evidence to sustain a conviction on a
particular charge, and is granted only in cases in which
the Commonwealth has failed to carry its burden regarding that charge.
The standard we apply in reviewing the sufﬁciency
of the evidence is whether viewing all the evidence admitted at trial in the light most favorable to the verdict
winner, there is sufﬁcient evidence to enable the factﬁnder to ﬁnd every element of the crime beyond a reasonable doubt. In applying the above test, we may not
weigh the evidence and substitute our judgment for the
fact-ﬁnder. In addition, we note that the facts and circumstances established by the Commonwealth need
not preclude every possibility of innocence. Any doubts
regarding a defendant’s guilt may be resolved by the
fact-ﬁnder unless the evidence is so weak and inconclusive that as a matter of law no probability of fact may
be drawn from the combined circumstances. The Commonwealth may sustain its burden of proving every element of the crime beyond a reasonable doubt by
means of wholly circumstantial evidence. Moreover, in
applying the above test, the entire record must be evaluated and all evidence actually received must be considered. Finally, the trier of fact while passing upon the
credibility of witnesses and the weight of the evidence
produced, is free to believe all, part or none of the evidence.
Commonwealth v. Fitzpatrick, 159 A.3d 562, 567 (Pa. Super.
2017) (quoting Commonwealth v. Hutchinson, 947 A.2d 800,
805-06 (Pa. Super. 2008)), appeal denied, 173 A.3d 255 (Pa.
2017).

120a
Generally speaking, under the rule of lenity, penal statutes are to be strictly construed,
with ambiguities resolved in favor of the accused. In the peculiar context of EWOC,
however, we have held that the statute is protective in nature, and must be construed to
effectuate its broad purpose of sheltering children from harm. Speciﬁcally, the purpose of
such juvenile statutes is defensive; they are
written expansively by the legislature to cover
a broad range of conduct in order to safeguard
the welfare and security of our children. In
the context of protective juvenile legislation,
therefore, we have sanctioned statutes that,
rather than itemizing every undesirable type
of conduct, criminalize instead the conduct
producing or tending to produce a [c]ertain deﬁned result[.] We have accordingly observed:
The common sense of the community, as
well as the sense of decency, propriety and the
morality which most people entertain is sufﬁcient to apply the statute to each particular
case, and to individuate what particular conduct is rendered criminal by it.
Commonwealth v. Lynn, 114 A.3d 796, 818 (Pa. 2015)
(internal citations and quotation marks omitted). Further, when “legal issues are premised on the sufﬁciency
of the evidence, the record is read in the light most favorable to the Commonwealth as verdict winner, with
the beneﬁt of all reasonable inferences therefrom.” Id.
at 818.

121a
“The objective [of § 4304] is to conﬁne criminal
punishment for endangering the welfare of children to
consequential acts violative of some settled obligation
springing from the supervisory relationship of actor to
child.” Commonwealth v. Taylor, 471 A.2d 1228,
1230 (Pa. Super. 1984) (quoting Model Penal Code
§ 230.4 comment (Ofﬁcial Draft and Revised Comments 1980)). “ ‘Duty of care, protection, and support’
are not esoteric; rather, [ . . . ] they are easily understood and given context by the community at large.”
Lynn, 114 A.3d at 818 (quoting Commonwealth v.
Mack, 359 A.2d 770, 772 (Pa. 1976)).
In Lynn, the defendant was a “high-ranking ofﬁcial in the Archdiocese of Philadelphia” who was “speciﬁcally responsible for protecting children from
sexually abusive priests.” Id. at 798. Our Supreme
Court concluded that sufﬁcient evidence supported
Lynn’s conviction even though he did not directly supervise any children. The conviction stood because
“that which is supervised is the child’s welfare.” Id.
The Court found the statute to be “plain and unambiguous on that point.” Id. at 823. “By requiring supervision of the child’s welfare rather than of the child, the
statute endeavors to safe-guard the emotional, psychological, and physical well-being of children.” Id.
“[S]upervision is routinely accomplished through subordinates, and is no less supervisory if it does not involve personal encounters with the children.” Id. at
824.
Like [defendant], school principals and
managers of day care centers supervise the

122a
welfare of the children under their care
through their management of others. Depending upon the facts, they could be criminally liable for endangering the welfare of children
under their supervision if they knowingly
place sexually abusive employees in such
proximity to them as to allow for the abuse of
these youth.
Id.
Lynn permitted a priest to live in the rectory of St.
Jerome’s Church, which had an attached grade school,
despite allegations of the priest’s sexual abuse of children, despite the priest’s acknowledgement that the alleged abuse “must have” happened, and despite
recommendations from the staff of a mental health
hospital that the priest be kept away from minors. Id.
at 799-805. Subsequently, the priest sexually abused
an altar boy at St. Jerome.
Lynn’s conduct predated the 2007 amendment of
the EWOC statute. As applicable to Lynn, § 4304 read,
“A parent, guardian, or other person supervising the
welfare of a child under 18 years of age commits an
offense if he knowingly endangers the welfare of the
child by violating a duty of care, protection or support.”
Id. at 807. An investigating grand jury therefore did
not recommend criminal charges, concluding that the
statute was written too narrowly to sustain criminal
charges against high-level Archdiocesan ofﬁcials. In response, the General Assembly amended § 4304 in 2007
to add the bolded clause: “A parent, guardian, or other
person supervising the welfare of a child under 18

123a
years of age, or a person who employs or supervises such a person, commits an offense if he knowingly endangers the welfare of a child by violating a
duty of care, protection or support. 18 Pa.C.S.A.
§ 4304(a)(1) (emphasis added).
Despite the grand jury’s recommendations, the
Philadelphia District Attorney’s ofﬁce commenced
prosecution against Lynn. The Commonwealth argued
to the Supreme Court that the language of the pre2007 EWOC statute plainly encompassed persons supervising others who had contact with minors. Id. at
816. The Supreme Court agreed, holding that “[b]y its
plain terms, the [pre-2007 statute] encompasses all
forms of supervision of a child’s welfare.” Id. at 824.
The Court continued:
Further, as the Commonwealth correctly
argues, supervision is routinely accomplished
through subordinates, and is no less supervisory if it does not involve personal encounters
with the children. Like [the defendant], school
principals and managers of day care centers
supervise the welfare of the children under
their care through their management of others. Depending upon the facts, they could be
criminally liable for endangering the welfare
of the children under their supervision if they
knowingly place sexually abusive employees
in such proximity to them as to allow for the
abuse of these youth.
Id.

124a
Appellant argues, based on a litany of factual distinctions between this case and Lynn, that he owed no
duty of care.16 Appellant notes, correctly, that Lynn was
speciﬁcally responsible for protecting children from
sexual abuse and investigating allegations of sexual
abuse by clergy. Id. at 798-99. Appellant notes, again
correctly, that the instant record contains no evidence
from which we could conclude that Appellant owed a
general duty of care to all minors on Penn State’s campus at any time for any reason. Appellant’s Brief at 45.
However, our focus is limited to a university president’s duty in the face of knowledge of allegations of
on-campus sexual abuse of minors, in this case by a
high-status former employee with access to campus facilities. Here, as in Lynn, Appellant was aware of speciﬁc allegations of sexual abuse. Here, as in Lynn,
Appellant occupied a position of high authority with
respect to the site of the alleged abuse. Here, as in
Lynn, Appellant oversaw his institution’s response. In
his own words in an email, Appellant noted to Curly
and Schultz that the three could become vulnerable for
not reporting Sandusky to authorities if his behavior
continued.17 Appellant, like the defendant in Lynn,
16

Though the Lynn Court did not address duty of care, instead analyzing whether the defendant actually supervised the
welfare of minors (see Lynn, 114 A.3d at 823), both parties treat
Lynn as instructive on the question of duty.
17
To prove the defendant’s intent, the Commonwealth must
establish: (1) that the accused was aware of his or her duty of care;
(2) that the accused was aware the child was in threatening circumstances; and (3) that the accused failed to act or took action
“so lame or meager that such actions cannot reasonably be

125a
had sufﬁcient information and authority to take action. Indeed, he was uniquely positioned to do so.
Appellant relies heavily on the fact that the Lynn
defendant was speciﬁcally responsible for handling sex
abuse allegations against clergy. In fairness to Appellant, the Lynn Court also emphasized that fact, citing
it in its opening paragraph. Instantly, we do not have
direct evidence that Appellant was speciﬁcally responsible for handling allegations of on-campus sex abuse
of minors. The record does establish, however, that Appellant was university president, that people working
under him apprised him of the alleged abuses in 1998
and 2001, and that, in 2001, he oversaw and approved
the university’s woefully deﬁcient response. Thus, the
lack of evidence that Appellant was the “point man” in
the case of alleged on-campus abuse of minors, or that
he was “speciﬁcally responsible” for addressing all such
cases does not undermine or preclude a conclusion that
he was supervising the welfare of a child. The facts remain that Appellant was the school’s highest authority
and that he personally oversaw PSU’s response to the
2001 allegations.
Appellant also distinguishes Lynn on ground that
he did not supervise persons who interacted directly
with the minor in question, as did the Lynn defendant
or as would a school principal or daycare manager.
Again, we ﬁnd the distinction unpersuasive. The Lynn
Court held that it is the child’s welfare that is
expected to protect the child’s welfare.” Commonwealth v. Bryant, 57 A.3d 191, 197 (Pa. Super. 2012).

126a
supervised under § 4304. The facts before us establish
that Appellant, a university president, supervised his
school’s response to repeated allegations of on-campus
abuse of a minor by a high-status former employee
with access to campus facilities. He was clearly supervising a child’s welfare pursuant to Lynn.
The Lynn Court, however, did not address the
duty of care question. The extent to which “supervision
of a child’s welfare” and “duty of care” overlap has, as
the Lynn Court noted, been the subject of varied interpretation by this Court. In Bryant, we noted that “[o]n
multiple occasions, we have extended a duty of care to
non-relatives who exercise some supervisory role over
children.” Bryant, 57 A.3d at 197. Thus, Bryant can
be read to hold that a duty of care follows the supervisory role. In Brown, however, we explained that supervision of welfare and duty of care are distinct elements,
one governing the class of persons subject to the law
and the other governing the proscribed conduct. Commonwealth v. Brown, 721 A.2d 1105, 1107-08 (Pa.Super. 1998).
This case, in the words of Bryant, presents a nonrelative in a supervisory role, and thus precedent exists for extending a duty of care in this case. From
there, we consider our Supreme Court’s repeated directive that we must construe § 4304 to “effectuate its
broad purpose of sheltering children from harm” and
keep in mind the “common sense of the community” in
determining which conduct is criminal under § 4304.
Lynn, 114 A.3d at 818. To hold that Appellant was not
supervising a child’s welfare when he oversaw PSU’s

127a
response to the Sandusky allegations, or to hold that
he owed no duty of care in his exercise of that supervisory authority, would plainly not effectuate the purpose of sheltering children from harm. Similarly, we
cannot believe that the common sense of the community would ﬁnd that Appellant owed no duty of care in
discharging his supervisory role. See Lynn, 114 A.3d
at 818 (“ ‘Duty of care, protection, and support’ are not
esoteric; rather, [ . . . ] they are easily understood and
given context by the community at large.”) On the facts
before us therefore, we conclude that Appellant was supervising the welfare of a child and owed a duty of care
to the child. We need not decide whether and to what
extent the supervisory role and the duty of care overlap in all cases.
Next, we consider Appellant’s argument that the
version of § 4304 extant in 2001 did not apply to him
because he did not supervise children directly. The
Lynn Court wrote: “A subsequent change in language
does not retroactively alter the legislative intent that
is apparent in the plain language of the prior version
of the statute.” Id. at 827. Thus, the Lynn Court upheld
the defendant’s conviction under the pre-2007 version
of EWOC even though the pre-2007 did not expressly
apply to a person “who employs or supervises” someone
supervising the welfare of a child. Appellant would distinguish Lynn because the defendant there was supervising priests who directly interacted with children.
Here, in contrast, there is no evidence that Appellant
supervised anyone who interacted directly with
Sandusky’s minor victims. As we have already

128a
explained above, the Lynn Court held that § 4304 applies to persons who supervise a child’s welfare, not
persons who supervise a child. The absence of direct
interaction between Appellant, Shultz, or Curley and
Sandusky’s victims therefore does not preclude Appellant’s conviction under the pre-2007 version of § 4304
as construed in Lynn.
Finally, Appellant claims the trial court erred in
refusing to instruct the jury on the statute of limitations, and that the trial court erred in instructing the
jury on the 2007 version of EWOC. “[A] trial court has
broad discretion in phrasing its instructions, and may
choose its own wording so long as the law is clearly,
adequately, and accurately presented to the jury for its
consideration. Only where there is an abuse of discretion or an inaccurate statement of the law is there reversible error.” Commonwealth v. Antidormi, 84
A.3d 736, 754 (Pa. Super. 2014) (quoting Commonwealth v. Trippett, 932 A.2d 188, 200 (Pa. Super.
2007)), appeal denied, 95 A.3d 275 (Pa. 2014).
Prior to trial, Appellant submitted a proposed jury
instruction for child endangerment that reﬂected the
language of the 2001 statute and the Pennsylvania Supreme Court’s interpretation of that statute, and he requested an instruction on the statute of limitations.
The trial court stated that it would give the standard
jury instruction on child endangerment and would
charge the jury according to the 2007 version of the
statute. Given our analysis of the statute of limitations
and of the Lynn Court’s treatment of the pre-2007 version of § 4304, we discern no reversible error.

129a
Speciﬁcally, concerning the applicability of
§ 5552(c)(3), we have rejected Appellant’s argument
that the prosecution was “facially time-barred.” Appellant’s Brief at 57. Rather, the applicability of
§ 5552(c)(3) to misdemeanor EWOC was evident from
the complaint and grand jury presentment, and the
Commonwealth’s evidence as to the victim’s age went
unchallenged. Given these circumstances, we ﬁnd no
reversible error in the absence of a statute of limitations instruction. Regarding the EWOC conviction, we
have concluded that the language added in 2007 or,
more appropriately, the language not included in the
pre-2007 version, does not alter the result here. On the
facts of this case, the trial court’s instruction on the
2007 version of the EWOC statute did not result in an
inaccurate statement of the law.
Appellant’s final argument, that the trial court’s
EWOC instruction failed to apprise the jury of all of the
elements of that offense, rests largely on Appellant’s
contentions that the instant case is factually distinguishable from Lynn, and that those factual distinctions preclude a conviction here. Our disagreement
with the latter contention, explained above, leads us to
ﬁnd no reversible error in the trial court’s instruction.
For all of the foregoing reasons, we conclude that
Appellant’s assertions of error lack merit. We therefore
afﬁrm the judgment of sentence.
Judgment of sentence afﬁrmed.
Judge Nichols joins the opinion.
Judge Ransom ﬁles a dissenting opinion.

130a
Judgment Entered.
/s/ Joseph D. Seletyn
Joseph D. Seletyn, Esq.
Prothonotary
Date: 6/26/2018

2018 PA Super 184
COMMONWEALTH OF
PENNSYLVANIA
v.

IN THE SUPERIOR
COURT OF
PENNSYLVANIA

GRAHAM B. SPANIER
Appellant
No. 1093 MDA 2017
Appeal from the Judgment of Sentence June 2, 2017
In the Court of Common Pleas of Dauphin County
Criminal Division at No(s): CP-22-CR-0003615-2013
BEFORE:
SOM, J.*

STABILE, J., NICHOLS, J., and RAN-

DISSENTING OPINION BY RANSOM, J.:
FILED JUNE 26, 2018
I respectfully dissent from the Majority opinion
afﬁrming Appellant’s conviction. In my view, the Commonwealth violated Appellant’s due process rights
* Retired Senior Judge Assigned to the Superior Court.

131a
when it failed to inform him of its intent to rely upon
an exception to the statute of limitations at a reasonable time before trial. Moreover, in my view, this issue is
dispositive. Accordingly, I would reverse Appellant’s
conviction and vacate his judgment of sentence.
The Majority Opinion aptly disposes of the facts
and procedural history in this case. However, I would
emphasize that, in its Pa.R.A.P. 1925(a) opinion, the
trial court reasoned that the statute of limitations was
tolled by the exception outlined in 42 Pa.C.S.
§ 5552(c)(3). This marks the ﬁrst, and only, mention of
the exception at the trial court level.1 See TCO at 9-10.
Most of Appellant’s claims aver that the court
erred in denying his post-sentence motion for a judgment of acquittal. “A motion for judgment of acquittal
challenges the sufﬁciency of the evidence to sustain a
conviction on a particular charge, and is granted only
in cases in which the Commonwealth has failed to
carry its burden regarding that charge.” Commonwealth v. Foster, 33 A.3d 632, 635 (Pa. Super. 2011).
First, Appellant claims that the court erred in
denying his motion for a judgment of acquittal on the
child endangerment charge. See Appellant’s Brief at
1

This section provides that, “Any sexual offense committed
against a minor who is less than 18 years of age any time up to
the later of the period of limitation provided by law after the minor has reached 18 years of age or the date the minor reaches 50
years of age. As used in this paragraph, the term ‘sexual offense’
means a crime under the following provisions of Title 18 (relating
to crimes and offenses).” See 42 Pa.C.S. § 5552(c)(3). Endangering
the welfare of a child is one of the enumerated sexual offenses. Id.

132a
28. According to Appellant, the prosecution, commenced on November 1, 2012, was not brought within
the two-year statute of limitations applicable for endangering the welfare of children. See Appellant’s
Brief at 28-29. Essentially, he raises two arguments:
ﬁrst, that there was no course of conduct because silence is not a course of conduct, and the jury rejected
this argument;2 and second, that the Commonwealth
has waived any consideration of the exception provided
by 42 Pa.C.S. § 5552(c)(3) by not raising this issue prior
to trial. Id. at 28-29, 32-40.
With regard to Appellant’s ﬁrst argument, he contends that 1) silence alone cannot constitute a course
of conduct, so the statute of limitations was never
tolled, and 2) that the Commonwealth has not presented any evidence that Appellant owed the children
in question a duty of care, or had a relationship

2

The question regarding course of conduct was posed to the
jury as a question to determine grading. Pursuant to the statute,
the offense is a misdemeanor of the ﬁrst degree unless the actor
engaged in a course of conduct of endangering the welfare of a
child, which would result in grading the offense as a felony of the
third degree. See 18 Pa.C.S. § 4304(b)(1)(ii). The jury determined
that Appellant had not engaged in a course of conduct such that
the offense would be graded as a felony.
Additionally, 42 Pa.C.S. § 5552(d) provides an exception to
the statute of limitations by stating that an offense is committed
either whenever every element occurs, or if there is a legislative
purpose to prohibit a continuing course of conduct, then the offense is committed at the time when the course of conduct is terminated. See 42 Pa.C.S. § 5552(d).

133a
requiring that he owe such a duty in 2001.3 See Appellant’s Brief at 28, 31 (citing in support Commonwealth v. Popow, 844 A.2d 13, 17 (Pa. Super. 2004).
In response, the Commonwealth contends that Appellant’s conviction was a crime of nonfeasance. See
Commonwealth’s Brief at 14-15. The Commonwealth
responds that Appellant’s “one action” of failing to inform the Department of Welfare or the police of
Sandusky’s actions created an ongoing danger to children encountered by Sandusky, and that this failure to
report was a violation of Appellant’s duty of care. Id.
(citing in support Commonwealth v. Stitt, 947 A.2d
195 (Pa. Super. 2008) (ﬁnding that two-year limitations
period was never triggered due to defendant’s continuing violation of failing to register as a sex offender)).
Thus, according to the Commonwealth, Appellant’s ongoing inaction of failing to report Sandusky’s actions
constituted a course of conduct, and the limitations period did not terminate until Sandusky’s arrest. Id. Further, the Commonwealth avers that it appropriately
informed Appellant of its intent to toll the statute in
such a manner in the criminal information. Id.
With regard to the application of the statute of
limitations,
[this] is a question of law. Thus, our standard
of review is de novo and scope of review is plenary. Statutes of limitations are of course

3

In so doing, Appellant references subsequent sections of his
argument. See Appellant’s Brief at 31.

134a
liberally construed in favor of the defendant
and against the Commonwealth.
Commonwealth v. Succi, 173 A.3d 269, 279 (Pa. Super. 2017), reargument denied (Dec. 12, 2017) (internal
citations and quotations omitted).
A statute of limitations defense is properly raised
prior to trial in an omnibus motion to dismiss the
charges. See Commonwealth v. Corban Corp., 909
A.2d 406, 411 (Pa. Super. 2006). The Commonwealth
bears the burden of establishing that a crime as
charged was committed within the applicable limitations period. Id.
A prosecution for endangering the welfare of children must be commenced within two years after it is
committed. See 42 Pa.C.S. § 5552(a). Except as otherwise provided by the general rules, a prosecution is
commenced either “when an indictment is found or an
information under section 8931(b) (relating to indictment and information) is issued, or when a warrant,
summons or citation is issued, if such warrant, summons or citation is executed without unreasonable delay.” See 42 Pa.C.S. § 5552(e). The limitations period
normally begins to run on the day after every element
of a charge occurs. See 42 Pa.C.S. § 5552(d). However,
“if a legislative purpose to prohibit a continuing course
of conduct plainly appears, at the time when the course
of conduct or the complicity of the defendant therein is
terminated, time] starts to run on the day after the offense is committed.” Id.

135a
In this case, the EWOC statute reﬂects a legislative purpose to prohibit a continuing course of conduct
as it places a heavier penalty upon such an offense. The
statute provides that a defendant engaging in a course
of conduct, as opposed to a single instance of the crime,
commits a felony of the third degree rather than a misdemeanor of the ﬁrst degree, and is accordingly subject
to a longer term of incarceration. See 18 Pa.C.S.
§ 4304(b)(1)(i)-(ii). Accordingly, the statute would run
on the date that the conduct or complicity of the defendant ends. Thus, I must determine whether Appellant’s inaction was actionable in 2011, when charges
were ﬁled against him.
To convict a defendant of EWOC, the Commonwealth must prove beyond a reasonable doubt that “[a]
parent, guardian or other person supervising the welfare of a child under 18 years of age, or a person that
employs or supervises such a person . . . knowingly endanger[ed] the welfare of the child by violating a duty
of care, protection or support.” 18 Pa.C.S. § 4304(a).
I will ﬁrst address whether Appellant owed a duty
of care to the children. The exact nature of this duty is
malleable. The comments to 18 Pa.C.S. § 4304 note
that the section “consolidates and simpliﬁes the various provisions concerning crimes endangering the welfare of children. The offense involves the endangering
of the physical or moral welfare of a child by an act or
omission in violation of legal duty even though such
legal duty does not itself carry a criminal sanction.”
See 18 Pa.C.S. § 4304 cmt. Pennsylvania courts have
held that the Commonwealth must prove that the

136a
defendant: 1) was aware of his duty to protect the child;
2) was aware that the child was in circumstances that
could threaten the child’s physical or psychological
welfare; and 3) has either failed to act or has taken action so lame or meager that such actions cannot reasonably be expected to protect the child’s welfare. See
Commonwealth v. Pahel, 689 A.2d 963, 964 (Pa. Super. 1997).
Appellant relies largely upon Commonwealth v.
Taylor, 471 A.2d 1228 (Pa. Super. 1984), to argue that
he did not owe a duty of care to the child victim in this
case. See Appellant’s Brief at 40-41. He claims that
Taylor held that 1) the duty cannot be the duty owed
by all citizens to one another or that a stranger may
owe a minor child, and 2) the duty must arise from contractual obligation, settled principles of tort or family
law, or from other legal sources. Id. at 41. However, this
is an inaccurate statement of the law: Taylor does not
support Appellant’s claims.
In Taylor, a father drove drunk with his minor
daughter and her friend in the car. Id. at 1229. Later
that night, still drunk, he took both girls to a motel
room, where he made sexual advances towards them
and choked them. Id. The panel examined the relevant
law regarding the duty of care, examining the Model
Penal Code and noting that such a duty need not be
stated in the code, but may arise from contractual obligations, settled principals of tort or family law, or
other legal sources. Id. at 1230-31 (emphasis added).
Further, the court reiterated that the “common sense
of the community, as well as the sense of decency,

137a
propriety and the morality which most people entertain is sufﬁcient to apply the statute to each particular
case, and to individuate what particular conduct is
rendered criminal by it.” Id. at 1231.
Ultimately, this Court found that the evidence was
sufﬁcient to permit a jury to ﬁnd that the defendant
had violated a duty owed to children in his custody. Id.
at 1231. However, the panel granted the defendant a
new trial because the court had permitted a conviction
based on a theory of criminal liability which had never
been alleged by the Commonwealth or substantiated
by proof. Id. at 1231-32. Accordingly, Taylor did not
hold that the duty must arise from the enumerated
sources, but merely noted that the duty may arise from
those sources, and “others.” Id. at 1230-31. Additionally, I ﬁnd it of import to note that the court reiterated
the common sense of the community is sufﬁcient to apply the statute to individual cases. Id.
Other statutes are helpful in examining whether
a duty was owed. In our view, the duty in the instant
case is comparable to that imposed by the statutory
provisions criminalizing the failure to report child
abuse. As noted, supra, the Commonwealth’s contention is that Appellant’s failure to report the sexual
abuse of children on his campus to the police or the
Department of Welfare was a violation of his duty of
care. The Domestic Relations Code provides that a
school employee must report suspected child abuse if
the person has reasonable cause to suspect that a child
is a victim of child abuse. See 23 Pa.C.S. § 6311(a). The
statute penalizes the failure to report suspected child

138a
abuse or make a referral to the appropriate authorities
if the person or ofﬁcial willfully fails to do so. See 23
Pa.C.S. § 6319. Further, the offense is graded as a felony where the person or ofﬁcial 1) willfully fails to report, or 2) has direct knowledge of the nature of the
abuse. Id. Additionally, any person is encouraged to report suspected child abuse if that person has reasonable cause to suspect that a child is a victim of child
abuse. See 23 Pa.C.S. § 6312 (emphasis added). The
statute imposes an afﬁrmative duty to report such
cases on mandated reporters, and encourages the afﬁrmative duty in cases of those who are not mandated
reporters. It punishes the lack of action or willful failure to report in those who are mandated reporters.
Here, the common sense of the community and an
individual sense of decency and morality would compel
any reasonable person, but particularly a school ofﬁcial, to recognize and accept an afﬁrmative duty, in a
case of credible allegations of child abuse, to report the
incident to the Department of Welfare or the police.
This, Appellant did not do. Accordingly, he violated a
duty of care owed to the child victim in the 2001 incident.
Equally instructive in failure to report cases is
that criminal liability for this failure to report is also
subject to a statute of limitations. Like the statute for
EWOC, failure to report is subject to a two-year statute
of limitations. See 42 Pa.C.S. § 5552. Unlike EWOC,
however, there is no course of conduct exception, meaning that the discreet incident of failure to report does
not continue beyond the period provided by the statute.

139a
Indeed, Appellant was charged with the failure to report suspected child abuse under this statute, but this
charge was dismissed as it was beyond the statute of
limitations.
With these principles in mind, I must determine
whether Appellant’s violation of his duty of care was
actionable outside of the two-year period and whether
the Commonwealth could legally bring such an action
based upon the course-of-conduct exception. In Popow,
this Court held that the logical interpretation of the
statutory language of 18 Pa.C.S. § 4304(b) is “that it is
designed to punish a parent who over days, weeks, or
months, abuses his children, such as repeatedly beating them or depriving them of food . . . the statute was
clearly not designed for an event that occurs within
minutes, or, perhaps in a given case, even hours.” Id. at
17. Since deciding that case, our Court has further
noted that it is multiple acts, not the duration of time
between the acts which is the operative concern. Commonwealth v. Kelly, 102 A.3d 1025, 1030-31 (Pa. Super. 2014).
The Commonwealth, on the other hand, employs a
rather tortured argument to suggest that Appellant’s
inaction was a continuing course of conduct and that
his “one action” created an ongoing danger to any child
brought onto the campus or encountered by Sandusky.
The sole authority cited in support of its contention is
Commonwealth v. Stitt, 947 A.2d 195 (Pa. Super.
2008).

140a
In Stitt, a convicted sex offender was charged
with failure to register pursuant to 42 Pa.C.S.
§ 9795.2(a)(2)(i). Id. at 196. This crime also carried a
two-year statute of limitations. Id. at 197. Stitt argued
that the Commonwealth had two years from the date
of the crime – his failure to register his change of residence on July 14, 2002 – to ﬁle a criminal information.
Id. Thus, according to the appellant, the Commonwealth should have commenced prosecution by July
2004. Id. However, the Commonwealth did not ﬁle its
information until May 18, 2005, almost a year later. Id.
Our Court rejected the argument, ﬁnding that the
course of conduct exception applied, because
[w]hile compliance with this statute is accomplished with the discrete act of appearing
at the proper place and informing the proper
authorities of one’s residence, the failure to
register represents the ongoing act of preventing the purpose of registration. Thus, it
would be the termination of failing to register
that triggers the running of the statute of
limitations.
If Stitt had registered with the authorities in
September, 2002—two months late—the
Commonwealth would have had until September, 2004 to prosecute him for the late registration. But Stitt did not register tardily,
thus triggering the running of the statute of
limitations. Stitt did not register at all—his
absolute failure to register represents the
ongoing violation of section 9795.2. Thus, the

141a
statute of limitations did not begin to run
and so could not have been violated.
Stitt, 947 A.2d at 197-98.
The sex offender statute places an afﬁrmative
duty to register upon the defendant, and the termination of that crime – either by arrest, or by late registration – triggers the statute. Id. The failure to register
is in itself the crime, and that crime continues until the
action is ended. Id. In the instant case, however, there
is no such ongoing obligation enshrined in the statute.
A defendant endangers the welfare of a child by violating a duty of care, protection, or support, and unless
there is a course of conduct or some other exception
applicable, the statutory period ends at two years. See
18 Pa.C.S. § 4304(a)(1); 42 Pa.C.S. § 5552(a).
Here, the actions alleged as a violation are that
Appellant, Curley and Schultz, entered into an agreement not to report the 2001 incident to the police or
DHS, in exchange for Sandusky’s promise to stay out
of campus facilities and not to bring children into the
facilities. As noted above, case law deﬁning a course of
conduct notes that the logical interpretation of the legislative language is that it should punish continuing
conduct of multiple instances of abuse. Popow, 844
A.2d at 17. Similarly, parents who withheld critical
medical services due to their religious beliefs engaged
in a course of conduct where 1) their pattern of inaction
led to the death of their son and 2) they were aware
that the child was in circumstances threatening his
life, and their “lame and meager” actions could not

142a
have been expected to protect his welfare. See Commonwealth v. Foster, 764 A.2d 1076, 1081-83 (Pa. Super. 2000).
Here, once Appellant agreed to the plan, while he
may have violated his duty of care, his involvement
ended with his February 27, 2001 email, agreeing to
the revised plan not to report Sandusky to DPW. The
Commonwealth has introduced no additional evidence
to show that Appellant was aware of any incidents involving Sandusky after 2001 nor his active involvement in any further actions involving Sandusky.
Accordingly, the course of conduct exception is inapplicable as a matter of law, where Appellant endangered
the welfare of a child by failing to report suspected
child abuse, and where the charges were not brought
within the statute of limitations.
Finally, Appellant takes issue with the manner in
which the trial court applied the statute of limitations.
In its Pa.R.A.P. 1925(a) opinion, the trial court noted
that the legislature had amended the statute of limitations relating to sexual offenses against children, including EWOC. See TCO at 9-10 (citing in support 42
Pa.C.S. § 5552(c)(3)). For such crimes, the statute of
limitations begins “up to the later of the period of limitation provided by law after the minor has reached 18
years of age or the date the minor reaches 50 years of
age.” See 42 Pa.C.S. § 5552(c)(3).4 The trial court noted
4

At the time of the offense, 42 Pa.C.S. § 5552(c)(3) provided
that for a sexual offense against a minor, prosecution could be
commenced within two years after the victim’s eighteenth birthday. 1990 Pa. Laws 1341, No. 208, § 1. The statute was amended

143a
that the child victim in the 2001 incident was ten to
twelve years old; thus, the statute would run in approximately 2039. Id. at 10. Appellant asserts that reliance on this section of the statute was procedurally
improper where this provision was never raised before
or at trial. Id. at 32 (citing in support Commonwealth
v. Bethlehem, 570 A.2d 563, 565-67 (Pa. Super. 1989)
(noting that a post-verdict basis for applying an exception is unsustainable, where the facts of the case did
not permit application of the tolling provisions in the
ﬁrst instance), abrogated on other grounds by Commonwealth v. Gerstner, 656 A.2d 108 (Pa. 1995)).
I reject the trial court’s reliance upon this section.
Moreover, I ﬁnd the Majority’s attempt to rationalize
this belated reliance unpersuasive. As I will explain,
infra, the Commonwealth’s failure to invoke the exception violated the due process requirements of notice.
Historically, where the Commonwealth sought to
toll the statute, it was required to allege the exception
to the statute in the indictment itself. See Commonwealth v. Bender, 380 A.2d 868, 870 (Pa. Super. 1977)
(reversing judgment of sentence and discharging
January 29, 2007. See 42 Pa.C.S. § 5552(c)(3). Where a limitation
period has begun to run before the statute repealing the statute
takes effect, the time which is already run is deemed part of the
time prescribed by the limitation. See 1 Pa.C.S. § 1975; Commonwealth v. Riding, 68 A.3d 990, 994-96 (Pa. Super. 2013).
Thus, the court contends that the prosecution was timely commenced because the amendment to the statute took place prior to
the victim’s eighteenth birthday. See TCO at 9-10. Regardless,
based upon our analysis infra, the timing of the ﬁling is of no moment.

144a
defendant where the indictment did not notify defendant that Commonwealth sought to toll the statute of
limitations). The Commonwealth must “apprise the defendant that he must defend not only against the crime
itself but also against the limitation of prosecution.”
Commonwealth v. Cody, 156 A.2d 620, 623 (Pa. Super. 1959). Cody also provides further guidance as to
the reasoning behind this holding:
[The defendant] should be informed before
trial why the statute of limitation has no application. The opportunity to prepare a defense against such allegation should be given
to the same extent as the opportunity to defend against the accusation of crime itself.
Were it otherwise, no attack, preliminary to
trial, could ever be made on this ground, and
if made during or subsequent to trial, an accused would be faced with the well-established
rule that an attack on an indictment will not
be considered after a plea is entered and the
jury is sworn.
Cody, 156 A.2d at 623 (emphasis added) (citing, inter
alia, Blackman v. Commonwealth, 17 A. 194 (Pa.
1889)). Thus, proper notice was deemed essential because it informs a defendant not only of the facts alleged but also a speciﬁc reason why, despite a delay in
prosecution, such prosecution may nonetheless commence. Id. at 623. Absent such notice, a defendant suffers prejudice. Id.
In one of the seminal cases discussing this issue,
the Pennsylvania Supreme Court’s conception of

145a
prejudice evolved. According to the Court, the Commonwealth was not required to include any notice of
tolling or exceptions to the statute of limitations in the
criminal information; rather, any pretrial notice was
sufﬁcient. See Commonwealth v. Stockard, 413 A.2d
1088, 1092 (Pa. 1980).
In Stockard, the defendant was charged with and
convicted of ﬁve counts of theft by failure to make required disposition of funds received, 18 Pa.C.S. § 3927,
and ﬁve counts of violating Section 1-401(b) of the
Pennsylvania Securities Act of 1972, 70 P.S. § 1-401(b).
Stockard, 413 A.2d at 1089. Prior to trial, the defendant ﬁled a motion to dismiss the criminal complaint
with respect to the Section 3927 charges, averring that
the two-year statute of limitations had expired prior to
the time prosecution commenced and because the
Commonwealth did not inform him in the indictment
that it would seek to toll the statute.5 Id. at 1092.
Ultimately, the Court concluded that the statute
had been tolled within the limitations period, and because the Commonwealth informed the defendant of
its intent to toll the statute in the answer to the motion
to dismiss the complaint, the due process requirements
of notice were satisﬁed. See Stockard, 413 A.2d at
1092-93. Since Stockard, as I will discuss infra, our
5

At the time of the defendant’s arrest, the Crimes Code provided that “[t]he period of limitation does not run . . . during the
time when the accused is continuously absent from this Commonwealth or has no reasonably ascertainable place of abode or work
within this Commonwealth.” 18 Pa.C.S. 108(f ) (1973); see also
Stockard, 413 A.2d at 1092.

146a
Courts have used the concept of “tolling” the statute in
reference to both the speciﬁc section regarding tolling
cited in Stockard – now enshrined at 42 Pa.C.S.
§ 5554 – as well as to other codiﬁed exceptions to the
statute of limitations.
In conclusion, although Stockard relaxed the requirements of due process, granting the Commonwealth greater ﬂexibility in the timing of its notice to
a defendant of its intention to toll the statute of limitations, the Court reafﬁrmed the ancient rule that allegations of fact alone did not provide a defendant with
an opportunity to challenge the tolling of, or some
other exception to, the statute of limitations. Id.; see
also Cody, 156 A.2d at 623; Blackman, 17 A. at 194.
Subsequent case law has consistently applied this
standard. In Commonwealth v. Bidner, 422 A.2d
847, 849-50 (Pa. Super. 1980) superseded by statute as
recognized by Commonwealth v. Nypaver, 69 A.3d
708, 713-14 (Pa. Super. 2013), the defendant was
charged with entering a false address on a Voter’s Registration Afﬁdavit. See Bidner, 422 A.2d at 853. The
trial court found that the information had not been
brought within the statute of limitations and dismissed the charges. Id. Although the Commonwealth
did not inform the defendant that it would seek to apply the exception, it speciﬁcally averred in the information that the crime contained a material element,
fraud, which constituted an exemption from the limitations period under the applicable statutes. Id. at
854-55. Thus, this Court found that the information
was not fatally defective and reversed. Id.

147a
In contrast to Bidner, in Commonwealth v.
Eackles, the defendant was convicted of multiple
counts of forgery, theft by unlawful taking, and conspiracy. See Commonwealth v. Eackles, 428 A.2d 614,
616 (Pa. Super. 1981). The question in this case was
whether fraud was a material element of theft by unlawful taking, such that the Commonwealth could
“toll” the statute of limitations using the fraud exception then codiﬁed at 18 Pa.C.S. § 108(c)(1).6 Id. at 618.
The panel concluded that fraud was not a material element of theft by unlawful taking. Id. The panel also,
citing Stockard, noted that “where the Commonwealth seeks to toll the statute under this section” with
an exception, it must inform the defendant of said intention within a reasonable time so the defendant may
defend against it. Id. Thus, because the information
did not allege that the theft was accompanied by fraud
or that fraud was a material element to the theft, the
Commonwealth could not later rely upon this exception to commence prosecution. Id.
In Commonwealth v. Cruz, the defendant was
charged with escape for failing to return to prison after
6

The fraud exception may now be found, with nearly identical wording, at 42 Pa.C.S. § 5552(c)(1). At the time, 18 Pa.C.S.
§ 108(c)(1) provided that a prosecution could be commenced beyond the expiration of the statute of limitations where “any offense a material element of which is . . . fraud . . . within one year
after discovery of the offense by an aggrieved party or by a person
who has legal duty to represent an aggrieved party and who is
himself not a party to the offense, but in no case shall this paragraph extend the period of limitation otherwise applicable by
more than three years.” Eackles, 428 A.2d at 618.

148a
his furlough and for absconding to Puerto Rico and
then Chicago. See Commonwealth v. Cruz, 512 A.2d
1270, 1270-71 (Pa. Super. 1986). The applicable statute
of limitations was two years. Id. The majority, citing
Stockard, concluded that because the facts were received in the arrest warrant afﬁdavit, and because the
defendant was aware of the alleged facts, he was not
prejudiced. Cruz, 512 A.2d at 1272. However, the majority noted further, despite this implicit notiﬁcation,
that the defendant had waived any challenge to the legitimacy of the information by failing to raise the limitation issue pre-trial. Id.
The Cruz dissent is instructive, noting speciﬁcally
that the majority found waiver and suggests, therefore,
that any further substantive analysis is dicta. Cruz,
512 A.2d at 1272-73 (ﬁnding factual notice insufﬁcient
because defense counsel does not routinely receive the
afﬁdavit submitted in a request for an arrest warrant).7
In Commonwealth v. Bethlehem, the defendant
was convicted of rape, statutory rape, and involuntary
7

The dissent offered its own analysis of Stockard, ﬁnding
that the case requires
more than simply that a defendant be aware of the
facts on which the Commonwealth might base an allegation; it holds that due process requires pre-trial notice that the Commonwealth will allege the exception.
Without that speciﬁc notice, in a document which the
defendant will receive, the defendant is denied his due
process right to an opportunity to defend against the
allegation.
Cruz, 512 A.2d at 1273.

149a
deviate sexual intercourse as a result of the sexual
abuse of his niece. See Commonwealth v. Bethlehem,
570 A.2d 563, 564 (Pa. Super. 1989), abrogated on other
grounds by Commonwealth v. Gerstner, 656 A.2d
108 (Pa. 1995). Prior to trial, the defendant sought to
dismiss the charges. Id. At that time, the Commonwealth did not raise an applicable statutory exception;
its sole argument was that “time elements were not
controlling in cases involving minors,” relying upon an
unpublished decision of this Court. Id. at 564-65. Instead, the trial court accepted the Commonwealth’s
post-verdict assertion that 42 Pa. C.S. § 5554(3) applied to toll the limitations period. Id. at 565.
Our Court reversed for two reasons. First, it noted
that the law “requires that any allegation that the running of a statute of limitations period was tolled by an
applicable statutory exception must be made in the
complaint itself, or at the latest, a reasonable time before trial.” Bethlehem, 570 A.2d at 565 (citing in support Cruz, supra, and Eackles, supra) (emphasis
added). There was no pretrial notice, either actual or
constructive, that the Commonwealth sought to apply
an exception to the statute. Id. Second, the post-verdict
basis was unsustainable on the merits. Id. at 565-66
(concluding that “person responsible for the child’s welfare,” as used in statute tolling limitations period, was
not synonymous with the legal term in loco parentis).
Essentially, the Commonwealth’s reliance upon an
erroneous statement of law did not give the defendant
sufﬁcient notice that the Commonwealth sought to

150a
evade the statute of limitations with an enumerated
exception. Id.
In Commonwealth v. Morrow, the defendant
was charged with indecent assault of a victim under
the age of eighteen. See Commonwealth v. Morrow,
682 A.2d 347, 348 (Pa. Super. 1996). In an omnibus pretrial motion, the defendant sought to dismiss the
charges as being beyond the applicable statute of limitations. Id. At a hearing on the motion, the Commonwealth notiﬁed the defendant in writing of its intent to
toll the statute under 42 Pa.C.S. § 5554(3).8 The trial
court rejected this argument and dismissed the
charges. On appeal, the Commonwealth argued that
the court erred in dismissing the charges because under 42 Pa.C.S. § 5552(c)(3), the charges were exempt
from the limitations period. Id.
Citing favorably to Stockard, Bidner, and Cruz,
the panel held that the defendant was on notice that a
statutory exception applied, where the complaint speciﬁcally averred that the victim was under fourteen
years of age. Id. at 349. Further, the Commonwealth
had satisﬁed due process by informing the defendant
of its intent to toll the statute with its response to
8

“Except as provided by section 5553(e) (relating to disposition of proceedings within two years), the period of limitation does
not run during any time when . . . a child is under 18 years of age,
where the crime involves injuries to the person of the child caused
by the wrongful act, or neglect, or unlawful violence, or negligence
of the child’s parents or by a person responsible for the child’s
welfare, or any individual residing in the same home as the child,
or a paramour of the child’s parent.” See 42 Pa.C.S. § 5554(3).

151a
the defendant’s pretrial motion to dismiss. Id. Again,
Morrow emphasizes that factual notice is required,
but this requirement is distinct from the equally important notice that an exception to the normal running
of the statute of limitations is applicable. See Morrow,
supra.
In Commonwealth v. Russell, 938 A.2d 1082
(Pa. Super. 2007), the defendant was charged with second degree murder and several other felonies perpetrated in connection with the murder. Russell, 938
A.2d at 1087-89. All of the non-murder crimes were beyond their respective statutes of limitations, but the
Commonwealth commenced prosecution based upon
the “any felony alleged to have been perpetrated in
connection with a murder” exception. Id.; see also 42
Pa.C.S. § 5551(4). Ultimately, the defendant was acquitted of the murder but convicted of several other
crimes, including arson endangering persons, arson
endangering property, risking a catastrophe, and cruelty to animals. Id.
On appeal, the defendant argued that to toll the
statute of limitations, the Commonwealth must state
in the criminal information the exception to the statute of limitations on which it relied. Russell, 938 A.2d
at 1088. The defendant argued that because the Commonwealth had relied upon 42 Pa.C.S. § 5551(4) (no
limitations applicable for any felony alleged to have
been perpetrated with murder of ﬁrst or second degree), and the jury had acquitted her of murder, her
conviction for arson could not stand, as it was commenced beyond the statute of limitations. Russell, 938

152a
A.2d at 1088. The panel held that, pursuant to Stockard, the Commonwealth satisﬁed its notice requirement where it apprised the defendant of its intent to
rely upon 42 Pa.C.S. § 5551(4) to bypass the statute of
limitations at a reasonable time prior to trial, in this
case, at the hearing to resolve the defendant’s motion
to dismiss. Id. Thus, as the defendant was expressly
aware of the Commonwealth’s intention to rely on the
exception, the defendant incurred no prejudice. Id.
As this line of cases makes clear, the law remains
well settled. Essentially, provided the defendant, at
some reasonable time prior to trial is apprised that the
Commonwealth will seek to toll the statute, the due
process requirements of notice are met. See Stockard,
413 A.2d at 1092; Cruz, 512 A.2d at 1272-73; Morrow,
682 A.2d at 349; Russell, 938 A.2d at 1088; Cody, 156
A.2d at 623. The notice itself, and accordingly the opportunity to defend, is the operative and most important aspect: this is the due process concern that
must be satisﬁed. Id.
The Majority contends that, pursuant to Morrow
and Commonwealth v. Houck, 102 A.3d 443, 449-50
(Pa. Super. 2014) (noting that a defendant may be convicted of a crime not actually charged when the uncharged offense is a lesser-included offense; he will
have been put on notice of the charges against him),
the Appellant was constructively aware of the applicable statutory provision, as there was testimony that
the victim was ten to twelve years old. This argument
falls ﬂat in the face of the Commonwealth’s continued
reliance upon the course of conduct exception, which I

153a
have rejected supra. As noted in Bethlehem, “there is
a fundamental difference between knowledge of the existence of a statutory provision and receipt of notice
that the prosecution will seek application of a given
provision in a particular case with sufﬁcient time prior
to trial to prepare to challenge application of the provision.” Bethlehem, 570 A.2d at 565 n.1; see also
Stockard, 413 A.2d at 1092; Cody, 156 A.2d at 623.
Here, similarly, Appellant prepared his defense in
response to the Commonwealth’s express reliance
upon the course of conduct exception. See, e.g., Cruz,
512 A.2d at 1272-73; see also Morrow, 682 A.2d at
349. Appellant was unsuccessful in this challenge before the trial court, and the matter proceeded to trial.
Unlike the situation in Morrow, the Commonwealth
did not notify Appellant of its intention to toll the statute here, based upon its assertion that the course of
conduct exception applied. See Morrow, 682 A.2d at
349. In fact, it did not inform Appellant of its intention
at all.9 Absent proper pretrial notice, the requirements
of due process were not met.
Accordingly, I cannot accept the trial court’s assertion that 42 Pa.C.S. § 5552(c)(3) operates to extend the
statute of limitations or any reliance by the Commonwealth upon this provision. The ﬁrst instance of reliance upon this statute was in the court’s 1925(a)
opinion. As it was not raised prior to trial by the Commonwealth and Appellant did not have the opportunity
9

I note that, in its brief, the Commonwealth declines even to
address its failure to properly notify Appellant at all. See Commonwealth’s Brief at 13-20.

154a
to defend himself against it, I am constrained to ﬁnd
that Section 5552(c)(3) does not operate to extend the
statute of limitations.10 See Morrow, 682 A.2d at 349;
Stockard, 413 A.2d at 1092.
The Commonwealth supplies no additional authority to support its contention that we should expand
the EWOC statute of limitations in such a manner, and
I can ﬁnd none.11 Accordingly, based on the above, I
cannot agree that the course of conduct or the sexual
offenses against minors exceptions toll the statute in
this case, and I would reverse Appellant’s conviction
and vacate his judgment of sentence. Thus, I dissent.
Judgment Entered.
/s/ Joseph D. Seletyn
Joseph D. Seletyn, Esq.
Prothonotary
Date: 6/26/2018
10

I note with disfavor the lackadaisical manner in which the
Commonwealth brought this case to trial and in not preserving
all potential exceptions to the statute, if appropriate. As Appellant notes in his brief, the Commonwealth did not prove that the
child in the shower was underage. See Appellant’s Brief at 37-38.
I note, with equal disapproval, that it was Appellant’s own inaction that prevented the Commonwealth from proving anything
about the child’s identity or age.
11
There is nothing in the current statute or case law that permits a finding of course of conduct based upon inaction. This may
be an issue for the legislature to address in the future, but as noted
supra, this Court is constrained by the current state of the law.

155a
COMMONWEALTH
OF PENNSYLVANIA

: IN THE COURT OF
: COMMON PLEAS
: DAUPHIN COUNTY,
: PENNSYLVANIA
:
NO.
vs.
:
CP-22-CR-0003615-2013
:
: CHARGE(S): Endangering
: the Welfare of Children
GRAHAM BASIL SPANIER : (2); Conspiracy
TRIAL COURT OPINION
This appeal follows the denial of a post-sentence
motion by Order of July 5, 2017. For the reasons set
forth herein, the judgment should be afﬁrmed.
PROCEDURAL HISTORY
On November 1, 2012, the Commonwealth charged
Graham Basil Spanier (“Defendant”) with one count of
Perjury, 18 PA.C.S. § 4902; two counts of Endangering
the Welfare of Children, 18 Pa.C.S. § 4304; one count of
Obstructing the Administration of Law or Other Governmental Function, 18 Pa.C.S. § 6319; three counts of
Criminal Conspiracy, 18 Pa.C.S. § 903; and one count
of Failure to Report Suspected Child Abuse, 23 Pa.C.S.
§ 6319. In September 2013, the Commonwealth consolidated the three Conspiracy counts into a single
Conspiracy count. On January 22, 2016, the Superior
Court of Pennsylvania issued a decision, dismissing
the Perjury, Obstruction, and Conspiracy charges against
Defendant. Following remand to this Court, Defendant

156a
filed both an Omnibus Pre-Trial Motion and a Habeas Petition requesting dismissal of the remaining
Failure-to-Report and Child-Endangerment charges.
On February 1, 2017, this Court dismissed the Failureto-Report charge as time-barred, but we denied Defendant’s request to dismiss the Child-Endangerment
charges. Subsequently, the Commonwealth requested
that this Court reinstate the previously-dismissed
Conspiracy charge against Defendant, and on February 23, 2017, we granted the Commonwealth’s request
and reinstated the Conspiracy charge.
At a jury trial held from March 20, 2017 through
March 24, 2017, Defendant was tried on the three
charges remaining: Count 1, Endangering the Welfare
of Children (Violating a Duty of Care, Protection or
Support); Count 2, Endangering the Welfare of Children (in an Ofﬁcial Capacity, Preventing or Interfering
with the Making of a Report of Suspected Child Abuse);
and Count 3, Conspiracy (to Commit Endangering the
Welfare of Children). On March 24, 2017, the jury
found Defendant guilty on Count 1 and not guilty on
Counts 2 and 3. Furthermore, the jury found that Defendant had not engaged in a course of conduct with
respect to Count 1.
On June 2, 2017, Defendant was sentenced to four
(4) to twelve (12) months incarceration. Defendant
ﬁled a Post-Sentence Motion on June 8, 2017, and on
July 5, 2017, this Court issued an Order denying Defendant’s Post-Sentence Motion. Defendant ﬁled a Notice of Appeal on July 6, 2017, and, thereafter, on July

157a
17, 2017, Defendant ﬁled a timely Concise Statement
of Matters Complained of on Appeal.
FACTUAL BACKGROUND
Defendant served as President of the Pennsylvania State University (“PSU”) from 1995 through 2011.
During Defendant’s tenure as PSU’s President, various
individuals associated with PSU became apprised of a
series of incidents in which Jerry Sandusky, a former
PSU employee, had allegedly engaged in inappropriate
conduct with young boys on PSU’s main campus. Defendant’s conviction pertains to the manner in which
he responded to the information he received related to
incidents involving Sandusky.
On or about May 4, 1998, Ronald Schrefﬂer
(“Schrefﬂer”), a Detective for the PSU Police Department, received a call from a mother of an 11-year-old
boy, expressing concern that a man had taken a shower
with the 11-year-old at a football facility at PSU called
the Lasch Building. (Transcript of Proceedings, Jury
Trial, p. 46, hereinafter, “N.T. Jury Trial”). The man
was later identiﬁed as Sandusky, then-Defensive Coordinator for PSU’s football team, and the 11-year-old
was identiﬁed as a participant in The Second Mile
(“TSM”), an organization for troubled youth that was
founded by Sandusky. (N.T. Jury Trial, pp. 46-47). During an interview later in the same day, it was revealed
that while the two were in the shower together,
Sandusky had hugged the boy and held the boy up
by his legs. (N.T. Jury Trial, p. 48). Based on the

158a
information conveyed to Schrefﬂer on May 4, 1998, he
believed that an investigation was warranted, and he
contacted Centre County Children and Youth Services
(“CCYS”), the Centre County District Attorney’s Ofﬁce
(“CCDA”), and Tom Harmon (“Harmon”), PSU Chief of
Police. (N.T. Jury Trial, pp. 49-52). Ultimately, the case
was referred to the Pennsylvania Department of Public Welfare (“DPW”) because of a conﬂict between
CCYS and TSM. (N.T. Jury Trial, p. 53).
Harmon apprised PSU’s then-Vice President for
Finance and Business, Gary Schultz (“Schultz”), of the
May 4, 1998 incident with Sandusky, and Schultz, in
turn, informed Tim Curley (“Curley”), who was PSU’s
Athletic Director at the time.1 (N.T. Jury Trial, p. 342;
pp. 411-416). Based on his communication with Harmon, Schultz understood that Sandusky had bearhugged the 11-year-old boy, naked, in the shower and
that Sandusky had lifted the boy up to the shower head
to rinse soap out of his ears. (N.T. Jury Trial, p. 412; p.
414). Schultz learned from Harmon that the PSU Police Department was conducting an investigation into
the incident and that the DPW, the CCDA, and the
State College Police were all involved in the investigation. (N.T. Jury Trial, pp. 419-420). Throughout the
course of the investigation, Schultz and Curley repeatedly corresponded with each other via email regarding
the investigation, and in at least some of his emails to
Curley, Schultz included Defendant as a carbon-copy
1

In the positions that they held at the time, Schultz and
Curley both reported directly to Defendant. (N.T. Jury Trial, p.
340; pp. 416-417).

159a
(“cc”) recipient. (N.T. Jury Trial, pp. 416-417; pp. 420425). In June 1998, the investigation ceased, and Harmon informed Schultz that no charges would be ﬁled
against Sandusky, as no concrete evidence of criminal
behavior was found. (N.T. Jury Trial, pp. 89-91; pp. 426427). Although no charges were ﬁled, both Schultz and
Harmon were uncomfortable with Sandusky bringing
children into campus showers, and they both hoped
that Sandusky had “learned his lesson” from the investigation. (N.T. Jury Trial, p. 427). According to Schultz,
Defendant was apprised of the May 4, 1998 incident
when Schultz ﬁrst learned of it and also when Schultz
learned of the outcome of the investigation. (N.T. Jury
Trial, p. 425).
A few years later, at around 8:00 or 8:30 p.m. on
the evening of Friday, February 9, 2001, Michael
McQueary (“McQueary”), then a graduate assistant
with PSU’s football team, walked into the Lasch Building to place his shoes into his locker. (N.T. Jury Trial,
p. 105). According to McQueary, one would need a key
to get into the Lasch Building at that time of night.
(N.T. Jury Trial, p. 106). While in the Lasch Building,
McQueary heard rhythmic slapping sounds, and he observed Sandusky and a young boy, approximately 10 to
12 years old, naked in a shower. (N.T. Jury Trial, pp.
105-108; p. 141). According to McQueary, at one point,
Sandusky’s stomach was rubbing against the young
boy’s back. (N.T. Jury Trial, p. 108). Uncertain of what
he should do, McQueary immediately informed his father and his father’s friend about the incident on the
night it occurred, and on the morning of Saturday,

160a
February 10, 2001, McQueary informed head football
coach Joe Paterno (“Paterno”) about the incident. (N.T.
Jury Trial, pp. 110-116). On Sunday, February 11, 2001,
Curley went to Paterno’s residence, at Paterno’s request, and Paterno conveyed to Curley that McQueary
had observed Sandusky in the shower with a child and
that the incident bothered McQueary. (N.T. Jury Trial,
pp. 356-357; p. 428). Schultz then was also apprised of
the incident that had been observed by McQueary2; according to Schultz’s recollection, Curley told him that
McQueary was either “disturbed” by or “uncomfortable” with what he had seen in the shower. (N.T. Jury
Trial, p. 428).
On Monday, February 12, 2001, Curley and
Schultz attended a routine “president’s council meeting”, a meeting held weekly in which a group of approximately eight to twenty people, including the President
of PSU (i.e. Defendant) and the University’s senior
management staff “ke[pt] each other informed.” (N.T.
Jury Trial, p. 360; p. 429). Immediately after the president’s council meeting, Curley and Schultz had a separate meeting (“the private meeting”) with Defendant
and discussed the incident that had been observed by
2

Curley and Schultz have differing recollections of how
Schultz was apprised of the February 9, 2001 shower incident.
Curley testiﬁed that both he and Schultz met at Paterno’s house
on February 11, 2001, and Paterno apprised them both of the incident. (N.T. Jury Trial, pp. 356-357). Schultz, on the other hand,
testiﬁed that he never met with Paterno regarding the incident
and that he was apprised of the incident by telephone when
Curley called him on February 11, 2001. (N.T. Jury Trial, pp. 428430).

161a
McQueary. (N.T. Jury Trial, pp. 361-362; p. 430). At the
private meeting, Curley, Schultz, and Defendant discussed the May 1998 incident, an incident which Defendant recalled, according to Schultz, and the three
devised a plan as to how to handle the incident that
had been observed by McQueary. (N.T. Jury Trial, pp.
432-433). The original plan (“the three-step plan”)
agreed upon by Curley, Schultz, and Defendant at the
private meeting consisted of the following three steps:
(1) speaking with Sandusky about the appropriate use
of PSU’s facilities, (2) contacting the Chair of TSM, and
(3) contacting DPW. (N.T. Jury Trial, p. 373; pp. 444445). According to Schultz, Defendant decided that
Curley would be the one to “take the lead” and be responsible for executing the three-step plan, and Curley
was to keep Schultz “posted” as the plan progressed.
(N.T. Jury Trial, pp. 433-435). On or about Saturday,
February 17, 2001, after returning from a trip to Iowa,
Schultz met with Curley for an update as to the progression of the three-step plan; Curley conveyed to
Schultz that as of that point, no steps had yet been
taken towards executing the three-step plan. (N.T.
Jury Trial, pp. 436-437). Later, at some point during
the week of February 20, 2001, Curley and Schultz
met with McQueary to hear about the incident from
McQueary himself (N.T. Jury Trial, pp. 437-438).
McQueary testiﬁed that while he did not provide
Curley and Schultz with the exact details of what he
observed, his explanation of the incident, in essence,
conveyed to them that Sandusky’s conduct with the
boy was “over the line” and sexual in nature. (N.T. Jury
Trial, p. 132). On Sunday, February 25, 2001, Curley

162a
and Schultz met with Defendant at the Bryce Jordan
Center prior to the start of a women’s basketball game,
and they informed him that they had spoken with
McQueary to receive his account of the incident he witnessed. (N.T. Jury Trial, p. 441).
On Monday, February 26, 2001, before he left for a
trip to Florida, Schultz sent Curley an email to ensure
that he (Curley) still intended to execute the three-step
plan. (N.T. Jury Trial, pp. 444-445). On or about Tuesday, February 27, 2001, Curley drafted an email, which
was sent to both Defendant and Schultz, in which he
expressed that he was no longer comfortable with proceeding with the three-step plan. (N.T. Jury Trial, p.
447). Speciﬁcally, Curley explained in the email that he
was uncomfortable with contacting TSM and DPW and
that he preferred to only talk with Sandusky and let
him know that it would be advisable for him to seek
professional help and that his guests would no longer
be permitted to use PSU facilities. (N.T. Jury Trial,
pp. 447-448). Under Curley’s new proposed plan (the
“new plan”), if Sandusky showed signs of cooperation,
Schultz, Curley, and Defendant would “work with”
[Sandusky] to handle informing TSM; otherwise, they
would “not have a choice” but to inform both TSM and
DPW. (N.T. Jury Trial, p. 448). Via email, Defendant responded to Curley’s new plan as follows:
This approach is acceptable to me. It requires
you to go a step further and means that your
conversation will be all the more difﬁcult, but
I admire your willingness to do that and I am
supportive. The only downside for us is if the

163a
message isn’t heard and acted upon and then
we become vulnerable for not having reported
it. But that can be assessed down the road.
The approach you outline is humane and a
reasonable way to proceed.
Id. In his own email response, Schultz also expressed
general acquiescence with the new plan, but he stated
his desire that TSM be informed regardless of whether
Sandusky showed signs of cooperation. (N.T. Jury
Trial, p. 449). As to whether DPW should be informed,
Schultz stated in his email response that they could
“play it by ear.” Id.
The weekend after the new plan was agreed upon
via email, Curley met with Sandusky and discussed
with him what MeQueary had observed in the Lasch
Building on February 9, 2001. (N.T. Jury Trial, p. 387).
Although Sandusky denied doing what McQueary
claimed to have seen, Curley still told Sandusky that
he could no longer bring children into campus athletic facilities and that he intended to inform TSM.
(N.T. Jury Trial, p. 388). Shortly after meeting with
Sandusky, Curley discussed the matter with TSM’s Director, Jack Raykovitz (“Raykovitz”). Curley informed
Raykovitz that the February 9, 2001 incident had been
the second reported incident involving Sandusky and
a child in the shower and that because of this, he
(Curley) told Sandusky that he would longer be permitted to bring children into PSU’s athletic facilities.
(N.T. Jury Trial, pp. 391-392). Curley left his meeting
with Raykovitz with the impression that Raykovitz
would re-enforce the directive on Sandusky’s use of the

164a
athletic facilities, but Curley did not provide Raykovitz
with any speciﬁc direction on how to enforce the directive. (N.T. Jury Trial, p. 392). Curley never spoke
with Raykovitz again regarding Jerry Sandusky. (N.T.
Jury Trial pp. 392-393). After speaking with Sandusky
and Raykovitz, Curley informed Defendant, Schulz,
and Pateno that he “took care of what [he] was supposed to do and everything was okay.” (N.T. Jury Trial,
pp. 393-394). Curley never contacted DPW, Children
and Youth Services, or the Police regarding the 2001
incident, nor did he direct anyone else to do so. (N.T.
Jury Trial, pp. 393-395).
Even though the new plan involved a “rule” that
Sandusky could no longer bring children into PSU athletic facilities, Curley did not inform campus police of
this rule, and he did not request the assistance of campus police, athletic department members, or anyone
else to enforce this rule. (N.T. Jury Trial, pp. 395-396).
Because decisions on whether to grant certain individuals access to campus athletic facilities would have
been made by Curley, since he was then PSU’s Athletic Director, Schultz assumed that pursuant to the
new plan, Curley would partake in efforts to restrict
Sandusky’s access to the campus’s athletic facilities.
(N.T. Jury Trial, pp. 456-457). Nonetheless, testimony
established that Sandusky continued to have access to
athletic facilities subsequent to the February 9, 2001
incident. In particular, McQueary testiﬁed that he observed Sandusky in the Lasch Building after hours
multiple times subsequent to the February 9, 2001

165a
incident, and this bothered McQueary. (N.T. Jury Trial,
p. 122).
Testimony presented at Defendant’s trial established
that subsequent to the 2001 incident, at least four more
young boys were sexually abused by Sandusky. (N.T.
Jury Trial, p. 332). Two post-2001 occurrences of sexual
assaults perpetuated by Sandusky were speciﬁcally
discussed through testimony at Defendant’s trial.
First, a young boy, who was referred to as John Doe,
testiﬁed that he was the victim of a sexual assault
by Sandusky that occurred in the Lasch Building’s
shower in the summer of 2002. (N.T. Jury Trial, pp. 406407). Additionally, testimony was elicited regarding a
2008 incident involving Sandusky. Around Thanksgiving of 2008, Raykovitz was informed that Clinton
County Children and Youth Services (“CCCYS”) was
investigating an claim that a sexual assault had allegedly been perpetuated by Sandusky against a TSM
participant at a school in the Central Mountain School
District. (N.T. Jury Trial, p. 204). Because of the investigation surrounding the 2008 incident, Clinton
County Children and Youth Services (“CCCYS”), which
had a partnership with TSM, temporarily suspended
its ties with TSM. (N.T. Jury Trial, p. 205). Shortly after
CCCYS suspended its ties with TSM, TSM ofﬁcials decided to ban Sandusky from having further access to
the program’s children. (N.T. Jury Trial, p. 206).
In 2011, following an investigation, Sandusky was
arrested and charged in connection with a series of
alleged child-abuse incidents involving young boys. It
was alleged that ten children in total were victimized

166a
by Sandusky, and forty-nine (49) total charges were
lodged against Sandusky, of which he was convicted of
forty-ﬁve (45). (N.T. Jury Trial, p. 330). The charges of
which Sandusky was convicted included all charges in
association with the 2008 incident and at least some
charges in association with each the 1998 and 2001 incidents. (N.T. Jury Trial, pp. 331-332). As a result of the
Sandusky sex-abuse investigation and arrest, various
individuals associated with PSU were relieved of their
duties in November of 2011, including Defendant. (N.T.
Jury Trial, p. 279).
DISCUSSION
THE STATUTE OF LIMITATIONS DOES NOT
BAR THE CHARGE OF ENDANGERING THE
WELFARE OF A CHILD (VIOLATING A DUTY
OF CARE, PROTECTION OR SUPPORT).
Defendant asserts that this Court mmmerred in
denying Defendant’s motions to dismiss or enter a
judgment of acquittal on Count 1 based upon a twoyear statute of limitations.
Generally, pursuant to 42 Pa. C.S. §5552(a), a twoyear statute of limitations governs any offense not otherwise addressed by a separate statute. However, 42
Pa. C.S. §5552(c) sets forth exceptions to this general
rule. The exception states, in relevant part:
If the period prescribed in subsection (a), (b)
or (b.1) has expired, a prosecution may nevertheless be commenced for: . . . (3) Any sexual
offense committed against a minor who is less

167a
than 18 years of age any time up to the later
of the period of limitation provided by law after the minor has reached 18 years of age or
the date the minor reaches 50 years of age. As
used in this paragraph, the term “sexual offense” means a crime under the following provisions of Title 18 (relating to crimes and
offenses): . . . Section 4304 (relating to endangering welfare of children).
42 Pa. C.S. §5552(c).
The legislature approved the statute on June 28,
2002, effective August 28, 2002, less than two years after the February 2001 incident.
Pennsylvania law provides that:
Whenever a limitation or period of time, prescribed in any statute for acquiring a right or
barring a remedy, or for any other purpose,
has begun to run before a statute repealing
such statute takes effect, and the same or any
other limitation is prescribed in any other
statute passed by the same General Assembly,
the time which has already run shall be
deemed part of the time prescribed as such
limitation in such statute passed by the same
General Assembly.
Pa. C.S. § 1975. This section was interpreted by the
Pennsylvania Superior Court as follows:
[W]hen a new period of limitations is enacted,
and the prior period of limitations has not yet
expired, in the absence of language in the
statute to the contrary, the period of time

168a
accruing under the prior statute of limitations
shall be applied to calculation of the new period of limitations.
Com. v. Riding, 68 A.3d 990, 994 (Pa. Super. Ct. 2013)
(quoting Com. v. Harvey, 542 A.2d 1029-30 (Pa. Super.
Ct. 1988)).
Based on the above law, since the time period to
bring an action for Endangering the Welfare of a Child
had not expired by the time the Exception was enacted,
and there was no language in the statute to the contrary, the new Statute of Limitations that is applicable
in this case is when the minor turns ﬁfty (50) years old.
McQueary testiﬁed that the boy that he observed in
the shower with Sandusky was approximately 10 to 12
years old. (N.T. Jury Trial, pp. 105-108; p. 141). Thus,
the Statute of Limitations on a claim for endangering
the welfare of that child and any subsequent minor
child after 2001 would be approximately the year 2039.
This case was ﬁled in 2013, well before the new Statute
of Limitations had expired. Therefore, the case was
timely ﬁled, and this Court could not dismiss Count 1
as being ﬁled outside of the Statute of Limitations.
SUFFICIENT EVIDENCE SUPPORTS THE
JURY’S VERDICT OF GUILTY OF ENDANGERING THE WELFARE OF CHILDREN (VIOLATING A DUTY OF CARE, PROTECTION OR
SUPPORT).
An appellate court, in reviewing the sufﬁciency of
the evidence, must determine “whether, accepting as

169a
true all of the Commonwealth’s evidence and all reasonable inferences arising therefrom upon which, if believed, the fact-ﬁnder could reasonably have based its
verdict, such evidence and inferences are sufﬁcient in
law to establish the elements of the crime in question
beyond a reasonable doubt.” Commonwealth v. Nelson,
523 A.2d 728, 732 (Pa. 1987) (internal citations omitted). In making this determination, a court “may not
weigh the evidence and substitute [its] judgment for
that of the fact-ﬁnder.” Commonwealth v. Cassidy, 668
A.2d 1143, 1144 (Pa. Super. Ct. 1995) (citation omitted). “[A] challenge to the sufﬁciency of the evidence
presents a pure question of law, requiring review of the
facts of record in the light most favorable to the original decision-maker or prevailing party (if applicable)
to determine whether the requisite standard of proof
has been met.” In re Vencil, 152 A.3d 235, 243 (Pa.
2017) (citations omitted). For a guilty verdict to be justiﬁed, “the facts and circumstances established by the
Commonwealth need not preclude every possibility of
innocence.” Cassidy, 668 A.2d at 1144 (citation omitted). “Any doubts regarding a defendant’s guilt may be
resolved by the fact-ﬁnder unless the evidence is so
weak and inconclusive that as a matter of law no probability of fact may be drawn from the combined circumstances.” Id. (citation omitted).
Under the Crimes Code, the Crime of Endangering
the Welfare of a Child (“EWOC”) is deﬁned, in relevant
part, as follows: “(1) A parent, guardian or other person
supervising the welfare of a child under 18 years of
age, or a person that employs or supervises such a

170a
person, commits an offense if he knowingly endangers
the welfare of the child by violating a duty of care, protection or support. 18 Pa. C.S. §4304(a)(1). “An offense
under this section constitutes a misdemeanor of the
ﬁrst degree. However, where there is a course of conduct of endangering the welfare of a child, the offense
constitutes a felony of the third degree.” 18 Pa. C.S.
§ 4304(b). In order to prove a violation of Section 4304,
there must be evidence that: 1) the accused is aware of
his duty to protect the child; 2) the accused is aware
that the child is in circumstances that threaten the
child’s physical or psychological welfare; and 3) the accused has either failed to act or has taken actions so
lame or meager that such actions cannot reasonably be
expected to be effective to protect the child’s physical
or psychological welfare. Commonwealth v. Cardwell,
515 A.2d 311, 315 (Pa. Super. Ct. 1986). Although criminal statutes are generally to be strictly construed, in
the unique case of EWOC, the statute must be construed in order to effectuate its broad purpose of protecting children from harm. Commonwealth v. Lynn,
114 A.3d 796, 818 (Pa. 2015). Speciﬁcally, the juvenile
statutes, rather than preparing a list of all illegal conduct, are “written expansively by the legislature to
cover a broad range of conduct in order to safeguard
the welfare and security of our children.” Id. (internal
quotations and citation omitted). The Pennsylvania
Supreme Court has thus observed: “The common sense
of the community, as well as the sense of decency, propriety and the morality which most people entertain is
sufﬁcient to apply the statute to each particular case,

171a
and to individuate what particular conduct is rendered
criminal by it.” Id. (citations omitted).
With respect to the EWOC’s “supervision” requirement, the Supreme Court of Pennsylvania has held
that “the requirement of supervision is not limited to
only certain forms of supervision, such as direct or actual.” Id. at 824. Rather, it encompasses all forms of
supervision of a child’s welfare. Id. (emphasis supplied).
Furthermore, “supervision is routinely accomplished
through subordinates, and is no less supervisory if it
does not involve personal encounters with the children.” Id. For example, school administrators “supervise the welfare of the children under their care
through their management of others.” Id. As such, our
Supreme Court has suggested that an administrator,
such as a school principal or day care manager, could
be held criminally liable for endangering the welfare
of the children under their supervision if they knowingly place sexually abusive employees in such proximity to them as to allow for the abuse of these youth.
Id. at 824.
Based upon the aforementioned law, the jury was
presented with sufﬁcient evidence from which it could
reasonably conclude that Defendant was a person who
had a supervisory role over the children that were sexually abused by Sandusky, albeit an indirect supervisory role; therefore, it was reasonable for the jury to
ﬁnd that Defendant owed a duty to those children. Furthermore, based upon the actions taken by Defendant,
it was reasonable for the jury to ﬁnd that Defendant
breached this duty.

172a
Even though Defendant did not supervise the victimized children directly, as would a person, say, in the
role of a teacher or coach, the jury could ﬁnd, based on
the evidence, that Defendant had an indirect supervisory role over the children. As our Supreme Court has
noted, school administrators supervise the welfare of
children through the management of others, and administrators could be held liable if they place sexually
abusive employees in proximity to children. Here, the
jury properly found that Defendant supervised Curley
and Schultz, the individuals who apprised Defendant
of both the 1998 and 2001 shower incidents involving
Sandusky. As their supervisor, upon learning of the
2001 incident, Defendant, along with Curley and
Schultz, devised a plan to handle the matter that involved reporting Sandusky to the DPW, and Defendant
himself made the decision to place Curley in charge of
executing the plan. When Curley became uncomfortable with the idea of informing DPW about the incident,
he informed Schultz and Defendant of a new plan of
action in which DPW would no longer be informed of
the incident, and Defendant acquiesced with the new
plan. Curley, who still was in charge of handling the
matter, executed the new plan and took no steps to inform DPW of the incident, nor did he apprise any lawenforcement authorities of the incident. Furthermore,
although Curley spoke with Sandusky and directing
him to refrain from bringing any more children into
campus athletic facilities, Curley took no further steps
to apprise campus police of this directive and took no
other steps to ensure the enforcement of this directive.
Defendant offered no objection to Curley’s incomplete

173a
action. As Curley’s direct supervisor, if Defendant disapproved of the manner in which Curley handled the
2001 incident, he could have demanded different or additional action of Curley, or rejected Curley’s new proposed plan. The jury therefore properly concluded that
Defendant, by acquiescing with the new plan and by
failing to object to Curley’s actions or inactions with
respect to Sandusky, placed children in proximity to an
individual (i.e. Sandusky) as to allow the children to be
abused by Sandusky.
APPLICATION OF THE 2007 VERSION OF 18
PA. C.S. § 4304 TO THIS CASE DID NOT VIOLATE STATE AND FEDERAL EX POST FACTO
CLAUSES.
The version of 18 Pa. C.S. § 4304 that existed in
2001 is as follows: “A parent, guardian, or other person
supervising the welfare of a child under 18 years of age
commits an offense if he knowingly endangers the welfare of the child by violating a duty of care, protection
or support.” 18 Pa. C.S. § 4304(a) (1995). This statute
was changed in 2007 to read as follows: “A parent,
guardian or other person supervising the welfare of a
child under 18 years of age, or a person that employs
or supervises such a person, commits an offense if he
knowingly endangers the welfare of the child by violating a duty of care, protection or support.” 18 Pa. C.S.
§ 4304(a)(1) (emphasis added). The Court instructed the
jury pursuant to the 2007 version of Section 4304. (Transcript of Proceedings, Jury Trial – Closing and Charge,
pp. 106-107, hereinafter, “N.T. Closing and Charge”).

174a
The Ex Post Facto clause states: “[n]o ex post facto
law, nor any law impairing the obligation of contracts,
or making irrevocable any grant of special privileges
or immunities, shall be passed.” Pa. Const. art. I, § 17.
A law violates this clause if it, in relevant part: “(1)
makes an action done before the passing of the law, and
which was innocent when done, criminal, and punishes
such action . . . ” Com. v. Allshouse, 36 A.3d 163, 184
(Pa. 2012) (citations omitted).
Defendant claims that utilization of the 2007 version of Section 4304 violates the Ex Post Facto clause
because the actions that he was convicted of occurred
in 2001, and the 2007 amendment expanded the scope
of the statute to include persons employing or supervising someone who is supervising the welfare of a
child. Thus, he appears to be asserting that his actions
were innocent when done in 2001, but did not become
criminal until the 2007 amendment.
In order to determine whether or not this violates
the Ex Post Facto clause, it is necessary to examine the
history behind the change of the law. In Com. v. Lynn,
114 A.3d 796 (Pa. 2015), a priest by the name of William Lynn was Secretary of the Clergy in the Archdiocese of Philadelphia. In this position, Lynn was
responsible for ensuring that parishes had enough
priests, resolving disputes among priests and handling
clergy sexual abuse issues. Id. at 798. Near the end of
his tenure as Secretary of the Clergy, the Philadelphia
District Attorney began investigating the Archdiocese
of Philadelphia for clergy sex abuse complaints. Id. at
806-07. A grand jury was empaneled, and Lynn was

175a
subpoenaed to testify and provide documents related
to priests accused of sexual abuse. Id. at 807.
The grand jury issued a report in 2005, concluding
that the statute pertaining to the crime of endangering
the welfare of a child was written in a way that would
allow church ofﬁcials, such as Lynn to escape criminal
liability. Id. The report further concluded that the offense of endangering the welfare of a child is too narrow to support prosecution of the decision makers who
were running the Archdiocese because they were too
far removed from any direct contact with children. Id.
Based on this interpretation, the grand jury did not
recommend any criminal charges against Lynn, but instead recommended that the statute be amended to include those who were in an employer or supervising
capacity. Id. The legislature complied with this recommendation in 2006 and amended the statute, effective
January 27, 2007 to include the above-stated language.
Id.
Despite this grand jury report, the Commonwealth charged Lynn in 2011 with two counts of Endangering the Welfare of a Child (EWOC) and two
counts of conspiracy to commit same. Id. Lynn sought
to quash these charges on the basis that he had no connection to the children whose welfare he was accused
of having endangered. Id. at 808. After a trial, Lynn
was found guilty of one count of EWOC and appealed
that conviction to the Superior Court, where it was
overturned. The Commonwealth appealed to the Pennsylvania Supreme Court, and their petition for allowance of appeal was granted to address, in relevant part,

176a
whether or not the evidence was sufﬁcient to prove endangering the welfare of children when Lynn did not
have direct contact with those children. Id. at 817.
On appeal, the Pennsylvania Supreme Court
noted that, although criminal statutes are generally to
be strictly construed, in the unique case of EWOC, the
statute must be construed in order to effectuate its
broad purpose of protecting children. Id. at 818. Specifically, the juvenile statutes are written expansively to
criminalize behavior that produces or tends to produce
a deﬁned result, rather than preparing a list of all illegal conduct. Id. Thus, the EWOC statute is drawn
broadly to criminalize conduct that involves the endangering of the physical or moral welfare of a child. Id. at
819.
Based on the language of the 1995 statute, the
Pennsylvania Supreme Court held that the statute
was unambiguous that it is not the child that Lynn
must have been supervising, but the child’s welfare. Id.
at 823. Therefore, the Commonwealth need only have
demonstrated evidence that Lynn was supervising the
child’s physical or moral welfare. Id. at 824. However,
the requirement of supervision was not limited to only
direct or actual supervision. Id. Rather, the plain terms
of the statute, as it existed from 1995 until 2007, encompasses all forms of supervision of a child’s welfare.
Id. Supervision is often done through subordinates, but
that does not make it any less supervisory if it does not
involve personal encounters with the children at issue.
Id. Therefore, depending on the facts of a case, a school
principal or manager of a day care center could be held

177a
criminally liable for endangering the welfare of the
children under their supervision if they knowingly
place sexually abusive employees in such proximity to
them as to allow for the abuse of these youth. Id.
Based upon the Supreme Court’s analysis in Lynn,
the EWOC statute, as it existed in 2001 when the incident at issue occurred, encompassed persons who employed or supervised persons who supervised the
welfare of children. Thus, it is irrelevant that the statute was later changed to explicitly include this class of
persons, because they were already included in the
plain language of the 1995 statute. Therefore, as a person who employed or supervised persons who supervised the welfare of children, Defendant’s conviction
does not violate the Ex Post Facto clause.
THE WEIGHT OF THE EVIDENCE WELL SUPPORTS THE JURY’S VERDICT OF GUILTY OF
ENDANGERING THE WELFARE OF CHILDREN
(VIOLATING A DUTY OF CARE, PROTECTION
OR SUPPORT).
In reviewing a Defendant’s claim that a verdict
was against the weight of the evidence, the Superior
Court is guided by the following principle:
An allegation that the verdict is against the
weight of the evidence is addressed to the discretion of the trial court. A new trial should
not be granted because of a mere conﬂict in
the testimony or because the judge on the
same facts would have arrived at a different

178a
conclusion. A trial judge must do more than
reassess the credibility of the witnesses and
allege that he would not have assented to the
verdict if he were a juror. Trial judges, in reviewing a claim that the verdict is against the
weight of the evidence do not sit as the thirteenth juror. Rather, the role of the trial judge
is to determine that notwithstanding all the
facts, certain facts are so clearly of greater
weight that to ignore them or to give them
equal weight with all the facts is to deny justice.
Com. v. Smith, 853 A.2d 1020, 1028 (Pa. Super. Ct.
2004) (citations omitted).
Here, Defendant the jury found Defendant guilty
of EWOC under Section 4304(a)(1) of the Pennsylvania
Crimes Code. A person commits such offense if he or
she is “[a] parent, guardian or other person supervising
the welfare of a child under 18 years of age, or a person
that employs or supervises such a person” and “knowingly endangers the welfare of the child by violating a
duty of care, protection or support.” As set forth in
Lynn, the Commonwealth need only demonstrate evidence that Defendant was supervising the child or children’s physical or moral welfare. Lynn, 114 A.3d at 824
The jury considered testimony that Curley and
Schultz apprised Defendant of both the incident that
occurred in 1998 as well as the 2001 incident that
McQueary observed in the shower. (N.T. Jury Trial, pp.
361-362; p. 430). Because Defendant was the President
of the University where the incident occurred, the jury

179a
could properly ﬁnd that Defendant supervised the
physical and moral welfare of all minor children present on the University campus, even absent direct contact with them. Pursuant to Lynn, a position is no less
supervisory when administered through subordinates.
Lynn, 114 A.3d at 824. Ample evidence existed upon
which the jury could properly conclude that Defendant
supervised the welfare of a child under 18 years of age.
In addition, the jury considered testimony that
Defendant participated in developing a plan as to how
to handle the 2001 incident that McQueary observed.
(N.T. Jury Trial, pp. 432-433). Defendant, Curley and
Schultz, initially created the three-step plan which included notiﬁcation to DPW. (N.T. Jury Trial, p. 373; pp.
444-445). The jury could therefore conclude that Defendant was aware that a child and/or children were in
danger of being sexually abused by Sandusky, on the
campus under his administration’s supervision, and
that the abuse should be reported to the proper authorities. Once the plan changed to eliminate notice to
DPW, Defendant authored an email that acknowledged
a duty to report the abuse. (“The only downside for us
is if the message isn’t heard and acted upon and then
we become vulnerable for not having reported it.”).
Based upon Defendant’s acknowledgment of a
duty to report known or suspected incidents of abuse,
ample evidence existed upon which the jury could
properly ﬁnd that Defendant knowingly endangered
the welfare of children by violating a duty of care, protection or support, and the verdict was not against the
weight of the evidence.

180a
THIS COURT DID NOT ERR BY GRANTING
THE COMMONWEALTH’S MOTION TO AMEND
THE INFORMATION AND REINSTATE THE
CONSPIRACY TO COMMIT EWOC CHARGE
AGAINST DEFENDANT.
In his ﬁfth statement of error, Defendant asserts
that this Court erred in granting the Commonwealth’s
motion to amend the information and reinstate the
conspiracy to commit EWOC charge. Defendant claims
that this charge was barred by the Superior Court, and
inclusion of same was highly prejudicial.
Initially, we note that Defendant was found not
guilty of the conspiracy charge. Nevertheless, amendment of an information is allowed “when there is a
defect in form, the description of the offense(s), the description of any person or any property, or the date
charged, provided the information as amended does
not charge an additional or different offense.” Pa. R.
Crim. P. 564. In determining whether to allow the
Commonwealth to amend the information, the Court
must assess:
[w]hether the crimes speciﬁed in the original
indictment or information involve the same
basic elements and evolved out of the same
factual situation as the crimes speciﬁed in the
amended indictment or information. If so,
then the defendant is deemed to have been
placed on notice regarding his alleged criminal conduct. If, however, the amended provision alleges a different set of events, or the
elements or defenses to the amended crime

181a
are materially different from the elements or
defenses to the crime originally charged, such
that the defendant would be prejudiced by the
change, then the amendment is not permitted.
Com. v. Sinclair, 897 A.2d 1218, 1221 (Pa. Super. Ct.
2006). Defendant suffers no prejudice “[w]here the
crimes speciﬁed in the original information involved
the same basic elements and arose out of the same factual situation as the crime added by the amendment.”
Id. at 1222.
Here, the Commonwealth’s original criminal
complaint filed on November 1, 2012, included three
separate conspiracy charges, including a charge of
conspiracy to commit EWOC. Defendant cannot argue
a lack of notice as to the alleged criminal conduct. The
request for amendment sought to reinstate a conspiracy charge quashed as a result of the Commonwealth’s
efforts to streamline this matter by consolidating three
conspiracy charges into one. One of the crimes speciﬁed in the original information is exactly the same as
the crime added by the amendment, and there can be
no prejudice to the Defendant.3 See id.
Defendant also argues that inclusion of this
charge violates the law of the case doctrine because the
sole conspiracy charge, which encompassed three separate conspiracy charges, was quashed by the Superior
3

Defendant asserts that this charge was instituted after the
applicable statute of limitations and should be barred for that reason. However, the charge of conspiracy to commit EWOC has always been included in this case, and the statute of limitations is
thus not an issue.

182a
Court. The law of the case doctrine “refers to a family
of rules which embody the concept that a court involved in the later phases of a litigated matter should
not reopen questions decided by another judge of that
same court or by a higher court in the earlier phases of
the matter.” Com. v. Starr, 664 A.2d 1326, 1331 (Pa.
1995)
In its Memorandum Opinion, in this case, the Superior Court held: “Accordingly, and in light of our holdings in Schultz and Curley, we quash the challenged
charges of perjury, obstruction of justice, and conspiracy to commit those crimes.” Com. v. Spanier, 132 A.3d
481, 498 (Pa. Super. Ct. 2016), reargument denied
(Mar. 30, 2016) (emphasis added). Based on this language, the Superior Court intended only to quash the
conspiracy charges related to the charges of perjury
and obstruction of justice. Allowing amendment of the
information to reinstate the charge of conspiracy to
commit EWOC was proper.
THE COURT PROPERLY INSTRUCTED THE
JURY WITH EXPLANATION OF ENDANGERING THE WELFARE OF CHILDREN (VIOLATING A DUTY OF CARE, PROTECTION OR
SUPPORT)
In reviewing a challenge to a trial court’s instructions to a jury, the Superior Court is guided by the following principles:
In examining the propriety of the instructions
a trial court presents to a jury, our scope of

183a
review is to determine whether the trial court
committed a clear abuse of discretion or an error of law which controlled the outcome of the
case. A jury charge will be deemed erroneous
only if the charge as a whole is inadequate,
not clear or has a tendency to mislead or confuse, rather than clarify, a material issue. A
charge is considered adequate unless the jury
was palpably misled by what the trial judge
said or there is an omission which is tantamount to fundamental error. Consequently,
the trial court has wide discretion in fashioning jury instructions. The trial court is not required to give every charge that is requested
by the parties and its refusal to give a requested charge does not require reversal unless the Appellant was prejudiced by that
refusal.
Commonwealth v. Thomas, 904 A.2d 964, 970 (Pa. Super. Ct. 2006) (internal citations, quotations, and
brackets omitted). Stated differently, the Superior
Court has acknowledged that it must “review challenges to jury instructions under an abuse of discretion
standard and may reverse not where the court fails to
use the speciﬁc language requested by the accused, but
rather only where the applicable law is not adequately,
accurately and clearly communicated to the jury. Commonwealth v. Leber, 802 A.2d 648, 651 (Pa. Super. Ct.
2002) (citation omitted).
Here, in providing the Standard Jury Instruction pertaining to the offense of Endangering the
Welfare of Children under Section 4304(a)(1) of the

184a
Pennsylvania Crimes Code, the Court adequately, accurately, and clearly communicated the applicable law
to the jury, and, furthermore, this instruction did not
palpably mislead the jury.
As previously discussed, Section 4304(a)(1) of the
Crimes Code provides that “[a] parent, guardian or
other person supervising the welfare of a child under
18 years of age, or a person that employs or supervises
such a person, commits an offense if he knowingly endangers the welfare of the child by violating a duty of
care, protection or support.” 18 Pa.C.S. § 4301(a)(1).
The Standard Jury Instruction given to the jury in this
matter accurately set forth the requirements set forth
by that statute, and, furthermore, the Standard Instruction provided a description of the critical legal
terms contained therein. For example, the Standard
Instruction speciﬁcally explains what it means for a
defendant’s conduct to be knowing, and it speciﬁcally
deﬁnes the term “person supervising the welfare of a
child.”
Defendant contends that the instruction given
was inadequate because it did not offer a more detailed
explanation of each of the elements of the offense, and
he argues that this Court erred by failing to charge the
jury with Defendant’s proposed instruction which described the elements of the offense in much more detail
based on the interpretation of these elements by various case law.
The trial court is not required to give every charge
that is requested by the parties and its refusal to give

185a
a requested charge does not require reversal unless the
Appellant was prejudiced by that refusal. In this matter, even though Defendant contends that we erred by
refusing to charge the jury with his proposed jury instructions that were more inspired by case precedent
and interpretation, there is no indication that such
omission prejudiced defendant. As such, our refusal to
give Defendant’s instruction does not warrant a reversal of the jury’s guilty verdict.
THE COURT PROPERLY INSTRUCTED THE
JURY ON THE 2007 VERSION OF 18 Pa.C.S.
§ 4304 INSTEAD OF THE 2001 VERSION.
As in his third statement of error, Defendant contends that application of the 2007 version of 18 Pa.C.S.
§ 4304 to his criminal case violates the state and federal Ex Post Facto clauses. Defendant asserts that the
Court therefore erred in instructing the jury with the
language of the 2007 version. As we concluded in discussion of Defendant’s third statement of error, application the 2007 version of 18 Pa.C.S. § 4304 to his
criminal did not constitute a violation of either the
state or federal Ex Post Facto clause. Therefore, instructing the jury with the language of the 2007 version did not violate the Ex Post Facto clauses.

186a
THE COURT PROPERLY DECLINED TO INSTRUCT THE JURY ON THE STATUTE OF
LIMITATIONS FOR ENDANGERING THE WELFARE OF CHILDREN (VIOLATING A DUTY OF
CARE, PROTECTION OR SUPPORT).
Defendant’s claim that the Court erred by failing
to instruct the jury on the statute of limitations for
Count 1 lacks merit. As we have concluded, the statute
of limitations did not bar charging the Defendant with
Endangering the Welfare of Children (Violating a Duty
of Care, Protection or Support). For those same reasons, the Court properly refrained from instructing the
jury as to the statute of limitations.
THE COURT PROPERLY INSTRUCTED THE
JURY ON CONSCIOUSNESS OF GUILT.
Defendant contends that “a consciousness of guilt
instruction is only appropriate when evidence is presented that logically is linked to the commission of the
charged offenses, such as a defendant’s efforts to cover
up a crime through threats or violence against witnesses or attempts to mislead investigators.” See Defendant’s Concise Statement of Errors Complained of
on Appeal, 7/17/17, at ¶ 9. Defendant contends that
none of the evidence to which the Commonwealth
pointed in requesting a consciousness-of-guilt instruction is the type from which a jury could infer consciousness of guilt.
With regard to consciousness-of-guilt, we charged
the jury as follows:

187a
The Commonwealth contended that there was
evidence tending to show that the defendant
entered into some conduct, which I will not go
into, which the Commonwealth would have
you infer was a consciousness by the defendant of his guilt. If you believe that that evidence was presented and that it is material to
your decision, you may consider it as tending to prove the defendant’s consciousness of
guilt; however, you are not required to do so.
You should consider and weigh any evidence
that you think belongs in this category along
with all of the other evidence in this case.
(N.T. Closing and Charge, p. 112).
The Court may properly instruct on consciousness
of guilt even where motives other than consciousness
of guilt may explain a defendant’s action or inaction.
See, e.g., Commonwealth v. Garcia, 847 A.2d 67, 73 (Pa.
Super. Ct. 2004) (holding that a trial court’s consciousness of guilt instruction was appropriate when the instruction “explained that a motive other than
consciousness of guilt” could have prompted the conduct in question); Commonwealth v. Lukowich, 875
A.2d 1169, 1175 (Pa. Super. Ct. 2005) (holding that a
consciousness of guilt jury instruction was appropriate
when it “correctly advised the jury that it could consider the evidence of consciousness of guilt, but that it
was not required to do so.”).
The Court’s instruction properly informed the jury
that the Commonwealth argued that some conduct by
Defendant may infer a consciousness of his guilt. We

188a
did not specify what conduct, and instructed the jury
to determine whether the Commonwealth presented
any evidence of such conduct. We instructed the jury
that they were not required to consider any such evidence as Defendant’s consciousness of guilt.
No error occurred in providing the instruction.
Ample evidence existed upon which the jury could ﬁnd
Defendant guilty even absent consideration of consciousness of guilt. See Commonwealth v. Brown, 911
A.2d 576, 582-83 (Pa. Super. Ct. 2006) (“In examining
the propriety of the instructions a trial court presents
to a jury, our scope of review is to determine whether
the trial court committed a clear abuse of discretion or
an error of law which controlled the outcome of the
case.”) (citation omitted) (emphasis added).
CONCLUSION
While the legal arguments of Defendant are pertinent and material, they do not persuade this Court
that it has erred in the application of the law to the
case at bar. For all of the foregoing reasons, the judgment of sentence should be afﬁrmed.
BY THE COURT:
/s/ John A. Boccabella
JOHN A. BOCCABELLA, S.J.
September 22, 2017

189a
Distribution:
Laura Ditka, Esquire, Chief Deputy Attorney General
Patrick Shulte, Esquire, Deputy Attorney General
Ofﬁce of Pa. Attorney General, Criminal Prosecutions
Section, 16th Floor-Strawberry Square,
Harrisburg, PA 17120
(Attorneys for the Commonwealth)
Timothy K. Lewis, Esquire
Elizabeth K. Ainslie, Esquire
Samuel W. Silver, Esquire
Bruce P. Merenstein, Esquire
1600 Market Street, Suite 3600
Philadelphia, PA 19103
(Attorneys for Defendant)
Senior Judges’ Chambers

190a
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 19-2228
-----------------------------------------------------------------------

GRAHAM B. SPANIER
v.
DIRECTOR DAUPHIN COUNTY
PROBATION SERVICES;
ATTORNEY GENERAL PENNSYLVANIA,
Appellants
-----------------------------------------------------------------------

(D.C. No. 3-19-cv-00523)
-----------------------------------------------------------------------

Present: McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ,
KRAUSE, RESTREPO, BIBAS, PORTER, MATEY,
PHIPPS, and FISHER1, Circuit Judges.
-----------------------------------------------------------------------

SUR PETITION FOR REHEARING
WITH SUGGESTION FOR REHEARING EN BANC
-----------------------------------------------------------------------

The petition for rehearing ﬁled by Appellee, Graham B. Spanier in the above-entitled case having been
1

Judge Fisher’s vote is limited to panel rehearing only.

191a
submitted to the judges who participated in the decision of this Court and to all the other available circuit
judges of the circuit in regular active service, and no
judge who concurred in the decision having asked for
rehearing, and a majority of the judges of the circuit in
regular service not having voted for rehearing, the petition for rehearing by the panel and the Court en banc,
is denied.
BY THE COURT:
s/ D. Michael Fisher
Circuit Judge
Dated: January 4, 2021
Tmm/cc: All Counsel of Record

